No. ____________
__________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________________
CHARLES VICTOR THOMPSON,
Petitioner,
-vBOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, INSTITUTIONAL DIVISION,
Respondent.
On petition for writ of certiorari to the
United States Court of Appeals for the Fifth Circuit
__________________________________________________
Appendix
__________________________________________________
Jonathan Landers
917 Franklin; Suite 300
Houston, TX 77002
Jlanders.law@gmail.com
Member, Supreme Court Bar
(713) 685-5000 (work)
(713) 513-5505 (fax)
Counsel of Record

Seth Kretzer
LAW OFFICES OF SETH KRETZER
440 Louisiana Street; Suite 1440
Houston, TX 77002
seth@kretzerfirm.com
Member, Supreme Court Bar
(713) 775-3050 (work)
(713) 929-2019 (fax)
COURT-APPOINTED
ATTORNEYS
PETITIONER THOMPSON

FOR

APPENDIX TABLE OF CONTENTS
Appendix A - Thompson v. Davis, 941 F.3d 813 (5th Cir. 2019) – p. 1
Appendix B - Thompson v. Davis, 916 F.3d 444 (5th Cir. 2019) – p. 11
Appendix C - Thompson v. Davis, CV H-13-1900, 2017 WL 1092309 (S.D. Tex. Mar.
23, 2017) – p. 42
Appendix D - Thompson v. State, 93 S.W.3d 16 (2001) – p. 107
Appendix E - Thompson v. State, 108 S.W.3d 269 (2003) – p. 123
Appendix F – Circuit Court’s May 7, 2020 order denying rehearing – p. 136
Appendix G - Robin Rhodes (aka Robert Lee) Contract – p. 138
Appendix H - Dismissal noting Robert Rhodes Contract – p. 141
Appendix I - Rhodes Motion Explaining Informant Status – p. 143
Appendix J - District Attorney Interoffice Memorandum – p. 148
Appendix K - Hand Written Note Produced by District Attorney’s Office – p. 151
Appendix L - Hand Written Timeline Produced by District Attorney's Office – p. 153

CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rule 29 Petitioner Thompson, through counsel, certifies that all parties
required to be served have been served with the Petition for Writ of Certiorari. The document has
been delivered to opposing counsel of record at ari.cuenin@oag.texas.gov. In addition, a copy
was mailed to opposing counsel at:

Mr. Ari Cuenin
P.O. Box 12548, Capitol Station
Austin, Texas 78711
/s/ Jonathan Landers
Jonathan Landers
917 Franklin, Suite 300
Houston Texas 77002
(713) 685-5000
Jlanders.law@gmail.com
Member of Supreme Court Bar

Appendix A

Appendix Page no. 1

Case: 17-70008

Document: 00515179080

Page: 1

Date Filed: 10/29/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-70008

United States Court of Appeals
Fifth Circuit

FILED
CHARLES VICTOR THOMPSON,
Petitioner - Appellant

October 29, 2019
Lyle W. Cayce
Clerk

v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District of Texas
Before HIGGINBOTHAM, HAYNES, and GRAVES, Circuit Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
In 1999, Charles Victor Thompson was convicted of murdering Glenda
Dennise Hayslip and Darren Cain and sentenced to death. 1 On direct review,
the Texas Court of Criminal Appeals affirmed Thompson’s conviction but
ordered a retrial on punishment. 2 At the retrial, the State called Robin Rhodes,
who testified that while the two men were detained together in the Harris
Thompson v. State, 93 S.W.3d 16, 18–20 (Tex. Crim. App. 2001).
Id. at 29. The court found that the State had violated Thompson’s Sixth Amendment
right to counsel by sending an undercover investigator, who later testified at the punishment
phase of the trial, to meet with Thompson in jail and obtain information about Thompson’s
plot to have a witness murdered. The solicitation plot discussed in this opinion was a
separate, subsequent effort involving a different intended hitman.
1
2

Appendix Page no. 2

Case: 17-70008

Document: 00515179080

Page: 2

Date Filed: 10/29/2019

County Jail, Thompson had solicited him to murder a “hit list” of potential
State witnesses. 3 Rhodes also testified that no one from the State had directed
him to obtain information from Thompson; he simply saw an opportunity and
seized it. 4
On cross-examination, Rhodes explained that he had a longstanding
working relationship with the State and had previously received large sums of
money for his cooperation in other cases, 5 including up to $30,000 for his
testimony in a prior capital murder trial. 6 In fact, Rhodes described himself as
being a “full time informant” for the State at the time of his encounter with
Thompson 7 and stated that he informed on “pretty much whatever situation
[he] stumbled into.” The jury also learned that Rhodes had testified in a 1999
drug case against his fiancée. 8 As part of his testimony in that case, Rhodes
told the jury that he had worked for Harris County law enforcement “as a
confidential informant in over 50 cases, more than 80 percent of which resulted
in convictions; [and] that he had twice testified for the State, including once in
a capital murder prosecution.” 9
The trial court denied Thompson’s motion to strike Rhodes’s testimony,
and Thompson was again sentenced to death. 10 After his direct appeal and
three state habeas petitions proved unsuccessful, Thompson sought federal
habeas relief in 2014. Also in 2014, Thompson’s counsel received the following
items in response to a Public Information Act (PIA) request for information
related to Robin Rhodes:
Thompson v. Stephens, 2014 WL 2765666, at *1 (S.D. Tex. June 18, 2014).
Thompson v. Davis, 916 F.3d 444, 456 (5th Cir. 2019).
5 Id.
6 See Benavides v. State, 992 S.W.2d 511 (Tex. App. 1999).
7 Thompson, 916 F.3d at 456.
8 Stephens v. State, 59 S.W.3d 377, 381 (Tex. App. 2001).
9 Id.
10 Thompson v. State, No. AP-73,431, 2007 WL 3208755, at *1 (Tex. Crim. App. Oct.
31, 2007).
3
4

Appendix Page no. 3

Case: 17-70008

Document: 00515179080

Page: 3

Date Filed: 10/29/2019

1. A 1993 informant contract executed by Rhodes (under the pseudonym
Robert Lee), his police handler Floyd Winkler, and Assistant District
Attorney Joan Huffman. The contract, which began in August 1993 and
was valid for three months, provided that the prosecutor would drop
Rhodes’s pending theft charge if Rhodes could provide information
leading to drug arrests and seizures.
2. A 1997 pro se sentence-reduction motion in which Rhodes, then serving
a two-year state prison term, stated that he “ha[d] cooperated in
extensive narcotics investigations approximately (20) twenty [to]
twenty-five (25) in number,” which had led to numerous arrests and
convictions. Rhodes also stated that he had been cooperating “with the
Harris County Organized Crime Task Force since 1993.”
3. A memorandum dated August 25, 1998 in which the DA’s investigator
Mike Kelly reported Rhodes’s statement that he had spoken with
Thompson about the solicitation plot and obtained Thompson’s “hit list”
on August 21.
4. A handwritten note from the prosecutor’s file that appears to list
Rhodes’s contact information and a quote (presumably from Thompson,
though unattributed) describing a woman who he “thought [was the]
only witness” as a “bitch” who “had it coming.” The second-to-last line of
the note says: “contacted Floyd, get in hand.” Presumably, “Floyd” is
Rhodes’s police handler, Officer Floyd Winkler. Thompson contends that
this line demonstrates that Winkler “instructed Rhodes to get proof of
Thompson’s solicitation request.”
5. Another handwritten note from the prosecutor’s file outlining
Thompson’s interactions with Rhodes. In the left-hand margin near the
top of the page is a partial date—“/13/98”—with the month missing.
Thompson claims that the missing month was August, and that the note

Appendix Page no. 4

Case: 17-70008

Document: 00515179080

Page: 4

Date Filed: 10/29/2019

therefore proves Rhodes was talking to authorities about the case before
he ever interacted with Thompson.
6. A transcript of Rhodes’s testimony in the Stephens case. In addition to
the testimony described above, the transcript shows that Rhodes claimed
that “approximately 80 percent of the cases that [he] participated in . . .
resulted in arrest and conviction.”
The district court denied Thompson relief on all fourteen of his claims
and denied his motion for a hearing. This Court granted Thompson a certificate
of appealability on his claim that the State violated his “rights to due process
and counsel when it introduced the testimony of fellow inmate Robin Rhodes
during the retrial on punishment.” 11 Citing Massiah v. United States, 12
Thompson argues that Rhodes was acting on behalf of the State during their
jailhouse conversations, and thus his testimony violated Thompson’s Sixth
Amendment right to counsel. Although the Massiah claim is procedurally
defaulted, Thompson argues he can overcome the procedural bar by showing
that the prosecution violated its Brady 13 obligations by concealing facts that,
if known, would have led to the exclusion of Rhodes’s testimony on Massiah
grounds. And without Rhodes’s testimony, Thompson claims, the jury likely
would not have resentenced him to death.
Assuming only for the sake of argument that Thompson could prove the
first two elements of a Brady violation—favorability and suppression 14—he
cannot show “a reasonable probability that, had the evidence been disclosed to
the defense, the result of the proceeding would have been different.” 15 That is,
Thompson cannot show that the PIA-request evidence would have led to the
Thompson, 916 F.3d at 455.
377 U.S. 201 (1964).
13 See Brady v. Maryland, 373 U.S. 83, 87 (1963).
14 See Strickler v. Greene, 527 U.S. 263, 281–82 (1999).
15 United States v. Bagley, 473 U.S. 667, 675 (1985); see Banks v. Dretke, 540 U.S. 668,
691 (2004).
11
12

Appendix Page no. 5

Case: 17-70008

Document: 00515179080

Page: 5

Date Filed: 10/29/2019

exclusion of Rhodes’s testimony on Massiah grounds, much less to a more
favorable sentence. To establish a Massiah violation, a defendant must show:
“(1) a Sixth Amendment right to counsel had attached; (2) an individual
seeking the information was a government agent acting without the
defendant’s counsel being present; and (3) that the agent deliberately elicited
incriminating statements from the defendant.” 16
It may be debatable whether Thompson’s right to counsel had attached
when he spoke to Rhodes, but it is plain that Rhodes was not acting as a
government agent. To prove an agency relationship between the government
and a jailhouse informant, a defendant must show that “the informant: (1) was
promised, reasonably led to believe [that he would receive], or actually received
a benefit in exchange for soliciting information from the defendant; and (2)
acted pursuant to instructions from the State, or otherwise submitted to the
State’s control.” 17 Thompson has not met his burden as to either element. To
the contrary, the evidence supports the State’s contention that “although
Rhodes saw an opportunity to help himself if Thompson discussed the
solicitation plot, he did not elicit information from Thompson at the behest of
the State.” After all, an informant cannot be an agent of the State without the
State’s knowledge or consent, 18 and there is no credible evidence that Rhodes
had any contact with the State regarding Thompson until after he had
discussed the solicitation plot with Thompson and obtained his hit list.
Of the six PIA items identified by Thompson, the sentence-reduction
motion, Mike Kelly memorandum, and Stephens transcript are all cumulative
of testimony presented to the jury at the retrial—namely, that Rhodes, a
United States v. Bates, 850 F.3d 807, 810 (5th Cir. 2017) (citing Henderson v.
Quarterman, 460 F.3d 654, 664 (5th Cir. 2006)).
17 Id. (emphasis added) (quoting Creel v. Johnson, 162 F.3d 385, 393 (5th Cir. 1998)).
18 See Karl Rove & Co. v. Thornburgh, 39 F.3d 1273, 1296 (5th Cir. 1994) (“As in the
formation of any contract, the consent of both parties is necessary to establish an agency
relationship.”).
16

Appendix Page no. 6

Case: 17-70008

Document: 00515179080

Page: 6

Date Filed: 10/29/2019

longtime, full-time informant who frequently testified in exchange for money,
spoke with Thompson and obtained his hit list on August 21, 1998. 19 It is well
established that “when the undisclosed evidence is merely cumulative of other
evidence in the record, no Brady violation occurs.” 20
As for the rest of the evidence, the two handwritten notes from the
prosecution’s files do not support the inferences Thompson would have us draw
from them. Thompson argues that the “get in hand” notation in the first note
and the missing month in the second (which he asserts, without evidence, must
be August) prove that Rhodes approached Thompson in jail at the request of
Officer Winkler. These claims are speculative, and this Court has long
recognized that it is “unwise to infer the existence of Brady material based
upon speculation alone.” 21 Likewise, although the informant contract does
show that Rhodes worked with Officer Winkler as far back as 1993, the
contract only lasted three months and its target was drug dealing, not the
murder-solicitation plot Rhodes uncovered in this case. We cannot conclude
that this contract indicates Rhodes was acting under Winkler’s instructions
when he spoke with Thompson in jail nearly five years after the contract’s 90day term had expired.
Finally, Rhodes’s previous, short-term agency relationship with the DA,
evidenced by the 1993 informant contract, does not turn him into a perpetual
agent. As we stated in United States v. Fields, a jailhouse informant is not a
government agent simply because he has “previously cooperated with the
government” and decides to capitalize on “an opportunity to do so again” by
eliciting incriminating information from a cellmate. 22 Moreover, the fact that
See Thompson, 93 S.W.3d at 18; Thompson, 2014 WL 2765666, at *1.
United States v. Sipe, 388 F.3d 471, 478 (5th Cir. 2004) (internal alterations
omitted) (quoting Spence v. Johnson, 80 F.3d 989, 995 (5th Cir. 1996)).
21 United States v. Stanford, 823 F.3d 814, 841 (5th Cir. 2016) (quoting United States
v. Williams-Davis, 90 F.3d 490, 514 (D.C. Cir. 1996)).
22 761 F.3d 443, 478 (5th Cir. 2014).
19
20

Appendix Page no. 7

Case: 17-70008

Document: 00515179080

Page: 7

Date Filed: 10/29/2019

Rhodes correctly expected, based on his past interactions with the State, “that
he would receive a benefit for his testimony” does not make him a State agent.
It is not enough for an informant to believe he will receive a benefit in exchange
for his testimony; to be a government agent, he must be “led to believe” he will
receive that benefit. 23
In short, because Thompson has shown no evidence that the State
controlled—or even consented to—Rhodes’s informant activity, there is no
valid Massiah claim that could have affected the outcome of the punishment
retrial. Accordingly, we affirm the district court’s denial of habeas relief.

23

Bates, 850 F.3d at 810 (emphasis added) (quoting Creel, 162 F.3d at 393).

Appendix Page no. 8

Case: 17-70008

Document: 00515179088

Page: 1

Date Filed: 10/29/2019

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

October 29, 2019
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 17-70008

Charles Thompson v. Lorie Davis, Director
USDC No. 4:13-CV-1900

--------------------------------------------------Enclosed is a copy of the court's decision. The court has entered
judgment under FED. R. APP. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
FED. R. APP. P. 39 through 41, and 5TH CIR. R.s 35, 39, and 41 govern
costs, rehearings, and mandates. 5TH CIR. R.s 35 and 40 require
you to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
FED. R. APP. P. 40 and 5TH CIR. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH CIR. R. 41 provides that a motion for
a stay of mandate under FED. R. APP. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under FED. R. APP. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Appendix Page no. 9

Case: 17-70008

Document: 00515179088

Page: 2

Date Filed: 10/29/2019

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Mr.
Mr.
Mr.
Mr.

Ari Cuenin
Stephen M. Hoffman
Seth Kretzer
Jonathan David Landers

Appendix Page no. 10

Appendix B

Appendix Page no. 11

Case: 17-70008

Document: 00514838385

Page: 1

Date Filed: 02/18/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-70008

United States Court of Appeals
Fifth Circuit

FILED
February 18, 2019

CHARLES VICTOR THOMPSON,

Lyle W. Cayce
Clerk

Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District of Texas
Before HIGGINBOTHAM, HAYNES, and GRAVES, Circuit Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
Charles Victor Thompson was convicted by a Texas jury of capital
murder and sentenced to death. After direct appeal and collateral review in
state court, he petitioned the federal district court for a writ of habeas corpus,
challenging the constitutionality of his conviction and sentence. The district
court denied relief. Thompson now seeks a certificate of appealability (COA).
We grant a COA on Thompson’s second claim concerning the testimony of a
state witness during his retrial on punishment. We otherwise deny his
application for COAs on all other claims and affirm the district court’s denial
of an evidentiary hearing.

Appendix Page no. 12

Case: 17-70008

Document: 00514838385

Page: 2

Date Filed: 02/18/2019

I.
In the early hours of April 30, 1998, responding to a call, police arrived
at the apartment of Glenda Dennise Hayslip to find Hayslip’s boyfriend,
Darren Cain, arguing with Thompson, Hayslip’s ex-boyfriend. 1 After calming
the situation, the police let Thompson leave the scene. 2 Three hours later,
however, Thompson returned with a gun. After kicking down the door to the
apartment, Thompson confronted Cain and shot him four times in the neck
and chest, killing him. Thompson then turned to Hayslip. After reloading the
gun, he told Hayslip “I can shoot you too, bitch,” and fired into her cheek. 3 The
bullet passed through Hayslip’s face, blowing the dentures out of her mouth
and nearly severing her tongue. 4 Thompson left the apartment, threw the gun
into a creek, and went to the house of a friend, Diane Zernia, where he fell
asleep. 5
Hayslip was alive, but bleeding profusely, and sought help from
neighbors. 6 Emergency responders arrived at the apartment and airlifted
Hayslip to a hospital. During surgery, doctors were unable to secure an airway
for Hayslip’s breathing, and, while they were preparing for emergency surgery,
she fell into a coma. 7 A few days later, Hayslip’s family took her off of life

Thompson v. State, No. AP-73,431, 2007 WL 3208755, at *1 (Tex. Crim. App. Oct.
31, 2007).
1

2

Id.

3

Thompson v. State, 93 S.W.3d 16, 19–20 (Tex. Crim. App. 2001).

4

Id. at 20.

5

Id. at 19.

6

Id.

7

Id. at 20.

Appendix Page no. 13

Case: 17-70008

Document: 00514838385

Page: 3

Date Filed: 02/18/2019

support, and she died. 8 Hayslip’s autopsy report describes her cause of death
as a gunshot wound to the face.
Awaking later in the morning, Thompson described the shootings to
Zernia, including how he had disposed of the murder weapon. 9 He then called
his father, who brought him to the police station where he turned himself in. 10
The State indicted Thompson for capital murder for intentionally or knowingly
causing Cain and Hayslip’s deaths. The state court appointed counsel on May
19, 1998.
Thompson was active during his pretrial detention at the Harris County
Jail. A few days after the shooting, he called Zernia asking what she had told
the police. Thompson called again a few weeks later, again seeking details on
what Zernia had told investigators, and clarifying that she was the only
witness who could link him to Cain and Hayslip’s murders. During this second
call, Thompson asked Zernia for her home address, purportedly so that his
attorney “could send her some documents and talk with her.” Weeks later,
Zernia told investigators that she “ha[d] not heard from his attorney as of yet.”
During the same period, Thompson also discussed his case with fellow
inmates Jack Reid and Max Humphrey, contemplating Zernia’s status as a
potential state witness and looking to arrange for her death. 11 According to
Reid, Thompson engaged Humphrey, an Aryan Brotherhood gang member, to
murder Zernia after his release on June 30th. Thompson also arranged
retrieval of the murder weapon for delivery to Humphrey, to be used to

8

Id.

9

Id.

10

Id.

11

Id. at 22.

Appendix Page no. 14

Case: 17-70008

Document: 00514838385

Page: 4

Date Filed: 02/18/2019

dispatch Zernia. 12 Thompson drew a map of the weapon’s location, and asked
Reid to pass the information to a contact outside the Jail for retrieval of the
weapon.
Reid instead relayed the information to the police, 13 who attempted to
recover the weapon. But their divers were unable to locate it. Although
Thompson’s right to counsel had attached, officers instructed the informant
Reid to tell Thompson his contact had been unable to find the weapon, and
would visit for better directions. 14 Posing as Reid’s outside contact,
Investigator Gary Johnson visited Thompson at the Jail, wearing a wire to
record their conversation. 15 Thompson told Johnson he believed Humphrey
had betrayed him, and offered Johnson $1,500 to retrieve the weapon and
murder Zernia. 16 During the meeting, Thompson pressed a hand-drawn map
against the glass of the visitor’s booth, one similar to the map the police already
held, depicting the weapon’s location, as well as Zernia’s address. Thompson
then described Zernia’s husband, daughter, her home and vehicles, and
discussed the best times to carry out the murder. 17
Relying on the recording of Johnson’s meeting, the district attorney
charged Thompson with solicitation of capital murder. Police visited Thompson
in his cell and notified him of the charge; they searched his cell but were unable
to recover the map displayed to Johnson. Police also apprehended Humphrey,
who corroborated Reid’s account of the murder arrangement, but denied that

12

Id.

13

Id.

14

Id.

15

Id. at 22–23.

16

Id. at 23.

17

Id.

Appendix Page no. 15

Case: 17-70008

Document: 00514838385

Page: 5

Date Filed: 02/18/2019

he agreed to carry out the hit on Zernia. The police recovered the murder
weapon on July 18, 1998 in Cypress Creek.
Undeterred by the solicitation charge, on August 21, 1998, Thompson
spoke with another inmate, Robin Rhodes, again seeking help in persuading
“some people not to [come] or be able not to come” to testify at his trial. 18
Thompson provided a list of names including Zernia’s, 19 advising that Rhodes
“either kill them or persuade them not to be there.” Rhodes, it turned out, was
a long time police informant. He gave the list to the police and expressed his
willingness to testify against Thompson. 20
Thompson was tried for capital murder in 1999. The guilt stage of the
trial centered on Hayslip’s injuries, and whether Thompson’s shooting—as
opposed to medical malpractice—caused her death. Thompson called an expert
witness, Dr. Pat Radalat, who initially testified Hayslip would have survived
the gunshot had she received proper medical care. Radalat opined that
Hayslip’s medical team failed to correctly place a nasotracheal tube, and then
failed to monitor Hayslip’s breathing while preparing for surgery, allowing her
to experience bradycardia, a condition in which the heart slows due to low
oxygen. On cross examination, however, Radalat backtracked, conceding
Hayslip would have died in the absence of medical intervention. The State
introduced the murder weapon and called a firearms expert to explain that,
given the weapon’s capacity and the number of shots fired, Thompson must
have reloaded during the shooting. 21 The State also introduced the autopsy

18

Thompson v. Stephens, 2014 WL 2765666, at *1 (S.D. Tex. June 18, 2014).

19

Id.

20

Id.

21

Thompson, 93 S.W.3d at 20.

Appendix Page no. 16

Case: 17-70008

Document: 00514838385

Page: 6

Date Filed: 02/18/2019

report certified by Dr. Paul Shrode, describing Hayslip’s cause of death as a
gunshot wound to the face. The jury found Thompson guilty of capital
murder. 22
During the punishment phase of the trial, the State introduced
Johnson’s recording of his jailhouse meeting with Thompson, and Johnson
himself took the stand. 23 Based on the jury’s answers to the questions
regarding punishment—whether Thompson would be a future danger to
society and whether there were sufficient circumstances mitigating against a
death sentence—the court imposed the death penalty. 24
In 2001, on direct appeal, the Texas Court of Criminal Appeals affirmed
Thompson’s conviction, 25 but found the punishment phase of the trial tainted
by the admission of Johnson’s testimony, solicited after Thompson’s right to
counsel had attached, in violation of the Sixth Amendment. 26 It vacated and
remanded for a retrial on punishment. 27 The court also denied Thompson’s pro
se motion for rehearing, which argued the entirety of his trial was tainted by
the Sixth Amendment violation and that his conviction should be vacated and
remanded for retrial. 28
In 2005, Thompson’s case returned to the trial court for a retrial on
punishment before a new jury. 29 During a pre-trial hearing, the State disclosed

22

Id. at 18.

23

Id. at 23.

24

Thompson, 2007 WL 3208755, at *1.

25

Thompson, 93 S.W.3d at 29.

26

Id.

27

Id.

28

Thompson v. State, 108 S.W.3d 269, 270 (Tex. Crim. App. 2003).

Thompson’s application makes no claim of error that the retrial on punishment was
impermissibly presented to a new jury different than that which decided guilt. See Powell v.
29

Appendix Page no. 17

Case: 17-70008

Document: 00514838385

Page: 7

Date Filed: 02/18/2019

that it would call Robin Rhodes to testify, and that the prosecution had reached
an agreement with Rhodes involving dismissal of outstanding “hot check cases”
and a misdemeanor in exchange for his testimony. Four days before the start
of testimony, however, Thompson’s counsel overheard a conversation
disclosing Rhodes’s extensive history as an informant for the State. The trial
court ordered the prosecution to turn over all information required under
Brady v. Maryland by 5 p.m. the day before testimony was to begin, and denied
Thompson’s request for a continuance. The State committed on the record to
“mak[ing] sure [Thompson’s] counsel has everything.”
On retrial, the State presented evidence of Thompson’s past criminality,
beginning in his childhood. 30 The State called Rhodes, who recounted his
jailhouse discussions with Thompson. On cross examination, Rhodes explained
that he had a longstanding working relationship with the State and had
previously served as a paid informant. The trial court denied Thompson’s
motion to strike Rhodes’s testimony. The jury answered the two-part inquiry
on punishment as before, and the court again imposed the death penalty. 31 In
2007, on direct appeal of the retrial, the Texas Court of Criminal Appeals
affirmed. 32
Thompson had originally filed a state habeas petition in 2000 following
his first trial presenting seventeen grounds for relief, and amended this
application in 2007 following the retrial on punishment to raise fourteen

Quarterman, 536 F.3d 325, 334 (5th Cir. 2008) (holding that “no clearly established law
decided by the Supreme Court” requires “the same jury to determine guilt and punishment”).
30

Thompson, 2007 WL 3208755, at *2.

31

Id. at *1.

32

Id. at *6.

Appendix Page no. 18

Case: 17-70008

Document: 00514838385

Page: 8

Date Filed: 02/18/2019

grounds. 33 In 2013, the state trial court entered findings of fact and conclusions
of law recommending denial of all relief. 34 In April 2013, the Texas Court of
Criminal Appeals adopted the trial court’s findings and conclusions, denying
relief. 35
Thompson first filed a habeas petition with the federal district court in
2014, fifteen years after his conviction. During this same period, Rhodes’s
counsel submitted a Public Information Act request to the Harris County
District Attorney’s office for information related to Robin Rhodes. The State’s
responsive disclosures indicated that Rhodes went by several pseudonyms in
his transactions with the State, and that there was a signed contract from 1993
between Rhodes and Assistant District Attorney Joan Huffman. Citing these
new sources—undisclosed in the state trial court—Thompson moved
unopposed in federal court for limited discovery from Harris County, the
Houston Police Department and the City of Baytown regarding Rhodes’s status
as an informant. The district court granted the motion, and also ordered the
District Attorney’s office to produce its files relating to Rhodes for in camera
review. Thompson moved to stay and abet proceedings while the state habeas
court resolved a third application for post-conviction relief, and the district
court granted the stay. After the Texas Court of Criminal Appeals dismissed
Thompson’s third application as an abuse of the writ in March 2016, Thompson
filed an amended petition with the federal district court raising fourteen
grounds for relief, and requested an evidentiary hearing. On March 23, 2017,

33

Ex Parte Thompson, No. WR-78,135-01, 2013 WL 1655676 (Tex. Crim. App. Apr. 17,

34

Id.

35

Id.

2013).

Appendix Page no. 19

Case: 17-70008

Document: 00514838385

Page: 9

Date Filed: 02/18/2019

the district court denied Thompson relief on all claims and denied the motion
for a hearing. This application followed.
II.
We have jurisdiction over the district court’s final decision denying postconviction relief and a hearing under 28 U.S.C. § 1291 and 28 U.S.C. § 2253(a).
A state prisoner does not have “an absolute right to appeal” from a
federal district court decision denying a petition for a writ of habeas corpus. 36
Instead, the prisoner must obtain a COA. 37 We issue a COA upon a
“substantial showing of the denial of a constitutional right” 38—that “jurists of
reason could disagree with the district court’s resolution of [the applicant’s]
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” 39 This determination
is a threshold inquiry, not a full-fledged merits analysis. 40 Any doubts as to
whether a COA should issue must be resolved in the applicant’s favor. 41
Thompson’s petition is “also subject to the deferential standards of
AEDPA.” 42 Where Thompson seeks a COA on claims denied on the merits by
the state habeas court, he must show that the state court’s decision was
“contrary to” or “involved an unreasonable application of” clearly established
federal law, or that it “was based on an unreasonable determination of the

36

Buck v. Davis, 137 S. Ct. 759, 773 (2017).

37

28 U.S.C. § 2253(c); Miller–El v. Cockrell, 537 U.S. 322, 335 (2003).

38

28 U.S.C. § 2253(c)(2).

39

Buck, 137 S. Ct. at 773 (quoting Miller-El, 537 U.S. at 327).

40

See id. at 773–74.

41

Young v. Davis, 835 F.3d 520, 523–24 (5th Cir. 2016).

42

Charles v. Stephens, 736 F.3d 380, 387 (5th Cir. 2013) (per curiam).

Appendix Page no. 20

Case: 17-70008

Document: 00514838385

Page: 10

Date Filed: 02/18/2019

facts” given the record before the state court. 43 Where Thompson seeks a COA
on claims that the state court deemed procedurally defaulted, he must show
cause to excuse his failure to comply with the state procedural rule, as well as
actual prejudice resulting from the alleged constitutional violation. 44
A.
Thompson first seeks a COA arguing that the guilt phase of his trial was
tainted by the State’s introduction of the murder weapon in violation of right
to counsel. Massiah v. United States held that the Government violated a
criminal defendant’s Sixth Amendment right to counsel “when there was used
against him at his trial evidence of his own incriminating words, which federal
agents had deliberately elicited from him after he had been indicted and in the
absence of his counsel.” 45 The rule from Massiah applies not only to
interrogation by identified officials, but also to “indirect and surreptitious”
meetings during which the indicted individual may not “even know that he was
under interrogation by a government agent.” 46 Where state actors have
obtained incriminating statements in violation of individual’s right to counsel,
“the defendant’s own incriminating statements, obtained by federal agents
under the circumstances here disclosed, could not constitutionally be used by
the prosecution as evidence against him at his trial.” 47 To bring a Massiah
claim, the claimant must establish that his Sixth Amendment right to counsel

43

Harrington v. Richter, 562 U.S. 86, 100 (2011) (quoting 28 U.S.C. § 2254(d)(1)–(2)).

Davila v. Davis, 137 S. Ct. 2058, 2064–65 (2017) (“A state prisoner may overcome
the prohibition on reviewing procedurally defaulted claims if he can show cause to excuse his
failure to comply with the state procedural rule and actual prejudice resulting from the
alleged constitutional violation.” (internal quotation marks omitted)).
44

45

377 U.S. 201, 206 (1964).

46

Id.

47

Id. at 207.

Appendix Page no. 21

Case: 17-70008

Document: 00514838385

Page: 11

Date Filed: 02/18/2019

had attached when a government agent sought information from the defendant
without his counsel’s presence, and deliberately elicited incriminating
statements from the defendant. 48 Massiah claims are subject to harmless error
analysis. 49
At the outset, Thompson argues the district court erred in treating the
issue as resolved by the Texas Court of Criminal Appeals and thus entitled to
AEDPA deference. Jurists of reason would not debate the district court's
granting of deference to the Court of Criminal Appeals’ opinion on this issue.
When Thompson raised the issue on direct appeal, the Court of Criminal
Appeals granted a retrial on punishment, but, without stating its reasons,
denied retrial on guilt. “When a federal claim has been presented to a state
court and the state court has denied relief, it may be presumed that the state
court adjudicated the claim on the merits in the absence of any indication or
state-law procedural principles to the contrary.” 50 We presume that the state
court adjudicated the claim on the merits, and Thompson has presented no
indication or state-law procedural principles to overcome that presumption.
Jurists of reasons would not debate the district court’s application of AEDPA
deference to this claim.
Thompson’s argument hinges on the assertion that “the police only
recovered the gun based on statements illegally obtained.” Given the
deferential AEDPA review standards, jurists of reason would not debate the
state court’s denial of relief in light of the lack of factual support for this

48

United States v. Bates, 850 F.3d 807, 810 (5th Cir. 2017).

Arizona v. Fulminante, 499 U.S. 279, 307 (1991); Satterwhite v. Texas, 486 U.S. 249,
257 (1988) (“We have permitted harmless error analysis in both capital and noncapital cases
where the evil caused by a Sixth Amendment violation is limited to the erroneous admission
of particular evidence at trial.”).
49

50

Richter, 562 U.S. at 99.

Appendix Page no. 22

Case: 17-70008

Document: 00514838385

Page: 12

Date Filed: 02/18/2019

contention. There is only a tenuous inference drawn from the timing of the
meeting and discovery of the weapon: that police recovered the weapon two
weeks after the meeting with Johnson does not attribute the gun’s discovery to
the meeting. According to the State, information regarding the gun conveyed
during Johnson’s jailhouse meeting was duplicative of the police’s existing
knowledge, namely the hand-drawn map provided to Reid and Zernia’s account
of Thompson’s confession. Thompson does not dispute these contentions.
Moreover, even if the murder weapon was recovered based on Johnson’s
meeting, jurists of reason would not debate the harmlessness of its
introduction during the guilt phase of Thompson’s trial. 51 The murder weapon
was introduced during testimony of a firearms expert, who explained that
Thompson had reloaded during the shooting. 52 Thompson argues that but for
the Massiah violation, the State would have introduced no evidence of
reloading, vitiating its showing that Thompson intentionally killed Hayslip.
This is farfetched. Taken together with the evidence properly before the jury—
not least facts showing Thompson shot Zernia in the face and left her drowning
in her own blood and suffocating on the swollen remnants of her severed
tongue—the introduction of the murder weapon was not crucially important,
let alone dispositive. The district court thus found that the state habeas court
was not unreasonable to reject this claim. We agree that jurists of reason could
not debate this conclusion, and that the claim does not deserve encouragement
to proceed further. We deny a COA on this claim.
\

Milton v. Wainwright, 407 U.S. 371, 377–78 (1972) (“[W]e do not close our eyes to
the reality of overwhelming evidence of guilt fairly established in the state court years ago
by use of evidence not challenged here; the use of the additional evidence challenged in this
proceeding and arguably open to challenge was, beyond reasonable doubt, harmless.”).
51

52

Thompson, 93 S.W.3d at 20.

Appendix Page no. 23

Case: 17-70008

Document: 00514838385

Page: 13

Date Filed: 02/18/2019

B.
Second, Thompson seeks a COA arguing the State violated his rights to
due process and counsel when it introduced the testimony of fellow inmate
Robin Rhodes during the retrial on punishment. Though these claims were
procedurally defaulted, Thompson argues he overcomes the procedural bar.
Thompson also appeals the district court’s denial of an evidentiary hearing on
the Rhodes-related claims, which we review for an abuse of discretion. 53
A Brady violation can provide cause and prejudice to overcome a
procedural bar on a habeas claim. 54 Under Brady, a defendant is denied due
process where the State fails to disclose evidence favorable to the accused and
that evidence is material, meaning there is a reasonable probability that, had
the evidence been disclosed, the outcome of the trial would be different. 55 To
determine whether an informant was a government agent for purposes of a
Massiah claim, the court asks whether the informant was promised,
reasonably led to believe, or actually received a benefit in exchange for
soliciting information from the defendant; and whether he acted pursuant to
instructions from the State, or otherwise submitted to the State’s control. 56
1.
Thompson raised this claim in his third state habeas petition, which the
Court of Criminal Appeals dismissed as an abuse of the writ. 57 The district
court found the claim procedurally defaulted. Thompson argues, however, that
the State’s Brady violation in failing to disclose the full nature of Rhodes’s

53

Hall v. Quarterman, 534 F.3d 365, 367 (5th Cir. 2008).

54

Banks v. Dretke, 540 U.S. 668, 691 (2004).

55

Id.

56

Creel v. Johnson, 162 F.3d 385, 393 (5th Cir. 1998).

Ex Parte Thompson, No. WR-78,135-03, 2016 WL 922131, at *1 (Tex. Crim. App.
Mar. 9, 2016).
57

Appendix Page no. 24

Case: 17-70008

Document: 00514838385

Page: 14

Date Filed: 02/18/2019

relationship with the State until 2014 provides cause and prejudice, allowing
him to overcome the procedural bar.
Days before his 2005 retrial on punishment, Thompson’s trial counsel
overheard a conversation suggesting Rhodes had previously worked as an
informant. Thompson then probed Rhodes’s relationship with the State during
the retrial: specifically, during his cross examination, Rhodes self-described as
a “full time informant” for the State at the time of his encounter with
Thompson. The meaning of this description is not self-evident. While during
the same testimony Rhodes explained that he had not solicited Thompson on
the instructions of any state official, this does not preclude the possibility of
more general open-ended instruction or guidance from his government
“handler,” nor even the possibility that Rhodes was performing general
information-gathering duties. Thompson learned further that Rhodes not only
served repeatedly as an informant for the State—in some cases paid tens of
thousands of dollars for his services—but was even at some point an employee
of the Harris County Organized Crime Task Force. 58 Aspects of Rhodes’s
history with the State were discoverable in public records, specifically the
Texas Court of Appeals’ published decision in Stephens v. State. That opinion
describes Rhodes as an employee of the Organized Crime Task Force and
“confidential informant in over 50 cases.” 59 But that opinion does not
necessarily describe the State’s relationship with Rhodes exhaustively,
particularly with respect to his status at the time he engaged Thompson in the
Harris County Jail.

58

Thompson, 2014 WL 2765666, at *2.

59

59 S.W.3d 377, 381–82 (Tex. App. 2001).

Appendix Page no. 25

Case: 17-70008

Document: 00514838385

Page: 15

Date Filed: 02/18/2019

Thompson learned more of Rhodes’s history with the State in mid-2014,
after the Court of Criminal Appeals had denied post-conviction relief, 60 and he
was before the district court. Pursuant to the district court’s discovery order,
the State produced a 1993 contract executed by Rhodes (under his pseudonym
“Robert Lee”), his handler Floyd Winkler, and Harris County Assistant District
Attorney Joan Huffman. Under the agreement, in exchange for dismissal of
one theft charge and probation on another, Rhodes agreed to “cooperate with
Officer Winkler . . . in the investigation of narcotics trafficking in the Harris
County area of which he has knowledge,” and to “follow the directions and
instructions of Winkler or his fellow law enforcement officers.” Thompson
learned during retrial that Rhodes previously served as an informant. But the
1993 contract at least arguably clarifies the nature of his past work: Rhodes’s
duties to the State at times involved an open-ended information-gathering
enterprise, in which the State would compensate Rhodes with without ex ante
knowledge of the specific targets or subjects of his gathering. The agreement
terminated in November 1993, and therefore does not cover the period during
which Rhodes encountered Thompson in the Harris County Jail. But it does
raise the possibility that, even if Rhodes had no specific instruction to solicit
information from Thompson, he might have acted pursuant to a reasonable
understanding that when he relayed the murder solicitation information to
Winkler he would receive a benefit, such as payment or leniency on pending
charges. Although the question is close, 61 jurists of reason could debate
whether the State’s delay in disclosing the 1993 contract suppressed material
information regarding its history with Rhodes and caused Thompson’s

60

Ex Parte Thompson, 2013 WL 1655676, at *1.

Young, 835 F.3d at 523–24 (5th Cir. 2016) (any doubts as to whether a COA should
issue must be resolved in the applicant’s favor).
61

Appendix Page no. 26

Case: 17-70008

Document: 00514838385

Page: 16

Date Filed: 02/18/2019

procedural default. Jurists of reason could also debate whether the
introduction of Rhodes’s testimony was a Massiah violation that prejudiced the
retrial. Here, jurists of reason might debate whether on the basis of repeated
transactions and the 1993 contract the State “reasonably led” Rhodes to believe
that “benefits would follow” from a successful solicitation of useful information
from Thompson. 62
We therefore grant COAs on two questions arising from this claim: first,
whether Thompson has established a Brady violation in the State’s nondisclosure of its past relationship with Rhodes that would allow Thompson to
overcome the procedural bar and entitle him to habeas relief; second, if the
procedural bar is overcome, whether the introduction of Rhodes’s testimony at
the retrial on punishment constituted a Massiah violation under which
Thompson is entitled to habeas relief.
2.
Thompson was unable to develop the facts underlying the Rhodesrelated Brady and Massiah claims in state habeas court. When he got to federal
district court, Thompson moved for limited discovery—which was granted—
and then for an evidentiary hearing—which was not. Considering documents
turned over by the State pursuant to its discovery order, including privileged
documents reviewed in camera, the district court found an evidentiary hearing
not “necessary to a full and fair adjudication of [Thompson’s] claims.” In so
deciding, the district court downplayed the toll of time. By 2014, the Harris
County Organized Crime Task Force, the government entity with which
Rhodes had interacted, had dissolved, and Rhodes’s handler Floyd Winkler no
longer worked with the State. In response to the subpoena for Rhodes-related
documents, the City of Baytown, which had taken possession of the Task
62

Creel, 162 F.3d at 393.

Appendix Page no. 27

Case: 17-70008

Document: 00514838385

Page: 17

Date Filed: 02/18/2019

Force’s files, disclosed that relevant retention periods had expired, and it had
destroyed relevant documents from that time. As a result, no records exist from
the time to document the nature of Rhodes’s relationship to the State in July
and August 1998. For this reason, Thompson sought to question witnesses,
specifically, Gary E. Patterson, Rhodes’s attorney and intermediary with the
Task Force; former Assistant District Attorney Joan Huffman, with whom
Rhodes had executed the 1993 agreement; Rhodes’s handler, Officer Floyd
Winkler; Vic Wisner and Kelley Sigler, the prosecutors at Thompson’s retrial;
and Investigator Mike Kelley, who investigated Thompson’s solicitation of
murder in 1998. Thompson’s factual development of these claims has been
potentially hampered by the State’s nine-year delay in disclosing key aspects
of its history with Rhodes. As a result, the district court may not have been
provided sufficient facts to make an informed decision as to the merits of the
Rhodes-related claims. 63
Even so, the district court did not err in denying Thompson an
evidentiary hearing. Under 28 U.S.C. § 2254(e)(2), an applicant who has failed
to develop the factual basis of a claim in the state habeas court may not obtain
an evidentiary hearing in federal habeas proceedings unless two conditions are
met. First, the petitioner’s claim must rely on a new rule of constitutional law,
or on a factual predicate that could not have been previously discovered
through the exercise of due diligence. 64 Second, the facts underlying the claim
must be “sufficient to establish by clear and convincing evidence that, but for
constitutional error, no reasonable factfinder would have found the applicant

63

See McDonald v. Johnson, 139 F.3d 1056, 1060 (5th Cir. 1998).

64

28 U.S.C. § 2254(e)(2)(A)(ii).

Appendix Page no. 28

Case: 17-70008

Document: 00514838385

Page: 18

Date Filed: 02/18/2019

guilty of the underlying offense.” 65 Here, the disputed factual predicate
concerns potential error during Thompson’s punishment retrial. Even if
Thompson were to prevail on the claim, his guilty verdict would remain
untouched. Under the statute, the district court did not have discretion to
grant him a hearing. We affirm the district court’s denial of the motion for an
evidentiary hearing.
C.
Third, Thompson seeks a COA arguing that the guilt phase of his trial
was tainted by the State’s failure to disclose that the Hayslip autopsy report
was false and improperly certified by an incompetent, unqualified medical
examiner. This claim was only raised in Thompson’s third state habeas
application, which the state habeas court deemed an abuse of the writ. 66 To
overcome the procedural default, Thompson must establish cause and
prejudice. 67
Thompson argues that the State committed a Brady violation that allows
him to overcome the procedural default. We need not proceed past the first
Brady element. Thompson begins from the premise that the autopsy report
mischaracterized Hayslip’s cause of death, and that the medical examiner, Dr.
Paul Shrode, and by imputation the State, knew this was so. In support,
Thompson relies on the opinion of another expert, pathologist Dr. Lloyd White,

Id. § 2254(e)(2)(B); Oliver v. Quarterman, 254 F. App’x 381, 390 n.6 (5th Cir. 2007)
(unpublished) (noting in dicta “subsection (B) requires the habeas applicant to show that ‘no
reasonable factfinder would have found the applicant guilty of the underlying offense,’ not
that no reasonable factfinder would have imposed the same sentence.” (emphasis in the
original)); see also In re Webster, 605 F.3d 256, 258 (5th Cir. 2010) (holding that the plain
meaning of similar language governing successive motions in 28 U.S.C. § 2255(h)(1) is limited
to determinations of guilt, and not the petitioner’s eligibility for a death sentence); Hope v.
United States, 108 F.3d 119, 120 (7th Cir. 1997) (same).
65

66

Ex Parte Thompson, 2016 WL 922131, at *1.

67

Davila, 137 S. Ct. at 2064–65.

Appendix Page no. 29

Case: 17-70008

Document: 00514838385

Page: 19

Date Filed: 02/18/2019

attributing Hayslip’s death to “therapeutic misadventure” rather than to the
shot she sustained. Assuming arguendo White is correct, an inaccurate report
is not enough to sustain Thompson’s claim. Rather Thompson must show that
the State suppressed the inaccuracy. Here, Thompson resorts to speculation.
He invokes instances in which the State medical examiner, Dr. Shrode lied.
With this past, he insists Shrode “had to know” he was unqualified to certify
the autopsy report. By imputation, the State “must have known” about
Shrode’s shortcomings as a medical examiner and inferred that the report was
unreliable.

These

inferences

are

unsubstantiated.

Perhaps

medical

professionals could debate which of the two opinions—White’s or Shrode’s—is
more accurate. But Thompson has not established that jurists of reason could
debate whether there was evidence of the State’s suppression of exculpatory or
impeaching facts. Additionally, Thompson assumes rather than establishing
that the nondisclosure was material. He mentions that the jury specifically
requested the autopsy report during its deliberations, and infers the report was
dispositive in the verdict. Given the plethora of other evidence probative of
Thompson’s role in Hayslip’s death—not least testimony from Dr. Radalat that
the gunshot wound would have been fatal—he has not shown a basis for jurists
of reason to debate whether he established a reasonable probability that more
information on Shrode would have turned the verdict. We agree that jurists of
reason could not debate the district court’s conclusion that Thompson fails to
establish cause and prejudice and does not overcome the procedural default.
We deny a COA on this claim.
D.
Fourth, Thompson seeks a COA arguing he received ineffective
assistance of counsel during the guilt stage of his trial, describing five separate
deficiencies. To prevail on such a claim, Thompson must establish that
“counsel's representation fell below an objective standard of reasonableness”
Appendix Page no. 30

Case: 17-70008

Document: 00514838385

Page: 20

Date Filed: 02/18/2019

and that the deficient representation caused prejudice, meaning “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” 68 Our scrutiny of counsel’s
performance is “highly deferential” 69—“doubly” so when the ineffectiveassistance claim is raised on federal review of a state-court decision rejecting
the claim on the merits. 70 With these standards in mind, we must assess
whether Thompson has established that jurists of reason would debate his
ineffective assistance of counsel claims.
1.
Thompson argues his trial counsel provided ineffective assistance by
failing thoroughly to question potential jurors about their reactions to his
potential parole eligibility if sentenced to life imprisonment and about their
likely reactions to victim-impact evidence. He also faulted trial counsel for
failing to exercise preemptory strikes of jurors Harrell Rogers and Maria
Blassingame. The state habeas court found that trial counsel acted “to select
jurors that would give the defense the best possible chance at trial,” and that
“counsel strategically conducted voir dire, including the use of peremptory
strikes, to achieve that goal.” With some potential jurors, counsel did not ask
about parole eligibility because the State had already touched on the subject.
With respect to victim-impact evidence, no such evidence was presented during
the guilt phase of the trial (the only phase subject to this claim) and so
Thompson could show no prejudice. The decisions not to strike Rogers and
Blassingame were “reasonable strategic decision[s],” taken considering their
circumstances and attitudes relative to other potential jurors’.

68

Richter, 562 U.S. at 104.

69

Id.

70

See id. at 105.

Appendix Page no. 31

Case: 17-70008

Document: 00514838385

Page: 21

Date Filed: 02/18/2019

The district court did not find these conclusions unreasonable. With
respect to the parole and victim-impact evidence questioning, the district court
pointed out that these questions pertained to jurors’ attitudes towards
punishment—but the punishment phase of the first trial was overturned.
Thompson cannot establish prejudice from the lack of such questions with
respect to the guilt phase of his trial. Moreover, Thompson’s reliance on trial
counsel’s statements that the ability to ask such questions was “necessary” for
intelligent evaluation of potential jurors concerns trial counsel’s thoughts on
the option of pursuing such questioning, not his detailed views on questioning
as applied to any particular potential juror. Viewing trial counsel’s choices with
the benefit of hindsight, the district court noted that Thompson might have
provided reasons why another attorney might have questioned and exercised
preemptory strikes. But the district court found it not unreasonable for the
state habeas court to conclude that trial counsel’s performance did not fall
below the objective standard of reasonableness. We agree that jurists of reason
could not debate this conclusion, and that this claim does not deserve
encouragement to proceed further. We deny a COA on this claim.
2.
Thompson argues his trial counsel failed to object to a state witness’s
references to his prior bad acts—namely instances in which Thompson lost his
temper and destroyed property at Hayslip’s house. Under Texas law, evidence
of these bad acts was admissible as probative of the previous relationship
between the accused and the deceased. Thompson argues that because the
State had not provided notice of these prior bad acts, they were clearly
inadmissible under state law. This argument does not appear to have been

Appendix Page no. 32

Case: 17-70008

Document: 00514838385

Page: 22

Date Filed: 02/18/2019

raised in the district court, and is waived. 71 Moreover, while we have suggested
that a failure to object to prejudicial and clearly inadmissible evidence cannot
be attributed to a strategic decision, 72 we are offered no plausible argument
that the evidence of these violent outbursts was prejudicial to Thompson. 73
There was no shortage of other evidence indicating Thompson’s violent
relationship with Hayslip, not least evidence showing that Thompson shot
Hayslip in the face and left her bleeding profusely. The state habeas court
concluded that trial counsel’s choice was sound because Thompson’s
hypothetical objection would have been meritless. The district court did not
find this conclusion unreasonable. We agree that jurists of reason could not
debate the district court’s conclusion, and that the claim does not deserve
encouragement to proceed further. We deny a COA on this claim.
3.
Thompson argues that his trial counsel failed to object to the
prosecution’s mischaracterization of Dr. Radalat’s testimony. The parties
agree on the substance of Radalat’s testimony: he initially described Hayslip’s
wound as survivable, attributing her death to inadequate medical
intervention, but later conceded on cross examination that Hayslip would have
died in the absence of intervention. In its argument, the prosecution told the
jury that Radalat “finally admitted to you that [Hayslip’s] wounds would be
fatal if left untreated.” Thompson argues this statement mischaracterized
Radalat’s testimony, such that trial counsel’s failure to object falls below the

Johnson v. Puckett, 176 F.3d 809, 814 (5th Cir. 1999) (“[A] contention not raised by
a habeas petitioner in the district court cannot be considered for the first time on appeal from
that court's denial of habeas relief.”).
71

72

Lyons v. McCotter, 770 F. 2d 529, 534 (5th Cir. 1985).

73

Strickland v. Washington, 466 U.S. 668, 687 (1984).

Appendix Page no. 33

Case: 17-70008

Document: 00514838385

Page: 23

Date Filed: 02/18/2019

objective standard of reasonableness. Thompson’s trial counsel had broad
discretion in choosing whether to object during closing arguments, 74 and
decided not to object here—rightly so, because the objection would have had no
merit. The prosecution’s characterization was not inaccurate considering the
totality of Radalat’s testimony. The state habeas court concluded that trial
counsel was not deficient in choosing not to object, because the prosecution had
properly summarized Radalat’s testimony and did not prejudice Thompson.
The district court did not find this conclusion unreasonable. We agree jurists
of reason could not debate the district court’s conclusion, and that this claim
does not deserve encouragement to proceed further. We deny a COA on this
claim.
4.
Thompson argues that his trial counsel failed to request the inclusion of
lesser included offenses with respect to Hayslip in the jury charge, even though
Thompson had presented evidence suggesting he had not intended to shoot
Hayslip. According to Thompson, the limited set of lesser included offenses
narrowed the jury’s options in the event jurors were determined to convict
Thompson in some way for Hayslip’s death, leaving a capital murder conviction
as their only option. His argument is premised on possibility that jurors would
have found that Hayslip’s shooting was an accident—but the state court found
that there was no evidence that could have supported such a conclusion. Trial
counsel’s decision as to which lesser included offenses to include in instructions
is tactical, and the choice reached here was within the bounds of counsel’s
discretion. Once again, Thompson offers ex post evaluation of how these
strategic decisions could have been better, but this cannot carry his claim. The
state habeas court concluded that trial counsel was not deficient in not
74

Charles v. Thaler, 629 F.3d 494, 502 (5th Cir. 2011).

Appendix Page no. 34

Case: 17-70008

Document: 00514838385

Page: 24

Date Filed: 02/18/2019

requesting additional instructions, because the evidence did not support the
submission of lesser-included offense instructions. The district court did not
find this conclusion unreasonable. We agree jurists of reason could not debate
this conclusion, and that this claim does not deserve encouragement to proceed
further. We deny a COA on this claim.
5.
Thompson argues that his trial counsel failed to object to the admission
of the murder weapon even though it was discovered as a result of Investigator
Johnson’s unlawful jailhouse interrogation. This claim does not appear to have
been raised before the state habeas court, and therefore is procedurally
defaulted. But even had it not faced the procedural bar, it would fail. We have
already rejected Thompson’s arguments attributing the recovery of the weapon
to the Johnson meeting. Since that attribution is without merit, as the district
court held, counsel’s decision not to object on that basis was sound. We agree
jurists of reason could not debate this conclusion, and that this claim does not
deserve encouragement to proceed further. We deny a COA on this claim.
E.
Fifth, Thompson seeks a COA arguing the Texas capital murder scheme
under which he was sentenced violates his rights under the Fifth, Sixth, and
Fourteenth Amendments. In the punishment phase, the State has the burden
to prove beyond a reasonable doubt that “there is a probability that the
defendant would commit criminal acts of violence that would constitute a
continuing threat to society.” 75 If the jury finds future dangerousness, the jury
must then consider whether there are sufficient mitigating circumstances to

75

TEX. CRIM. P. CODE §§ 37.071(2)(b)(1), 37.071(2)(c).

Appendix Page no. 35

Case: 17-70008

Document: 00514838385

Page: 25

Date Filed: 02/18/2019

warrant a sentence of life imprisonment rather than a death sentence. 76 Unless
the jury returns an affirmative answer to question one and a negative answer
to question two, the court must sentence the defendant to life imprisonment. 77
Thompson’s challenge addresses the second question. He argues that the
trial court’s death sentence is impermissible where the jury does not find the
absence of sufficient mitigating circumstances beyond a reasonable doubt. The
state habeas court denied relief, finding that the Court of Criminal Appeals
had already rejected the same argument. The district court did not find this
conclusion unreasonable, agreeing that settled precedent foreclosed relief on
the claim.
We agree jurists of reason could not debate the district court’s conclusion,
and that this claim does not deserve encouragement to proceed further. We
have addressed similar constitutional challenges, concluding that they
“ignore[] the distinction . . . between facts in aggravation of punishment and
facts in mitigation.” 78 As we have stated, “not asking the jury to find an absence
of mitigating circumstances beyond a reasonable doubt is perfectly consistent
with Ring and Apprendi because a finding of mitigating circumstances reduces
a sentence from death, rather than increasing it to death.” 79 Thompson
concedes that this court has already answered the question, but argues that
the situation has changed in light of the Supreme Court’s 2016 decision in

76

Id. § 37.071(2)(e)(1).

77

Id. § 37.0712(g).

Blue v. Thaler, 665 F.3d 647, 668 (5th Cir. 2011) (quoting Apprendi v. New Jersey,
530 U.S. 466, 490 n. 16 (2000)); see also, Druery v. Thaler, 647 F.3d 535, 546 (5th Cir. 2011)
(“This court has held that ‘[n]o Supreme Court or Circuit precedent constitutionally requires
that Texas’s mitigation special issue be assigned a burden of proof.’” (quoting Rowell v.
Dretke, 398 F.3d 370, 378 (5th Cir. 2005)).
78

79

Blue, 665 F.3d at 669 (internal quotation marks omitted).

Appendix Page no. 36

Case: 17-70008

Document: 00514838385

Page: 26

Date Filed: 02/18/2019

Hurst v. Florida. 80 Hurst addressed the constitutionality of Florida’s capital
punishment scheme in which the jury rendered an advisory verdict on
sentencing, and then, considering this advice, a judge made the critical factual
findings necessary to impose the death penalty. 81 The Court held that this
procedure violated the Sixth Amendment, which requires that a jury—not a
judge—make all findings that increase a defendant’s punishment. 82 As the
district court noted, the Hurst Court’s holding does not bear on the Texas
procedure, in which a jury reaches findings regarding whether to reduce a
sentence from death. 83 We deny a COA on this claim.
F.
Sixth, Thompson seeks a COA arguing the trial court’s denial of his
motion for a continuance before the start of the retrial on punishment violated
his right to due process. The state habeas court found no error in the denials
of Thompson’s motions for continuance in connection with his retrial on
punishment. It also rejected Thompson’s premise that he was prejudiced by the
lack of preparation time, and that his trial counsel failed to develop an
adequate mitigation case as a result. The district court observed that “trial
judges enjoy ‘a great deal of latitude in scheduling trials[’] and ‘only an
unreasoning and arbitrary insistence upon expeditiousness in the face of a
justifiable request for delay’ poses constitutional concern.” Additionally, it
agreed that Thompson had not shown that the denials of continuance resulted

80

136 S. Ct. 616 (2016).

81

Id. at 620.

82

Id. at 621–22.

See also Davila v. Davis, 650 F. App’x 860, 873 (5th Cir. 2016)
(unpublished), aff'd, 137 S. Ct. 2058 (2017) (addressing the same argument and concluding
“[o]ur precedent precludes this claim. Reasonable jurists would not debate the district court’s
resolution, even after Hurst.” (internal citation omitted)).
83

Appendix Page no. 37

Case: 17-70008

Document: 00514838385

Page: 27

Date Filed: 02/18/2019

in prejudice: he could not cite specific evidence that “remained unpresented,”
nor demonstrate that trial counsel was in fact unprepared. The district court
held it was not unreasonable for the state habeas court to conclude that there
was no constitutional violation in the denials of continuance.
On remand for a retrial on punishment, the state trial court appointed
Thompson’s previous trial counsel, Ellis McCullough, as first chair, and in
January 2005 appointed Terrence Gaiser second chair. In June, Thompson
moved pro se to remove McCullough as appointed counsel; the trial court
granted this motion on September 15, 2005. In that interval, Gaiser was active
in Thompson’s representation, including development of a mitigation case for
the upcoming retrial on punishment. That retrial commenced on October 24,
2005. Thompson argues that Gaiser required more time to prepare because of
the transition; he argues Gaiser discovered new information—new evidence
pertaining to Thompson’s treatments, closed head injuries, and documentation
of substance abuse. Also, Gaiser had newly discovered a potential Brady
violation in the State’s plans to call Rhodes to testify. Without a continuance,
he argues, Gaiser was unable adequately to prepare for the retrial in light of
time lost after Hurricane Katrina.
Gaiser represented Thompson for almost ten months before the retrial,
during which time he investigated and developed a mitigation case for his
client. Thompson provides only conclusory assertions—no specific examples—
in response to the state habeas court’s question regarding specific evidence
that went unpresented or specific instances in which Gaiser was in fact
unprepared during the retrial. While Thompson is correct that denial of a
continuance can violate a defendant’s constitutional rights, the district court
found the state habeas court was not unreasonable to conclude there was no
violation in Thompson’s case. We agree jurists of reason could not debate the

Appendix Page no. 38

Case: 17-70008

Document: 00514838385

Page: 28

Date Filed: 02/18/2019

district court’s determination, and that this claim does not deserve
encouragement to proceed further. We deny a COA on this claim.
III.
We GRANT a COA as to whether Thompson has established a Brady
violation in the State’s non-disclosure of a past relationship with Rhodes,
sufficient to overcome the procedural default of Thompson’s second claim; and,
if so, whether Thompson is entitled to habeas relief on the grounds of the Brady
violation or a Massiah violation in the introduction of Rhodes’s testimony
during the retrial on punishment. We otherwise DENY Thompson’s
application for COAs on all other claims and AFFIRM the district court’s denial
of an evidentiary hearing.

Appendix Page no. 39

Case: 17-70008

Document: 00514838386

Page: 1

Date Filed: 02/18/2019

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

February 18, 2019
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 17-70008

Charles Thompson v. Lorie Davis, Director
USDC No. 4:13-CV-1900

--------------------------------------------------Enclosed is a copy of the court's decision. The court has entered
judgment under FED. R. APP. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
FED. R. APP. P. 39 through 41, and 5TH Cir. R.s 35, 39, and 41
govern costs, rehearings, and mandates. 5TH Cir. R.s 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court's opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following FED. R. APP. P. 40 and 5TH CIR. R. 35 for a discussion of
when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH CIR. R. 41 provides that a motion for
a stay of mandate under FED. R. APP. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under FED. R. APP. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Appendix Page no. 40

Case: 17-70008

Document: 00514838386

Page: 2

Date Filed: 02/18/2019

Sincerely,
LYLE W. CAYCE, Clerk
By: _______________________
Debbie T. Graham, Deputy Clerk
Enclosure(s)
Mr. Seth Kretzer
Mr. Jonathan David Landers
Mr. George A. d'Hemecourt

Appendix Page no. 41

Appendix C

Appendix Page no. 42

Case 4:13-cv-01900 Document 73-2 Filed in TXSD on 03/30/17 Page 1 of 1
8QLWHG6WDWHV'LVWULFW&RXUW
6RXWKHUQ'LVWULFWRI7H[DV

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CHARLES VICTOR THOMPSON,
Petitioner,
v.
LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§

(17(5('
0DUFK
'DYLG-%UDGOH\&OHUN

CIVIL ACTION NO. H-13-1900

FINAL JUDGMENT
The Court DISMISSES Charles Victor Thompson’s challenge to Texas’s lethal-injection
protocol WITHOUT PREJUDICE. The Court otherwise DENIES Thompson’s petition and
DISMISSES the remainder of Thompson’s claims WITH PREJUDICE. No certificate of

appealability will issue.
The Clerk will provide copies of this Order to the parties.
Signed at Houston, Texas on March 23, 2017.

Gray H. Miller
United States District Judge

Appendix Page no. 43

002807

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 1 of 62
8QLWHG6WDWHV'LVWULFW&RXUW
6RXWKHUQ'LVWULFWRI7H[DV

(17(5('
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CHARLES VICTOR THOMPSON,

§
§
§
§
§
§
§
§
§

Petitioner,
v.
LORIE DAVIS,
Respondent.

0DUFK
'DYLG-%UDGOH\&OHUN

CIVIL ACTION NO. H-13-1900

MEMORANDUM OPINION AND ORDER
Charles Victor Thompson (“Thompson”), an inmate on Texas’s death row, has filed a federal
petition for a writ of habeas corpus. Respondent Lorie Davis (“Respondent”) has answered. After
considering the record, the pleadings, and the applicable law, the Court finds that Thompson has not
shown an entitlement to habeas relief.
I. BACKGROUND
Thompson started dating Dennise Hayslip, who was twelve years his senior, around June of
1997. Thompson soon moved in with her. Thompson rarely worked, but relied on Hayslip and
another roommate for support. Thompson became increasingly jealous, possessive, angry, and
abusive. Thompson eventually moved out.
Hayslip began dating Darren Cain, but still occasionally saw Thompson. On April 30, 1998,
Thompson was at Hayslip’s apartment when Cain called at around 2:30 a.m. Thompson told Cain
“to come over there and he would beat his ass.” RR1 Vol. 11 at 76.1 When Cain arrived, Thompson
1

The state court records consist of the Clerk’s Record from the initial trial that contains pretrial motions,
trial court orders, jury instructions, and other pleadings, cited as “CR at __”; a Reporter’s Record, including hearings
on pretrial motions, jury voir dire, the guilt/innocence phase, and the penalty phase, cited as “RR1 Vol. __ at __”; and
a transcript of the state habeas proceedings, cited as “State Habeas Record at __.” On direct appeal, the Texas Court
of Criminal Appeals reversed Thompson’s sentence. The Court will cite the Clerk’s Record from the second punishment
proceedings as CR2 at _____, and the Reporter’s Record as RR2 Vol. __ at __.

Appendix Page no. 44

002739

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 2 of 62

answered the door with a stick. A fight ensued. Thompson lost the fight.
Cain and Hayslip exited the apartment. Thompson walked out also, yelling, cussing, and
calling Hayslip a “whore.” RR1 Vol. 11 at 53. As Cain told Thomson to “chill,” Thompson
responded: “do you want to die, mother fucker?” RR1 Vol. 11 at 54.
By that time, the police had been called. The responding officer encountered Thompson,
Hayslip, and Cain standing outside. Thompson’s eye was blackened from the fight he had started.
Because no one wanted to press criminal charges, a police officer allowed Thompson to leave after
threatening him with criminal trespass should he return. After the responding officer escorted him
from the premises, Thompson went to get a gun.
Thompson later described to a friend, Diane Zernia, how he returned to Hayslip’s apartment
and shot both Hayslip and Cain. Thompson kicked down the door to Hayslip’s apartment and
encountered Cain inside. As Cain grabbed the end of the gun, Thompson began firing. Thompson
shot Cain four times, and two bullets missed. After Cain fell to the ground, Thompson reloaded the
gun, put it up to Hayslip’s cheek, and said, “I can shoot you too, bitch.” RR1 Vol. 11 at 132. The
gun fired. The bullet traveled through Hayslip’s cheek, into her tongue, and out the other side.
Thompson later claimed that he also tried to shoot himself, causing a wound on his arm.
Neighbors heard the gunshots. Shortly thereafter, Hayslip began knocking on neighbors’
doors. A neighbor found her sitting on the ground, gasping for breath as she leaned forward to
prevent drowning in her own blood. When emergency responders arrived, they found Cain dead.
Hayslip was bleeding profusely. Responders took her by life flight to a hospital where she later died.
Leaving the apartment, Thompson threw his gun in a nearby creek. Thompson then went to
Zernia’s house and fell asleep on a couch. When he woke up, he described the murders to Zernia.
2

Appendix Page no. 45

002740

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 3 of 62

Thompson then called his father, who picked him up and took him to the police station.
The State of Texas charged Thompson with capital murder for intentionally or knowingly
causing the death of more than one person in the same criminal transaction. See TEX. PENAL CODE
ANN. § 19.03(a)(7). Specifically, the indictment required the prosecution to prove that Thompson
“unlawfully, during the same criminal transaction, intentionally and knowingly caused the death of”
Cain by “shooting [him] with a deadly weapon” and also “intentionally and knowingly caused the
death” of Hayslip by “shooting [her] with a deadly weapon . . . .” CR at 51; RR1 Vol. 11 at 4-5.
Thompson stood trial in 1999.2 The prosecution presented testimony and evidence showing that
Thompson shot both Cain and Hayslip. The prosecution particularly emphasized Thompson’s
confession to Zernia that he shot both victims. The main defensive argument at the guilt/innocence
phase was that medical malpractice, not the gunshot through Hayslip’s mouth, was the primary cause
of her death. The jury convicted Thompson of capital murder. He was sentenced to death.
On direct appeal, Thompson raised issues relating to both the guilt/innocence and punishment
phases of trial. In 2001, the Court of Criminal Appeals found that the State violated Thompson’s
rights by relying in the punishment phase on the tape recording of an undercover police officer’s
jailhouse conversation with him. The Court of Criminal Appeals remanded for a new sentencing
hearing. Thompson v. State, 93 S.W.3d 16 (Tex. Crim. App. 2001).
The trial court held a new sentencing hearing in 2005.3 A Texas jury decides a capital

2

Ellis McCullough and Bettina J. Richardson represented Thompson in his original trial proceedings.
The Court will refer to Thompson’s trial attorneys collectively as “trial counsel.”
3

The trial court appointed Thompson’s original trial attorney, Ellis McCullough, to represent him as
first chair at retrial. Terrence Gaiser was originally appointed second-chair counsel. On Thompson’s pro se motion,
the trial court later removed McCullough and elevated Gaiser to first chair. Kyle Johnson served as second-chair counsel
at retrial. Unless necessary to identify one attorney, or to distinguish the attorneys who served at the second punishment
phase from those in his original trial, the Court will generally refer to all trial attorneys as “trial counsel.”

3

Appendix Page no. 46

002741

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 4 of 62

defendant’s sentence by answering two special-issue questions: (1) will the defendant be a future
danger to society and (2) do sufficient circumstances mitigate against a death sentence? See TEX.
PENAL CODE art. 37.071 § 2(b). In addition to the evidence underlying Thompson’s conviction, the
Court of Criminal Appeals summarized the State’s evidence for a death sentence as follows:
A few hours after committing the murders, [Thompson] went to the home of Diane
Zernia and confessed to her. After calling his father, [Thompson] surrendered to
authorities. [Thompson] later phoned Zernia from jail and tried to persuade her to
lie about what he had told her, but she refused. [Thompson] also attempted, from
prison, to solicit someone to kill Zernia and was later indicted for solicitation to
commit capital murder. The State also presented evidence that [Thompson] was
associated with the Aryan Brotherhood gang in prison. A fellow jail inmate testified
that [Thompson] gave him a list of people who [Thompson] believed were potential
witnesses and told the inmate that he would pay him to “eliminate” the witnesses or
otherwise make sure that they would not appear in court. The inmate turned the list
over to the police.
The State also presented evidence that [Thompson] began committing crimes as a
juvenile. In 1984, while living with his parents in an upper-middle-class
neighborhood in Colorado, [Thompson] committed a string of crimes that resulted
in over $60,000 of damage to homes and property. While on probation from the
youth center, [Thompson] stole his father’s motorcycle, ran away, and committed a
variety of crimes. He was arrested again in 1987 and sentenced to a juvenile facility.
[Thompson] had problems with drugs and alcohol from an early age. He married, but
later abandoned his wife and two children. In 1996, [Thompson] was arrested for
transporting illegal immigrants from Mexico.
Thompson v. State, No. AP-73,431, 2007 WL 3208755, at *1-2 (Tex. Crim. App. Oct. 31, 2007).
The jury again answered Texas’s special-issue questions in a manner requiring imposition of a death
sentence. The Court of Criminal Appeals affirmed Thompson’s sentence in a second direct appeal
in 2007. Thompson v. State, No. AP-73,431, 2007 WL 3208755 (Tex. Crim. App. Oct. 31, 2007).
Thompson filed two state applications for a writ of habeas corpus. Thompson filed a state
habeas application during the pendency of his first direct appeal. Thompson filed a second state
habeas application after receiving his second death sentence. In 2013, the trial-level state habeas

4

Appendix Page no. 47

002742

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 5 of 62

court entered findings of fact and conclusions of law recommending that the Court of Criminal
Appeals deny both habeas applications. On April 17, 2013, the Court of Criminal Appeals adopted
the lower court’s recommendation and also provided additional reasons for denying Thompson’s
habeas applications. Ex Parte Thompson, No. WR-78,135-01, 2013 WL 1655676 (Tex. Crim. App.
Apr. 17, 2013).
Federal review followed. Thompson filed an initial federal petition raising unexhausted
issues. Dkt. 21. On Thompson’s motion, the Court stayed the instant proceedings to allow state
court review of Thompson’s unexhausted claims. Texas only allows successive state habeas
proceedings in narrowly defined circumstances. See TEX. CODE CRIM. PRO. art. 11.071 § 5. On
March 9, 2016, the Court of Criminal Appeals found that Thompson’s successive habeas application
did not meet the statutory criteria and dismissed that action as an abuse of the writ. Ex parte
Thompson, No. WR-78,135-03, 2016 WL 922131, at *1 (Tex. Crim. App. Mar. 9, 2016).
Thompson filed an amended federal habeas petition raising the following grounds for relief:
1.

Insufficient evidence supports Thompson’s capital-murder conviction
because intervening medical care was the direct cause of Dennise Hayslip’s
death.

2.

The prosecution violated Thompson’s right to counsel by using a state agent
to secure incriminating statements from Thompson while he was incarcerated
before trial.

3.

The State’s punishment-phase case relied on incriminating statements secured
by a career informant.

4.

The indictment unconstitutionally omitted any facts pertaining to the Texas’s
special-issue questions.

5.

The State adduced impermissible victim-impact evidence in violation of
Thompson’s constitutional right to be free from cruel and unusual
punishment.

5

Appendix Page no. 48

002743

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 6 of 62

6.

Texas’s use of lethal injection to effectuate a death sentence does not comply
with Eighth Amendment standards.

7.

Texas’s post-conviction procedure does not afford due process.

8.

Texas’s statute defining concurrent causation is unconstitutional.

9.

Thompson’s attorneys provided ineffective assistance in both phases of trial.

10.

The trial court violated Thompson’s rights by denying the request for a
continuance before the second punishment phase.

11.

The State violated the Eighth Amendment by presenting evidence at the
second penalty phase of Thompson’s youthful misconduct.

12.

The Constitution requires that jurors consider the mitigation special issue
under a beyond-a-reasonable-doubt standard.

13.

The mitigation special issue unconstitutionally sends mixed signals to jurors.

14.

The State’s testimony and evidence relating to the autopsies of the victims
violated Thompson’s due process rights, his right to confront the witnesses
against him, and right to counsel.

Dkt. 57.4 Thompson has also filed a motion for an evidentiary hearing. Dkt. 56. Respondent has
filed an answer arguing that substantive and procedural law limits federal review and forecloses
habeas relief. Dkt. 66. Thompson has filed a reply. Dkt. 69. This Court has reviewed Thompson’s
grounds for relief and has determined that an evidentiary hearing is not necessary to a full and fair
review of his claims. This matter is ripe for adjudication.
II. STANDARD OF REVIEW
Federal habeas review is secondary to the state court process and is limited in scope. The
States “possess primary authority for defining and enforcing criminal law. In criminal trials they also

4

Thompson’s original federal petition contained claims that he waived in his amended habeas petition.
Dkt. 57 at 109-110, 244-45. The Court has renumbered his claims as necessary.

6

Appendix Page no. 49

002744

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 7 of 62

hold the initial responsibility for vindicating constitutional rights.” Engle v. Isaac, 456 U.S. 107,
128 (1982). How an inmate has litigated his claims in state court determines the course of federal
habeas adjudication. Under 28 U.S.C. § 2254(b)(1), “[a]n application for a writ of habeas corpus
on behalf of a person in custody pursuant to the judgment of a state court shall not be granted unless
it appears that . . . the applicant has exhausted the remedies available in the courts of the State[.]”
Exhaustion “reflects a policy of federal-state comity designed to give the State an initial opportunity
to pass upon and correct alleged violations of its prisoners’ federal rights.” Anderson v. Johnson,
338 F.3d 382, 386 (5th Cir. 2003) (internal citations and quotations omitted).
As a corollary to exhaustion, the procedural-bar doctrine requires inmates to litigate their
claims in compliance with state procedural law. See Dretke v. Haley, 541 U.S. 386, 392 (2004);
Lambrix v. Singletary, 520 U.S. 518, 523 (1997); Coleman v. Thompson, 501 U.S. 722, 729 (1991).
When an inmate fails to follow well-established state procedural requirements for attacking his
conviction or sentence, and the state court finds that he has procedurally defaulted his claims, federal
habeas adjudication is barred. See Lambrix, 520 U.S. at 523; Coleman, 501 U.S. at 732. A federal
court may review an inmate’s unexhausted or procedurally barred claims only if he shows: (1) cause
and actual prejudice or (2) that “a constitutional violation has ‘probably resulted’ in the conviction
of one who is ‘actually innocent[.]’” Haley, 541 U.S. at 393 (quoting Murray v. Carrier, 477 U.S.
478, 496 (1986)).
If the inmate has presented his federal constitutional claims to the state courts in a
procedurally proper manner, and the state courts have adjudicated the merits, the Anti-Terrorism and
Effective Death Penalty Act (“AEDPA”) allows federal review but limits its depth. “[A] habeas
petitioner has the burden under AEDPA to prove that he is entitled to relief.” Montoya v. Johnson,

7

Appendix Page no. 50

002745

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 8 of 62

226 F.3d 399, 404 (5th Cir. 2000); see also DiLosa v. Cain, 279 F.3d 259, 262 (5th Cir. 2002). A
petitioner cannot meet this burden by merely alleging constitutional error. Instead, “focus[ing] on
what a state court knew and did,” Cullen v. Pinholster, 563 U.S. 170, 182 (2011), an inmate must
show that the state court’s adjudication of the alleged constitutional error “was ‘contrary to, or
involved an unreasonable application of, clearly established Federal law.’” Berghuis v. Thompkins,
560 U.S. 370, 380 (2010) (quoting 28 U.S.C. § 2254(d)(1)); see also Thaler v. Haynes, 559 U.S. 43,
47 (2010); Bell v. Cone, 535 U.S. 685, 698 (2002); Early v. Packer, 537 U.S. 3, 7-8 (2002); Williams
v. Taylor, 529 U.S. 362, 413 (2000). A federal habeas court must presume the underlying factual
determinations of the state court to be correct, unless the inmate “rebut[s] the presumption of
correctness by clear and convincing evidence.” 28 U.S.C. § 2254(e)(1); see also Miller-El v.
Cockrell, 537 U.S. 322, 341 (2003); Young v. Dretke, 356 F.3d 616, 629 (5th Cir. 2004) (“As a
federal habeas court, we are bound by the state habeas court’s factual findings, both implicit and
explicit.”).
A petitioner’s compliance with 28 U.S.C. § 2254 does not alone create an entitlement to
habeas relief. No Supreme Court case “ha[s] suggested that a writ of habeas corpus should
automatically issue if a prisoner satisfies the AEDPA standard[.]” Horn v. Banks, 536 U.S. 266, 272
(2002); see also Robertson v. Cain, 324 F.3d 297, 306 (5th Cir. 2003) (finding that 28 U.S.C.
§ 2254(d) “does not require federal habeas courts to grant relief reflexively”). Other judicial
doctrines, such as the harmless-error doctrine and the non-retroactivity principle, bridle federal
habeas relief. See Thacker v. Dretke, 396 F.3d 607, 612 n.2 (5th Cir. 2005). Any trial error cannot
require habeas relief unless it “ha[d] a ‘substantial and injurious effect or influence in determining
the jury’s verdict.’” Robertson, 324 F.3d at 304 (quoting Brecht v. Abrahamson, 507 U.S. 619, 629

8

Appendix Page no. 51

002746

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 9 of 62

(1993)); see also Aleman v. Sternes, 320 F.3d 687, 690-91 (7th Cir. 2003) (“Nothing in the AEDPA
suggests that it is appropriate to issue writs of habeas corpus even though any error of federal law
that may have occurred did not affect the outcome.”). Also, under the jurisprudence flowing from
Teague v. Lane, 489 U.S. 288 (1989), a habeas court cannot grant relief if it would require the
creation and retroactive application of new constitutional law. See Horn, 536 U.S. at 272.
III. ANALYSIS
A.

Sufficiency of the Evidence
The State of Texas indicted Thompson for causing the death of both Cain and Hayslip. CR

at 51; RR1 Vol. 11 at 4-5. Thompson complains that insufficient evidence supports his capitalmurder conviction because intervening medical care was the direct cause of Hayslip’s death. As
previously discussed, when Thompson shot Hayslip in the cheek, the bullet traveled through her
mouth and nearly severed her tongue. The wound left Hayslip bleeding profusely. Her tongue
swelled up and threatened to close off her throat. Responders tried to keep her airway free. Life
Flight transported Hayslip to a major trauma center. At one point in surgery Hayslip became unable
to breathe, resulting in brain death. She died sometime later in the hospital.
Thompson argues that incompetent medical care intervened in the chain of causation and
resulted in her death. Thompson argues: “The death of Ms. Hayslip was the sole result of her loss
of oxygen to the brain, which in turn caused her family to terminate her life one week after she was
shot. This event was produced by the physicians’ respective inability to properly provide competent
medical assistance by way of a commonly performed hospital procedure.” Dkt. 57 at 52. Because
the indictment required the State to prove that he was the agent of both victims’ death, Thompson

9

Appendix Page no. 52

002747

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 10 of 62

contends that medical malpractice rendered his own actions insufficient to support a capital
conviction.
Insufficiency-of-the-evidence claims come before a federal habeas court under a standard of
review that gives heavy deference to state-court adjudications. Under Jackson v. Virginia, 443 U.S.
307 (1979), a reviewing court affirms a jury’s conviction if, considering all of the evidence in a light
most favorable to the prosecution, a rational trier of fact could have returned a verdict unfavorable
to the defendant. This demanding inquiry is highly deferential to, and resolves any conflicting
evidence in favor of, the jury’s verdict. See United States v. Harris, 293 F.3d 863, 869 (5th Cir.
2002); United States v. Duncan, 919 F.2d 981, 990 (5th Cir. 1990). AEDPA augments the
deferential Jackson analysis, creating an enhanced barrier to federal habeas relief. See Coleman v.
Jackson, 132 S. Ct. 2060, 2062 (2012); Perez v. Cain, 529 F.3d 588, 599 (5th Cir. 2008). Together,
Jackson and the AEDPA create a “double dose of deference that can rarely be surmounted.” Boyer
v. Belleque, 659 F.3d 957, 964 (9th Cir. 2011). A federal habeas court focuses only on whether the
state court reasonably applied the Jackson standard.
After reviewing the trial evidence, the Court of Criminal Appeals determined that the
evidence sufficiently proved that Thompson’s actions caused Hayslip’s death. Texas law on
causation framed the Court of Criminal Appeals’s review of Thompson’s insufficiency-of-theevidence claim. Texas Penal Code § 6.04(a) provides: “A person is criminally responsible if the
result would not have occurred but for his conduct, operating either alone or concurrently with
another cause, unless the concurrent cause was clearly sufficient to produce the result and the
conduct of the actor clearly insufficient.” “An accused may be exonerated under [§6.04] only if his
conduct alone was clearly insufficient to produce the result and the concurrent cause clearly

10

Appendix Page no. 53

002748

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 11 of 62

sufficient, operating alone, to do so.” Felder v. State, 848 S.W.2d 85, 90 (Tex. Crim. App. 1992)
(quotation omitted). The Court of Criminal Appeals found:
The shot to Hayslip’s face went through her cheek and nearly severed her tongue.
According to the State’s medical evidence, because the tongue is especially “well
vascularized” (contains more blood per gram of tissue than other parts of the body),
Hayslip was at risk of bleeding to death or of bleeding down into her lungs which
also could have resulted in death similar to drowning. The doctor in charge of
Hayslip’s care further testified that, without any medical attention, the swelling of
Hayslip’s tongue could have eventually obstructed her airway entirely, resulting in
suffocation. He stated that without medical intervention, Hayslip would not have
survived her injuries. [Thompson’s] medical expert agreed that the injury to
Hayslip’s tongue was life threatening and also agreed that Hayslip “probably” would
have died without medical intervention.
Thompson, 93 S.W.3d at 20-21. Thompson raises two primary criticisms of the Court of Criminal
Appeals’s ruling. Dkt. 57 at 44. First, Thompson faults the state court for relying on a false premise
by looking at whether the victim “would not have survived her injuries” if she went “without medical
attention.” Dkt. 57 at 44.
Thompson contends that “there was no chance that Hayslip would go without medical
attention.” Dkt. 57 at 44. Testimony from medical experts laid out the risks caused by Hayslip’s
bleeding and diminished breathing ability.5 The Court of Criminal Appeals has interpreted Texas
law to include asking whether the initial injury would have been fatal without medical attention.
Thompson has not pointed to any law definitely disallowing the state court to factor into its causation
review the question of what would have happened to the victim without medical care. See Patrick
v. State, 906 S.W.2d 481, 487 (Tex. Crim. App. 1995) (rejecting the argument that a defendant
lacked a specific intent to kill because the victim did not seek medical attention). This Court must

5

Thompson relies on evidence developed after trial to support his argument that Hayslip would have
survived her wounds had she been administered adequate medical care. This Court’s analysis under Jackson, however,
focuses on “the record evidence adduced at the trial,” not that developed afterward. Jackson, 443 U.S. at 324.

11

Appendix Page no. 54

002749

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 12 of 62

defer to a state court’s interpretation of its own law. See Bradshaw v. Richey, 546 U.S. 74, 76 (2005)
(“We have repeatedly held that a state court’s interpretation of state law, including one announced
on direct appeal of the challenged conviction, binds a federal court sitting in habeas corpus.”). Trial
testimony sufficiently established that Thompson inflicted a life-threatening injury, one which
required urgent medical attention in order to preserve Hayslip’s life. “Thus, viewing the evidence
in the light most favorable to the verdict, even assuming, arguendo, that the conduct of the doctors
was ‘clearly sufficient’ to cause Hayslip’s death, the conduct of [Thompson] was not ‘clearly
insufficient’ so as to absolve him of criminal responsibility under § 6.04.” Thompson, 93 S.W.3d
at 20-21.
Thompson’s second criticism is that the state court incorrectly characterized his expert’s trial
testimony. The Court of Criminal Appeals described defense witness Dr. Pat Radalat’s testimony
as “agree[ing] that the injury to Hayslip’s tongue was life threatening and also agree[ing] that
Hayslip ‘probably’ would have died without medical intervention.” Thompson, 93 S.W.3d at 21.
Even though Thompson disputes the Court of Criminal Appeals’s interpretation of the defensive
testimony, Dr. Radalat testified that, without medical intervention, the wound “would probably be
fatal.” RR1 Vol. 12 at 232. Thompson’s own expert would not testify that the medical efforts to
save Hayslip’s life caused her death. RR1 Vol. 12 at 256.
Viewing the trial evidence and testimony in a light most favorable to the jury’s verdict, the
Court of Criminal Appeals could reasonably find that a rational jury could convict Thompson.
Thompson shot the victim in the mouth, causing a wound that nearly severed her tongue. The wound
was serious and threatened her ability to breathe. Care had to be taken so that Hayslip would not
drown in her own blood. Tr. Vol. 15 at 84. Surgical efforts to save the victim failed. Whether

12

Appendix Page no. 55

002750

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 13 of 62

medical errors played some part in her death is not a question before this Court. This Court’s sole
inquiry is whether the state court unreasonably found that, construing the evidence in favor of the
jury’s verdict, sufficient evidence existed to support Thompson’s conviction. The doubly deferential
nature of federal review precludes habeas relief on this claim.
B.

Use of Information Derived from a State Actor at the Guilt/innocence Phase
The Court of Criminal Appeals ordered a new sentencing hearing after finding that the State

had unconstitutionally admitted into evidence a recording of Thompson’s jailhouse conversation
with undercover police officer Gary Johnson. In Thompson’s first appellate proceeding, the Court
of Criminal Appeals provided the following background:
Deputy Max Cox of the Harris County Sheriff’s Department testified at
punishment that he was approached by an inmate, Jack Reid, who told him that
[Thompson] was attempting to solicit the murder of Diane Zernia, who was slated
to be a witness in his capital murder case. Reid shared a cell with [Thompson]. Reid
told Cox that [Thompson] had already arranged for the murder by another inmate,
Max Humphrey, who had also shared a cell with [Thompson] and had recently been
discharged, but was looking for someone to retrieve a gun and give it to Humphrey
in order for him to carry out the murder.6 Cox told Reid that if he was approached
by [Thompson] again, he should tell him that he knew someone who could retrieve
the gun for him. Reid called Cox the next day and indicated that he had complied
with Cox’s instructions. Cox then arranged for Gary Johnson, an investigator with
the Harris County District Attorney’s Office, to meet with [Thompson] in an
undercover capacity to discuss the retrieval of the weapon and record their
conversation. Johnson was to assume the identity of Reid’s friend, who had
supposedly been contacted by Reid about retrieval of the gun. Cox further testified
that he gave Johnson a map that presumably identified where the gun could be
located.7 Johnson testified that he had been contacted by Cox and had agreed to
assume an undercover identity for the purpose of meeting with [Thompson] to
discuss retrieving a weapon to be used in a murder that had possibly already been
arranged. Johnson testified that he was wired for recording throughout their meeting.
6

The gun [Thompson] wanted retrieved was later discovered to be the murder weapon used in the instant

case.
7

Cox testified that he received the map from the officer who did the initial interview (presumably of
the informant). However, it is not clear where this officer obtained the map.

13

Appendix Page no. 56

002751

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 14 of 62

He further testified that [Thompson] brought a hand-drawn map to the meeting,
similar to the one Cox had given him, and held it up to the glass for him to see. At
that point during Johnson's testimony, the State offered the tape into evidence.
[Thompson] was given permission to question Johnson on voir dire. Johnson
admitted to having been aware that [Thompson] was represented by counsel on the
capital murder charge at the time of their meeting. He conceded that he had not
notified counsel of their meeting, had not informed [Thompson] that he was an
officer of the State, and had not given [Thompson] any warnings. See TEX. CODE
CRIM. PROC. art. 38.22; Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d
694 (1966). [Thompson] objected and sought suppression of the tape on the ground
that he had been denied counsel during the meeting with Johnson. The trial court
overruled the objection and admitted the tape into evidence. The tape was played for
the jury.
During their tape-recorded meeting [Thompson] and Johnson briefly
discussed retrieval of the gun. Then, [Thompson] told Johnson that there was a
witness in his case that he wanted “taken care of.” [Thompson] stated that he had
already paid Humphrey to kill the witness, but Humphrey had not gone through with
the job. [Thompson] gave Johnson the witness’ address, and described the witness
as a mother with a fourteen year old daughter and a husband. He described her car,
and informed him that she was usually home in the mornings after her daughter went
to school. He described her house as Victorian and her mailbox as black and white
spotted, like a cow. [Thompson] promised that when he got out of jail, he would pay
Johnson $1,500 for killing the witness. After the tape was played for the jury,
Johnson testified further, without objection, that [Thompson] had brought the map
with him to the meeting, and that it had an address written on it. Johnson stated that
[Thompson] had held it up to the glass for Johnson to read.
Thompson, 93 S.W.3d 1at 22-23 (footnotes in original).
Thompson argued that the State violated his Sixth Amendment rights by using “against him
at his trial evidence from his own incriminating words, which [state] agents had deliberately elicited
from him after he had been indicted and in the absence of his counsel.” Massiah v. United States,
377 U.S. 201, 206 (1964). A Massiah violation has three elements: “(1) the Sixth Amendment right
to counsel has attached; (2) the individual seeking information from the defendant is a government
agent acting without the defendant’s counsel’s being present; and (3) that agent deliberately elicits
incriminating statements from the defendant.” Henderson v. Quarterman, 460 F.3d 654, 664 (5th
14

Appendix Page no. 57

002752

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 15 of 62

Cir. 2006) (quotation omitted). The Court of Criminal Appeals found that the punishment-phase
introduction of the tape-recorded conversation between Thompson and Johnson was improper:
The State elicited information from [Thompson] regarding the solicitation of the
murder of a person who was to be a witness against [him]. The information was
elicited by an agent of the State, without notifying [Thompson’s] counsel, and was
then used at [his] capital murder trial to help the State establish that [he] posed a
continuing threat to society. The State knew the capital murder charges were pending
against [Thompson] at the time, and that any evidence incriminating [him] in another
offense would probably be used against him in the capital punishment phase. We
hold [Thompson’s] Sixth Amendment right to counsel was violated by the State’s
actions in soliciting the tape recorded conversation between [Thompson] and
Johnson and using it against [him] in the punishment phase of his capital murder
trial, the charges of which were pending at the time of the conversation. The trial
court should have granted [Thompson’s] motion to suppress the tape.
Thompson, 93 S.W.3d at 27 (citation omitted). On that basis, the Court of Criminal Appeals
overturned Thompson’s death sentence.
Thompson argues that the Court of Criminal Appeals did not ameliorate all the harm caused
by the State’s use of an undercover agent. Thompson’s federal petition contends that, because the
information Johnson obtained from him led to evidence the State presented in the guilt/innocence
phase, the Court of Criminal Appeals should have overturned not just his first death sentence, but
his capital conviction also. Thompson particularly objects because the discovery of the murder
weapon revealed how many bullets it would hold, which in turn allowed the State to argue that
Thompson reloaded the weapon during the criminal episode.
Thompson’s arguments that a Massiah violation harmed him the guilt/innocence phase
depend on his claim that “the gun was only found based on the information uncovered by Johnson.”
Dkt. 57 at 60. Before Johnson met with Thompson, the police obtained a map of where Thompson

15

Appendix Page no. 58

002753

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 16 of 62

had discarded the gun.8 Johnson testified that Cox had received the map “through an informant in
the Harris County Jail,” presumably Reid. RR1 Vol. 14 at 156. Thompson argues that, “because
authorities were not able to recover the gun based on the map alone,” the police sent “Johnson in to
speak with Thompson with the goal of recovering the weapon.” Dkt. 57 at 55. Cox testified that he
gave the map to Johnson so he “would have knowledge in talking with the defendant when the
defendant was wanting him to go recover the weapon.” RR1 Vol. 14 at 125.
Johnson met with Thompson on July 7, 1998. Johnson intended to talk to Thompson about
“the retrieval of the gun” and “the solicitation” to kill witnesses. RR1 Vol. 14 at 171. After Johnson
lied and said he had personally searched for, but could not find, the gun, Thompson showed a map
that was nearly identical to the first one. RR1 Vol. 14 at 165. The police, however, apparently never
took the second map from Thompson. RR1 Vol. 14 at 165-66, 175. The record does not elaborate
on any information outside of the map that Thompson may have provided about the gun’s location.
The police recovered the murder weapon almost two weeks later.9 Johnson testified that he
did not think that the police used the information from his conversation with Thompson to find the
gun. RR1 Vol. 14 at 175. Johnson thought that the recovery of the gun “would have been from a
map they had prior to” his involvement in the case. RR1 Vol. 14 at 176.
Before turning to the merits, the Court must clarify what issues were resolved by the Court
of Criminal Appeals on direct appeal. Thompson contends that this Court can adjudicate the merits
8

Deputy Cox did not testify about the origin of the map because trial counsel lodged a hearsay objection
to Cox explaining where it came from. RR1 Vol. 14 at 124-25. Cox, however, told Johnson to represent that he had
received the map from Reid. RR1 Vol. 14 at 126.
9

One of the investigating police officers testified that he received the recovered gun from Officer
Gregory Pinkins on July 23, 1998. RR1 Vol. 11 at 32-33. Officer Pinkins, who had been investigating the murders,
testified that “with the help of an informant” they found the gun in a bayou. RR1 Vol. 11 at 154. Officer Pinkins did
not say when the police found the weapon other than it was “[a]pproximately four or five days” before he gave it to the
other officer.

16

Appendix Page no. 59

002754

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 17 of 62

of his claim de novo because the Court of Criminal Appeals never ruled on his argument that a
Massiah violation tainted the guilt/innocence phase. Respondent argues that either (1) Thompson
never made clear to the state courts that the Johnson conversation influenced the guilt/innocence
phase, thus rendering the claim in his federal petition unexhausted or (2) the Court of Criminal
Appeals adjudicated the whole of his claim on the merits, requiring the application of AEDPA
deference.
1.

Litigation of this Claim in State Court

Respondent primarily argues that Thompson exhausted his Massiah claim on direct appeal,
but in the alternative asserts that Thompson did not adequately place the issue before the state courts.
Thompson never asked the trial court to find that the gun was inadmissible. The Court must decide
whether his arguments on appeal sufficiently put the guilt/innocence aspects of his claim before the
Court of Criminal Appeals.
Under 28 U.S.C. § 2254(b)(1), a federal habeas petitioner must fully exhaust remedies
available in state court before proceeding to federal court. A federal court may only adjudicate a
claim when the petitioner fairly presents its substance to the state courts. See Smith v. Dretke, 134
F. App’x 674, 677 (5th Cir. 2005). Then, AEDPA deference applies if the state court adjudicated
the merits of the inmate’s claim. Before turning to the merits, the Court must ask: Did Thompson
sufficiently raise his federal claim in state court for the purposes of exhaustion? If so, did the state
courts rule on his claim sub silentio or did they ignore it? If the state courts ruled on his claim, does
AEDPA govern federal review?
Thompson’s appellate brief first introduced his theory that a Massiah violation tainted both
stages of trial: “The undercover interview was intertwined with the recovery of the murder weapon

17

Appendix Page no. 60

002755

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 18 of 62

and the investigation of a solicitation of a homicide. The State of Texas did not make any attempt
to delineate between the two events.” Appellate Brief, at 28. But Thompson’s brief still focused its
discussion on the jury’s punishment phase deliberations: “The record clearly demonstrates that the
Defendant’s statements on the tape recording and to Gary Johnson were incriminating both at guilt
and punishment and significantly aided the State of Texas in securing an affirmative answer to
Special Issue Number 1. It created future dangerousness evidence for the State.” Appellate Brief,
at 28. A supplemental brief emphasized that “[a]s a direct result of the interview the weapon was
recovered by the State,” but only generally argued that “the judgment of the Court should be reversed
and remanded for a new trial or a new punishment hearing.” Supplemental Appellate Brief, at 3.
The Court of Criminal Appeals extensively discussed the effect that the Massiah violation
had on the punishment phase of trial without mentioning Thompson’s allegations relating to the
guilt/innocence phase. Thompson subsequently filed a pro se motion for rehearing and argued that
the Massiah violation harmed him “throughout trial,” including in the guilt/innocence phase. The
Court of Criminal Appeals initially granted Thompson’s motion for rehearing, but subsequently
dismissed it as improvidently granted.10
On federal review, the question of whether Thompson fairly presented his claims to the Texas
courts is separate from the question of whether the Texas courts adjudicated them. See Smith v.
Digmon, 434 U.S. 332, 333 (1978) (“It is too obvious to merit extended discussion that whether the
exhaustion requirement of 28 U.S.C. § 2254(b) has been satisfied cannot turn upon whether a state
appellate court chooses to ignore in its opinion a federal constitutional claim[.]”). Thompson did

10

The Court of Criminal Appeals provided only a brief explanation of its action: “We granted
[Thompson’s] first ground for rehearing in which he maintained we failed to fully consider his fourth point of error on
original submission. Upon further consideration, we have concluded our decision to grant rehearing was improvident
and we withdraw the order granting rehearing.” Thompson v. State, 108 S.W.3d 269 (Tex. Crim. App. 2003).

18

Appendix Page no. 61

002756

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 19 of 62

not provide the same detailed briefing regarding the Massiah violation as he does in federal court,
but still afforded the state courts an opportunity to consider whether the Johnson conversation
influenced the guilt/innocence phase. The Court finds that Thompson exhausted his Massiah claim.
The record, however, does not clearly indicate whether the Court of Criminal Appeals
intended to adjudicate the guilt/innocence portion of the Massiah claim, intentionally ignored it, or
neglected to rule on it. Generally, “[w]hen a state court rejects a federal claim without expressly
addressing that claim, a federal habeas court must presume that the federal claim was adjudicated
on the merits.” Johnson v. Williams, 133 S. Ct. 1088, 1096 (2013); see also Harrington v. Richter,
131 S. Ct. 770, 784-85 (2011) (“When a federal claim has been presented to a state court and the
state court has denied relief, it may be presumed that the state court adjudicated the claim on the
merits [for purposes of § 2254(d) ] in the absence of any indication or state-law procedural principles
to the contrary.”). The “presumption can in some limited circumstances be rebutted . . . either by
the habeas petitioner (for the purpose of showing that the claim should be considered by the federal
court de novo ) or by the State (for the purpose of showing that the federal claim should be regarded
as procedurally defaulted). . . . Thus, while the . . . presumption is a strong one that may be rebutted
only in unusual circumstances, it is not irrebuttable.” Williams, 133 S. Ct. at 1096.
Thompson’s pro se motion for rehearing argued that the Court of Criminal Appeals did not
fully adjudicate his claim. The Court of Criminal Appeals ultimately denied rehearing without
divulging whether it had already adjudicated the claim, considered it to be meritless, applied Texas
procedural law, or found some other reason for denial. Nevertheless, neither party has rebutted the
presumption that the Court of Criminal Appeals decided the issue on the merits. The Court,
therefore, presumes that the Court of Criminal Appeals denied the guilt/innocence aspects of his

19

Appendix Page no. 62

002757

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 20 of 62

Massiah claim on the merits. The Court will apply AEDPA’s deferential scheme to Thompson’s
Massiah claim.
2.

The Merits

The Court of Criminal Appeals decided on direct appeal that the State had committed a
Massiah violation by sending an undercover agent to speak with Thompson. Because neither party
questions whether the Court of Criminal Appeals was correct in finding a constitutional violation,
this Court does not revisit that decision and only considers its impact on Thompson’s conviction.11
Johnson did not testify in the guilt/innocence phase. Instead, Thompson objects to derivative
evidence and testimony relating to the murder weapon, which Thompson argues was only discovered
after Johnson’s conversation with him. Information about the gun came before the jury in various
contexts.12 Thompson argues that “[t]here is no question that [he] was harmed by the admission of
the gun in his case, and the gun was only found based on the information uncovered by Gary Johnson
in violation of Thompson’s Right to Counsel.” Dkt. 57 at 60.
Respondent claims that two doctrines overcome the deterrence rationale underlying a
Massiah violation. The Supreme Court recognizes an “independent source doctrine” that allows trial
courts to admit evidence when “officers independently acquired it from a separate, independent
source.” Utah v. Strieff, 136 S. Ct. 2056, 2061 (2016); see also Nix v. Williams, 467 U.S. 431, 442
11

Subsequent to deciding that a Massiah violation occurred in this case, the Court of Criminal Appeals
observed that its “holding in Thompson may have been called into question by the later Supreme Court decision in
Kansas v. Ventris, [556 U.S. 586 (2009)].” Rubalcado v. State, 424 S.W.3d 560, 572 (Tex. Crim. App. 2014). As the
parties have not questioned whether a Massiah violation occurred, and Respondent persuasively argues that Thompson
has not shown any connection between the Johnson conversation and the gun’s recovery, the Court will assume that the
State violated the Sixth Amendment by having Johnson speak with Thompson.
12

Police officers described finding the weapon submerged in Cypress Creek, RR1 Vol. 11 at 32-33, 15357, based on information from an informant, RR1 Vol. 11 at 153-54. A firearms examiner told jurors that, since the gun
could only hold six bullets, the shooter would have to reload to discharge the number of fired bullets found at the crime
scene. RR1 Vol. 11 at 165-174. In closing arguments, the State emphasized that reloading the weapon showed that the
shootings were not an accident, but an intentional effort to kill. RR1 Vol. 13 at 55-57.

20

Appendix Page no. 63

002758

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 21 of 62

(1984). Also, Respondent argues that the inevitable-discovery doctrine, which “asks whether there
is a reasonable probability that the evidence in question would have been discovered in the absence
of the police misconduct,” cured the Massiah violation. United States v. Zavala, 541 F.3d 562, 579
(5th Cir. 2008); see also Nix, 467 U.S. at 443-44 . Respondent argues that “it is clear that the gun
was discovered either from a source independent of Johnson or its discovery was inevitable.” Dkt.
66 at 40. Respondent’s arguments under both the inevitable-discovery and the independent-source
doctrine rely on the absence of a link between the Johnson conversation and the gun’s recovery.
Thompson has not shown that his conversation with Johnson was the predicate for the police
recovering the murder weapon. Thompson assumes that the police recovered the gun “with the help
of Johnson’s recording,” because they found it afterward. Dkt. 57 at 58. Showing that the police
found the gun after the Johnson conversation does not mean they found it because of the
conversation. The record does not extensively discuss the discovery of the murder weapon, likely
because trial counsel did not challenge its admissibility. Still, the record does not suggest that the
police used information from Johnson to find the gun. Thompson has not pointed to anything in the
record showing that he provided Johnson some detail not already known from the first map or his
statements to Zernia.13 A previous informant had already obtained a map showing the location of
the murder weapon, which the police had before sending Johnson to speak with Thompson. RR1
Vol. 14 at 124-25. That map indicated the location of the creek in which Thompson discarded the
gun. RR1 Vol. 14 at 126. The police used that map in searching for the weapon. RR1 Vol. 14 at
127. Despite having looked before the Johnson conversation, the police did not find the gun until
13

While Johnson testified that Thompson told him which direction he threw the weapon from his car,
the original map indicated where Thompson discarded the gun. Compare RR1 Vol. 14 at 173 with RR1 Vol. 16, State’s
Exhibit 88. When Johnson asked for more information, Thompson drew a map. RR1 Vol. 14 at 174. Thompson has
not identified any meaningful difference between that map and the initial one, much less any difference that the police
used to find the discarded weapon.

21

Appendix Page no. 64

002759

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 22 of 62

nearly two weeks after Johnson met with Thompson. Johnson testified that he thought the police
used the first map to find the murder weapon. RR1 Vol. 14 at 176-77. Johnson also provided
uncontradicted testimony that the police did not rely on his conversation with Thompson. Tr. Vol.
14 at 174-76.
With that record, Thompson bases his claim on speculation that he provided Johnson some
previously unknown fact about the location of the discarded weapon. He also speculates that
Johnson provided some otherwise-unknown information to the officers who found the gun. From
the record before the Court, it appears that the discovery of the gun was “wholly independent of any
constitutional violation.” Nix, 467 U.S. at 442. Thompson, therefore, has not shown that the Court
of Criminal Appeals was unreasonable in denying the guilt/innocence aspects of his Massiah claim.14
The Court, therefore, will deny relief.
C.

Testimony from an Informant in the Second Punishment Hearing
In his third ground for relief, Thompson claims that the State violated his constitutional rights

by presenting testimony in the second punishment phase from fellow inmate Robin Rhodes. As
previously discussed, undercover police officer Johnson testified in the first penalty hearing that
Thompson had attempted to solicit the murder of witnesses. Johnson, however, was not the only
14

The Court’s analysis would be the same whether under AEDPA or de novo review. Even
if Thompson had shown constitutional error, he must still prove that any improper influence resulting from
the Johnson conversation had some impact in the guilt/innocence phase. The Supreme Court has held that
a Massiah violation can be harmless. See Milton v. Wainwright, 407 U.S. 371 (1972). Under Brecht v.
Abrahamson, a federal court may grant habeas relief based on trial error only when that error “had substantial
and injurious effect or influence in determining the jury’s verdict.” 507 U.S. 619, 637 (1993) (quotation
omitted). Here, testimony and evidence relating to the murder weapon had a negligible influence on the
jury’s decision. No question existed as to Thompson’s role as the killer. The defense at trial focused on
causation, not ballistics evidence. To the extent that the prosecution drew inferences from the weapon, such
as that Thompson reloaded before shooting Hayslip, that information bore little relationship to his decision
to pull the trigger. In fact, the most conclusive indication of his intent was his declaration “I can shoot you
too, bitch” as he fired into Hayslip’s face. RR1 Vol. 11 at 132. In short, Thompson has not shown that any
Massiah violation harmed him in the guilt/innocence phase.

22

Appendix Page no. 65

002760

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 23 of 62

person who could describe Thompson’s efforts to solicit murder. Prior to Thompson’s original trial,
the Harris County District Attorney’s office gave Thompson the following notice: “In August, 1998
the defendant solicited inmate Robin Rhodes to kill numerous witnesses and obtain and destroy the
murder weapon in this case.” CR at 67-68. Rhodes, however, did not testify at the original trial.
Because the Court of Criminal Appeals found that Johnson’s testimony should have been
excluded, Thompson, 93 S.W.3d at 22-29, the State called other witnesses to show that Thompson
tried to solicit murder, including Rhodes who had been incarcerated with Thompson in 1998.
Thompson contends: “it is clear that (1) his right to counsel had attached in both the capital murder
and the subsequently filed solicitation of capital murder proceedings; (2) Robin Rhodes was a
government agent (full time informant for Harris County law enforcement); (3) and that Rhodes
deliberately elicited evidence from Thompson.” Dkt. 57 at 62. Thompson, in fact, now calls Rhodes
not only an informant, but a “government employee.” Dkt. 69 at 27.
Based on that premise, Thompson raises three separate constitutional arguments. First,
Thompson argues that Rhodes’s testimony amounted to a separate Massiah violation.15 Second,
Thompson asserts that the State of Texas disregarded its duty under Brady v. Maryland, 373 U.S.
83 (1963) to disclose information about its relationship with Rhodes.16 Finally, Thompson maintains
that his trial, appellate, and state habeas attorneys provided ineffective representation in their

15

Again, “[a] Massiah violation has three elements: (1) the Sixth Amendment right to counsel has
attached; (2) the individual seeking information from the defendant is a government agent acting without the defendant’s
counsel being present; and (3) that agent ‘deliberately elicit[s]’ incriminating statements from the defendant.”
Henderson, 460 F.3d at 664 (alteration in original) (quoting Massiah, 377 U.S. at 206).
16

“A Brady claim involves three elements; (1) the prosecution’s suppression or withholding of evidence,
(2) which evidence is favorable, and (3) material to the defense.” United States v. Stephens, 964 F.2d 424, 435 (5th Cir.
1992). Also, “Brady does not obligate the State to furnish a defendant with exculpatory evidence that is fully available
to the defendant through the exercise of reasonable diligence.” Reed v. Stephens, 739 F.3d 753, 788 (5th Cir. 2014).

23

Appendix Page no. 66

002761

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 24 of 62

handling of Rhodes’s testimony.17 Respondent contends that each argument is procedurally barred
and, alternatively, without merit.
1.

Procedural Bar

Thompson failed to raise any arguments from claim three in his first two state habeas
applications. When Thompson raised these claims in his third state habeas application, the Court
of Criminal Appeals dismissed the claims under TEX. CODE CRIM. PRO. art. 11.071 §5 as an abuse
of the writ without considering the merits. “A dismissal pursuant to Article 11.071 ‘is an
independent and adequate state ground for the purpose of imposing a procedural bar’ in a subsequent
federal habeas proceeding.” Gutierrez v. Stephens, 590 F. App’x 371, 384 (5th Cir. 2014) (quoting
Hughes v. Quarterman, 530 F.3d 336, 341 (5th Cir. 2008)).18
Thompson makes two arguments to overcome the procedural bar. First, Thompson contends
that the suppression of evidence, discussed in the Brady portion of his argument, should forgive his
failure to raise the claim properly in state court. Second, Thompson argues that state habeas counsel
provided ineffective representation under Martinez v. Ryan, 132 S. Ct. 1309 (2012), by not raising
his federal claims in the initial rounds of state habeas review. Both arguments, however, cover the
same ground as his substantive claims. For the same reasons that Thompson has not shown
constitutional error in the State’s use of Rhodes’s testimony, he has not shown cause or actual
prejudice to overcome the procedural bar.

17

Despite some differences in application, whether an inmate complains about the representation
provided by his trial, appellate, or habeas counsel he still must show deficient performance and resulting prejudice under
Strickland v. Washington, 466 U.S. 668 (1984).
18

Thompson argues that the Court of Criminal Appeals’s dismissal amounts to a decision on the merits
under Ruiz v. Quarterman, 504 F.3d 523, 527 (5th Cir. 2007). Ruiz, however, is not applicable in this circumstance.
“The Fifth Circuit has held post-Ruiz that § 5(a) remains an independent and adequate state ground for the purpose of
imposing a procedural bar.” Stroman v. Thaler, 405 F. App’x 933, 935 (5th Cir. 2010) (citing Hughes v. Quarterman,
530 F.3d 336, 342 (5th Cir. 2008) and Rocha v. Thaler, 619 F.3d 387 (5th Cir. 2010)).

24

Appendix Page no. 67

002762

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 25 of 62

2.

The Merits

At the core, each of Thompson’s various constitutional arguments complains that the State
failed to divulge important facts about its relationship with Rhodes. Thompson specifically says that
Rhodes “was, by his own admission, a full time informant for Harris County when he elicited
information from Thompson.” Dkt. 57 at 63. Thompson wishes that the State had disclosed that
Rhodes: was employed by the Harris County Organized Crime Narcotics Task Force, which included
the Harris County District Attorney’s Office; had been a confidential informant in numerous cases
and had twice testified for the State, including once in a capital murder prosecution; had received
$30,000 for his participation in another capital murder case relating to a narcotics transaction; had
previously received other payments for assisting police; had helped secure numerous search
warrants; and had acted at the State’s direction in extracting statements from Thompson. As
discussed below, whether he casts his claims in the context of Massiah, Brady, or Strickland claims,
much of the information on which Thompson bases his claim was known to – and used by – trial
counsel.
Before the retrial, the State gave notice that it intended to call Rhodes as a witness in the
retrial of Thompson’s punishment. CR2 at 110.19 Shortly before retrial, defense counsel moved for
a continuance to investigate Rhodes’s testimony. The defense argued: “For the first time and literally
by accident Counsel on overhearing a conversation learned of Rhodes’s participation in a previous
capital murder trial. Subsequent investigation leads Counsel to believe that Rhodes may well have
been an agent of the State while he was incarcerated with this defendant, if so, his testimony is

19

The State’s notice specified: “On or about August 21, 1998 the defendant prepared a list of witnesses
to fellow inmate Robin Rhodes for the purpose of Rhodes to kill or otherwise use physical means to prevent from
testifying at trial.” CR at 67-68.

25

Appendix Page no. 68

002763

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 26 of 62

clearly inadmissible.” CR2 at 210. The defense also argued that “there may be significant
impeachment evidence” relating to Rhodes that the State had not disclosed. CR2 at 210. The trial
court refused to postpone the trial.
Before testimony began in the second punishment phase, the parties discussed the disclosure
of any information relating to Rhodes. RR2 Vol. 16 at 8.20 The State had already disclosed that it
had entered into an agreement with Rhodes. RR2 Vol. 2 at 28-29, 47. During opening argument,
the State told jurors that Thompson had developed a hit list of potential witnesses. The prosecutor
told jurors that Rhodes “takes that list to the police . . . . He is expecting consideration for the
evidence and has received consideration in exchange for his testimony in the case. He has eight hot
check cases, Class C misdemeanors that we’re going to go ahead and dismiss. He also has a pending
Class B misdemeanor, false report case, that we’re also going to dismiss in exchange for his
testimony.” RR2 Vol. 16 at 31-32.
Rhodes testified on the second day of the punishment hearing. Rhodes told jurors that he
worked with the Harris County Organized Crime Task Force relating to “pretty much whatever
situation he stumbled into.” RR2 Vol. 17 at 136. In August 1998, Rhodes struck up a conversation
with Thompson in recreation and claimed that he “could find anybody anywhere at any time.” RR2
Vol. 17 at 136. Thompson responded that he “wanted some people to not appear [at his trial] or
disappear.” RR2 Vol. 17 at 138. Rhodes testified:
From my understanding he had a problem with some people that he wanted to, he
said, Just go away. I don’t care how it happens. He – found out he had a problem
with a female and another man and there was some people that could tie him to it.
He figured with my expertise I could make them go away.

20

The prosecutor told the trial court that Rhodes had several criminal issues pending, and that the State
agreed to treat him with leniency in return for his honest testimony. RR2 Vol. 2 at 26-29, 47.

26

Appendix Page no. 69

002764

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 27 of 62

RR2 Vol. 17 at 138. “The deal was that [Rhodes] would do what [he] could do” to keep them from
coming to court. RR2 Vol. 17 at 138. When Rhodes “asked for some descriptions” of the intended
victims, Thompson gave him a list of names. RR2 Vol. 17 at 140-41. Rhodes then contacted an
officer with the Harris County Organized Crime Unit and gave him the list. RR2 Vol. 17 at 141. The
State admitted the list into evidence without any objection.
Rhodes also testified that Thompson told him about the murders. Thompson explained that
“he had gone over to the apartment and he had shot the gentleman and got mad because it didn’t kill
him and they accidentally got into a struggle and he shot himself and then he shot the guy again.”
RR2 Vol. 17 at 139. Referring to Hayslip, Thompson said “the bitch wouldn’t get up again.” RR2
Vol. 17 at 139.
On cross-examination, Rhodes explained that he had helped the government for a long time.
RR2 Vol. 17 at 149. He had assisted the Harris County District Attorney’s Office as an informant
and had been paid “on many occasions.” RR2 Vol. 17 at 153. Rhodes described his role: “I was a
full-time – basically I was a full-time informant for the Harris County Organized Crime Task Force.”
RR2 Vol. 17 at 153. Rhodes explained that he had testified in two other trials that he could recall.
RR2 Vol. 17 at 154. In one of the trials in which he provided information about a capital murder
involving a significant amount of drugs, the State paid him “somewhere in the neighborhood of
between 20 and $30,000” from money the government had seized. RR2 Vol. 17 at 159. The defense
unsuccessfully moved to strike Rhodes’s testimony because the District Attorney’s Office violated
Brady by not divulging that he was in their employ. RR2 Vol. 17 at 163.

27

Appendix Page no. 70

002765

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 28 of 62

Trial counsel’s thorough cross-examination of Rhodes demonstrated an intricate
understanding of his past interaction with the State.21 To the extent that trial counsel did not know
about some facets of his role as an informant, Thompson concedes that Rhodes’s history was
discoverable from a published appellate opinion. In Stephens v. State, 59 S.W.3d 377, 381-82 (Tex.
App.-Houston [1 Dist.] 2001), a Texas appellate court explained that Rhodes had:
testified before the jury that he was currently employed by the Harris County
Organized Crime Narcotics Task Force, which included the Harris County District
Attorney’s Office, as a confidential informant in over 50 cases, more than 80 percent
of which resulted in convictions; that he had twice testified for the State, including
once in a capital murder prosecution; and that the State had not doubted him.
Stephens, 59 S.W.3d at 381. Thompson has not shown how the State could have suppressed
information in a published judicial decision. See Parr v. Quarterman, 472 F.3d 245, 254 (5th Cir.
2006) (“[T]he prosecution is not required to disclose evidence that could be discovered by exercising
due diligence.”).
The trial record clearly shows that Rhodes had a history of providing information to, and
testimony for, the State. Even accepting Thompson’s argument that “there is no doubt that
[Rhodes’s] aim, once in jail, was to get information and relay it to the government,” Dkt. 21 at 57,

21

In adjudicating a different claim, the state habeas court recognized that trial counsel effectively crossexamined Rhodes about his prior work as an informant:
Trial counsel effectively cross-examined Rhodes, impeaching his credibility eliciting testimony
regarding his work as an informant for law enforcement, and suggesting that Rhodes’ testimony in the
instant trial was a product of Rhodes’ desire to help himself. Trial counsel elicited testimony that
Rhodes had a prior conviction for aggravated robbery that he neglected to mention during his direct
examination; that Rhodes had done a lot of work for law enforcement and received pay for that work;
that Rhodes was not looking for a way to gain favor with law enforcement authorities when he was in
jail with [Thompson] but Rhodes would not overlook it if it was dumped in his lap; that Rhodes was
a full-time informant for the Harris County Organized Crime Task Force in 1998 and 1999 and
testified in two trials and that Rhodes was paid for his participation in the Benavidez trial even though
the record from that trial reflected that Rhodes denied receiving payment.
State Habeas Record at 250.

28

Appendix Page no. 71

002766

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 29 of 62

Thompson’s briefing does not show that the State instructed Rhodes to do so. Rhodes characterized
himself as a “ful-time” informant, but the record does not show that he was an agent or employee
of the State with regard to securing information from Thompson. Instead, the record confirms that
Rhodes often provided information to the State in return for monetary gain or leniency. But the
question is “whether the challenged statements had been deliberately elicited” and “whether the
government had directed or steered the informant toward the defendant.” United States v. York, 933
F.2d 1343, 1356 (7th Cir. 1991). The core of Thompson’s claims depends on showing that Rhodes
“was acting under instructions as a paid informant for the Government[.]” United States v. Henry,
447 U.S. 264, 270 (1980) (emphasis added); see also Kuhlmann v. Wilson, 477 U.S. 436, 459 (5th
Cir. 1986) (“[T]he primary concern of the Massiah line of decisions is secret interrogation by
investigatory techniques that are the equivalent of direct police interrogation.”). Rhodes explicitly
testified, however, that he did not talk with Thompson pursuant to any State-directed instruction or
order:
The State:

When you went back in jail did anybody from any law enforcement
agency ask you to target Charles Victor Thompson and help us gather
evidence against him?

Rhodes:

No, not at all.

RR2 Vol. 17 at 134-35. As it now stands, Thompson only speculates that Rhodes “was charged with
obtaining information” from him. Henry, 447 U.S. at 272 n.10. Even to the extent that Thompson
may not have had all possible information about Rhodes, the new information only fills in outlines
known at the time of trial, yet still does not suggest that the State encouraged Rhodes to act. Simply,
the record before the Court does not suggest that the State deliberately used Rhodes as an agent to

29

Appendix Page no. 72

002767

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 30 of 62

deliberately secure information from Thompson in violation of his constitutional rights.22
The transcript alone reveals that the defense understood at least the rudimentary facts of
Rhodes’s background as a government informant. While Thompson later learned additional
information about Rhodes,23 it only confirms trial testimony showing that Rhodes previously had a
close relationship with law enforcement, had provided information used in criminal prosecutions,
had testified for the State as an informant, and had received a benefit for his testimony. Jurors had
an adequate opportunity to consider that information.24 The record, however, does not show that the
State directed Rhodes to secure information from Thompson. Whether under Brady, Strickland, or
some other standard, Thompson has not shown prejudice or harm.
In conclusion, Thompson has not shown that Rhodes elicited information at the behest of
state agencies or with the authority of a state actor. The record does not show that state actors

22

The Court ordered the Respondent to submit prosecutorial notes and other material not previously
disclosed for in camera review. Dkt. 32, 35. The Court has fully reviewed the whole of the submitted material and has
found nothing that would support the allegations Thompson raises in his third ground for relief. With the factual record,
Thompson has not shown that an evidentiary hearing or additional factual development is necessary to a full and fair
adjudication of his claims.
23

For instance, Thompson uncovered a contract between Rhodes and the district attorney’s office to
“cooperate with . . . law enforcement officers in the investigation of narcotics trafficking . . . .” Dkt. 57 at 75. Because
this contract ended years before trial, and involved issues completely separate from those in the instant case, such
evidence is of little value in deciding whether a Massiah violation occurred. Thompson also emphasizes an inter-office
memorandum that an assistant district attorney prepared after being contacted by Rhodes in which he reports contact with
“the witness in this case Robin Rhodes.” Dkt. 57 at 85. Also, other memoranda suggest that the District Attorney’s
Office knew at the time of trial that Rhodes had previously worked as an informant. As Respondent observes, however,
“the ‘recently disclosed’ facts merely provide more detailed specifics relating to Rhodes’s informant activity that he
testified about explicitly at trial” Dkt. 66 at 61. In particular, Respondent observes two problems. First, “it is
unsurprising that Rhodes would be referred to as a potential witness in either Thompson’s capital murder or solicitation
case immediately after he disclosed information that Thompson attempted to enlist him in a plot to murder witnesses.”
Second, “the memo explains that [Rhodes] received information from [Thompson] on August 21, 1998, and contacted
Kelly five days later, on August 26, 1998. Ultimately, instead of providing an indication that the State directed
Thompson to obtain information, this evidence confirms that after Thompson made the disclosures, Rhodes contacted
a ‘handler’ at the Harris County Organized Crime Unit and was put in touch with an investigator from the District
Attorney’s Office to whom he provided the list.” Dkt. 66 at 63-64.
24

To that end, Thompson has also not shown that his previous attorneys provided ineffective
representation at any prior stage for not doing more to advance his federal claim.

30

Appendix Page no. 73

002768

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 31 of 62

engaged in a plot to hide Rhodes’s alleged role as a state agent. Concomitantly, Thompson has not
shown any new or previously undisclosed information about Rhodes’ relationship with the State that
would have excluded him from testifying or made any greater impact in the jury’s consideration of
his testimony than that known at trial. In sum, Thompson has not overcome the procedural bar of
his third federal claim and, alternatively, has not provided a reasonable basis to suspect that Rhodes
was a government agent or that the State did not divulge material details about his status. Thompson
has not shown that claim three merits federal relief.25
D.

Sufficiency of the Indictment
Thompson contends that the indictment against him was insufficient because it did not allege

any facts relating to the special-issue questions that the jury would answer. In Apprendi v. New
Jersey, 530 U.S. 466, 490 (2000), the Supreme Court held that “[o]ther than the fact of prior
conviction, any fact that increases the penalty for a crime beyond the prescribed statutory maximum
must be submitted to a jury, and proved beyond a reasonable doubt[.]” See also Ring v. Arizona, 536
U.S. 584, 609 (2002) (extending Apprendi to capital cases). Thompson argues that Texas’s capital
punishment system violates Apprendi because it does not require the indictment to notify him of
what evidence the State intends to introduce in seeking a death sentence.
The Court of Criminal Appeals summarily denied this claim on direct appeal by simply
stating: “This Court has repeatedly rejected the argument that Apprendi requires the State to allege
the special issues in the indictment.” Thompson, 2007 WL 3208755, at *3. Thompson has not
shown that the terse rejection of this claim was contrary to, or an unreasonable application of, federal

25

Thompson’s pending motion for an evidentiary hearing focuses on developing his claim relating to
Rhodes’s testimony. The Court finds that Thompson has not shown that factual development is necessary to a fair
development of this claim.

31

Appendix Page no. 74

002769

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 32 of 62

law. As an initial matter, defects in a state criminal indictment are of no moment on federal habeas
review. The Supreme Court has never held that the indictment provisions of the Fifth Amendment
apply to the States through the Fourteenth Amendment. See, e.g., Branzburg v. Haynes, 408 U.S.
665, 686-88 n.25 (1972) (noting that “indictment by grand jury is not part of the due process of law
guaranteed to state criminal defendants by the Fourteenth Amendment”); see also Apprendi, 530
U.S. at 477 n.3 (declining to discuss the implications of that decision on the sufficiency of an
indictment). The sufficiency of a state indictment is an appropriate concern on federal habeas corpus
only when it can be shown that the indictment is so defective that it deprives the convicting court
of jurisdiction. Williams v. Collins, 16 F.3d 626, 637 (5th Cir. 1994); McKay v. Collins, 12 F.3d 66,
68 (5th Cir. 1994).
State law dictates whether a state indictment is sufficient to confer a court with jurisdiction.
In addressing a separate issue, the Court of Criminal Appeals found that Texas state law “do[es] not
require the State to plead the punishment special issues in [the indictment in] a capital case.”
Thompson, 2007 WL 3208755, at *4. The Fifth Circuit has held that the district court is “required
to accord due deference to the state’s interpretation of its own law that a defect of substance in an
indictment does not deprive a state trial court of jurisdiction.” McKay, 12 F.3d at 69 (citations
omitted). Where, as here, the state court has been presented the question of the indictment’s
sufficiency on appeal and ruled that the indictment was not fundamentally defective, federal habeas
review is foreclosed. See Wood v. Quarterman, 503 F.3d 408, 412 (5th Cir. 2007).
Even if federal law placed any requirement on state criminal indictments, Thompson has not
shown that Apprendi requires that an indictment include facts relating to the special issues. The
Supreme Court has approached Apprendi from several different legal angles, but has never held that

32

Appendix Page no. 75

002770

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 33 of 62

the prosecution must plead punishment-phase factors in the indictment. See Apprendi, 530 U.S. at
477 n. 3 (refusing to address the indictment issue because the petitioner did not raise it); Ring, 536
U.S. at 597 n. 4 (noting that petitioner did not allege constitutional defects in the indictment); see
also United States v. Bourgeois, 423 F.3d 501, 507 (5th Cir. 2005) (noting that the Supreme Court
has yet to hold that aggravating factors must be charged in the indictment). The Fifth Circuit has
summarily denied a similar claim in at least one case. See Bigby v. Stephens, 595 F. App’x 350, 354
(5th Cir. 2014). For this court to rule otherwise would violate the non-retroactivity principle of
Teague v. Lane, 489 U.S. 288 (1989). See Harris, 81 F.3d at 541.26
For the reasons discussed above, the Court of Criminal Appeals’s denial of Thompson’s
claim of error in the indictment was not contrary to, or an unreasonable application of, federal law.
See 28 U.S.C. § 2254(d)(1).
E.

Victim-Impact Testimony
Thompson contends that the State adduced impermissible victim-impact evidence in

violation of his constitutional right to be free from cruel and unusual punishment. “To be clear, the
Eighth Amendment does not per se bar the introduction of victim impact evidence in capital cases.”
Roberts v. Thaler, 681 F.3d 597, 611 (5th Cir. 2012) (citing Payne v. Tennessee, 501 U.S. 808, 827
(1991)). Instead, the United States Supreme Court has held that, because “[a] State may legitimately
conclude that evidence about the victim and about the impact of the murder on the victim’s family
is relevant to the jury’s decision as to whether or not the death penalty should be imposed,” a State
26

At any rate, Texas places the constitutionally required finding of an aggravating factor in the
guilt/innocence phase where the jury finds a defendant guilty of a death-eligible offense. See Jurek v. Texas, 428 U.S.
262, 270-71 (1976) (approving Texas’s use of aggravating factors in the guilt/innocence phase to narrow the class of
death-eligible defendants); Woods v. Cockrell, 75 F.3d 1017, 1033-34 (5th Cir. 1996); James v. Collins, 987 F.2d 1116,
1119 (5th Cir. 1993). After a jury convicts a capital inmate, the maximum punishment available is death. The
punishment phase’s factual issues do not increase an inmate’s authorized punishment, making Apprendi inapplicable.
Allen v. Stephens, 805 F.3d 617, 628 (5th Cir. 2015).

33

Appendix Page no. 76

002771

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 34 of 62

may “choose[] to permit the admission of victim impact evidence and prosecutorial argument on that
subject . . . .” Payne, 501 U.S. at 827. Still, “an Eighth Amendment problem may result” if
“‘evidence is introduced that is so unduly prejudicial that it renders the trial fundamentally unfair . .
. .’” Janecka v. Cockrell, 301 F.3d 316, 328 (5th Cir. 2002) (quoting Payne, 501 U.S. at 825).
During the second punishment phase, Michael Gene Donaghy, Hayslip’s brother, testified
about her funeral. During that testimony, Thompson claims that the State “exceeded the scope of
permissible victim impact [testimony] when it sought detailed testimony on the number and types
of persons who appeared at the complainant Hayslip’s funeral.” Dkt. 57 at 12. Specifically,
Thompson objects to the following interchange:
The State:

How many people showed up [at the funeral]?

Donaghy:

Hundreds. There was a lot of people.

The State:

Did you even realize she had that many friends or that many
people who knew her?

Donaghy:

I knew my sister touched a lot of lives and everybody loved
her and she loved everybody. I didn’t know she knew that
many people.

The State:

Who showed up at the funeral? Social friends? Clients?
Mixture of both?

Trial Counsel:

I object to this. This goes beyond victim impact with this
testimony.

Trial Court:

That’s overruled.

Trial Counsel:

Gets to the area of victim character evidence and we object to
it.

Trial court:

Overruled. Go ahead.

34

Appendix Page no. 77

002772

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 35 of 62

RR2 Vol. 18 at 35. At that point, the prosecutor did not pursue any more testimony about who
attended Hayslip’s funeral.
On direct appeal, Thompson complained that the trial court erred in allowing Donaghy to
testify about both the number and the type of people who attended Hayslip’s funeral. The Court of
Criminal Appeals provided three justifications for denying Thompson’s claim. The Court finds that
each ground provides a reasonable basis to deny federal habeas relief.
First, the Court of Criminal Appeals held that Thompson failed to preserve error with regard
to testimony about number of people who attended Hayslip’s funeral. See Thompson, 2007 WL
3208755, at *6. Texas contemporaneous objection rule requires “a party to preserve an issue for
appellate review” by making “a timely objection with specific grounds for the desired ruling[.]”
Livingston v. Johnson, 107 F.3d 297, 311 (5th Cir. 1997). The Fifth Circuit “has consistently held
that the Texas’s contemporaneous objection rule constitutes an adequate and independent state
ground that procedurally bars federal habeas review of a petitioner’s claims.” Fisher v. Texas, 169
F.3d 295, 300 (5th Cir. 1999); see also Cotton v. Cockrell, 343 F.3d 746, 754 (5th Cir. 2003). The
state courts’s invocation of its procedural law on that portion of Thompson’s claim bars federal
review.
Second, the Court of Criminal Appeals found that Thompson failed to show error because
Donaghy never actually testified about the type of people who attended Hayslip’s funeral. The Court
of Criminal Appeals observed: “Although [Thompson] argues that the trial court erred in allowing
Donaghy ‘to testify to the . . . types of people who attended the . . . funeral,’ no testimony was
actually elicited. The question was asked, and the trial court overruled [Thompson’s] objection, but
the prosecutor never pursued an answer.” Thompson, 2007 WL 3208755, at *6. Even if the

35

Appendix Page no. 78

002773

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 36 of 62

prosecutor asked a question intended to elicit improper victim-impact testimony, the witnesses did
not answer it.
Finally, the Court of Criminal Appeals found that “assuming that the question was improper,”
Thompson “was not harmed by the unanswered question. The question by itself did not assume,
suggest, or interject any facts about who actually attended the service or leave the jury with a
particular impression about the types of persons who attended.” Thompson, 2007 WL 3208755, at
*6. Given the nature of the evidence against Thompson, inferences the jury may have taken from
the question would have had negligible, if any, impact on the jury’s consideration of Thompson’s
sentence. Even if the prosecution erred in asking for details about the victim’s funeral, Thompson
has not shown any prejudice resulting therefrom.
Thompson procedurally defaulted a portion of this claim in state court. Thompson has
otherwise not shown that the state court’s adjudication of the merits was contrary to, or an
unreasonable application of, federal law. See 28 U.S.C. § 2254(d)(1).
F.

Lethal Injection
Thompson claims that Texas’s lethal-injection procedure violates the Eighth Amendment.

In 1982, the State of Texas adopted lethal injection as its sole method of execution. Texas law does
not specify what substance will be used to effectuate its death sentences, but since 2012 Texas has
used pentobarbital. Thompson asserts that a constitutionally unacceptable risk attends Texas’s use
of pentobarbital. Respondent contends that Thompson’s complaints about lethal injection sound in
civil rights, not habeas, law. Alternatively, Respondent argues that Thompson has not shown that
the state habeas court’s rejection of his arguments about lethal injection were contrary to, or an
unreasonable application of, federal law.

36

Appendix Page no. 79

002774

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 37 of 62

In Hill v. McDonough, 547 U.S. 573 (2006), the Supreme Court confronted the question of
“whether a challenge to a method of execution must be brought by means of an application for a writ
of habeas corpus or a civil action under § 1983.” Glossip v. Gross, 135 S. Ct. 2726, 2738 (2015).
The Supreme Court “held that a method-of-execution claim must be brought under § 1983 because
such a claim does not attack the validity of the prisoner’s conviction or death sentence.” Glossip v.
Gross, 135 S. Ct. 2726, 2738 (2015). Based on Hill and Glossip, this ground for relief should be
dismissed without prejudice so that Thompson may raise it in a § 1983 action.27
The Court observes, however, that, even if an inmate could properly litigate a lethal-injection
challenge on habeas review, Thompson has not met his AEDPA burden to show an entitlement to
relief. The state habeas court found that the “Texas lethal injection procedure satisfies the
prohibition against cruel and unusual punishment.” State Habeas Record at 255. Federal law defers
to that factual determination, absent clear and convincing evidence to the contrary. See 28 U.S.C.
§ 2254(e)(1). Texas has performed numerous executions using pentobarbital as the only agent of
execution. Even while identifying hypothetical concerns about the use of pentobarbital, Thompson
has not pointed to any particularized defect in its use, administration, or efficacy. See Raby v.
Livingston, 600 F.3d 552, 560 (5th Cir. 2010) (concluding that the plaintiff “has failed to establish
that the Texas lethal injection protocol creates a demonstrated risk of severe pain” in Texas’s lethal
injection process). Thompson provides nothing but conjecture that Texas will change the execution
drug any time before his execution. “The reality is that pentobarbital, when used as the sole drug
in a single-drug protocol,” has not realized “a sure or very likely risk of pain.” Wood v. Collier, 836
27

Even in civil rights actions, however, the federal courts in this circuit have not viewed favorably attacks
on pentobarbital. For instance, the Fifth Circuit recently refused to enjoin an execution based on a lethal-injection
challenge and noted: “The reality is that pentobarbital, when used as the sole drug in a single-drug protocol, has realized
no . . . risk” that it “is sure or very likely to cause serious illness and needless suffering, and give rise to sufficiently
imminent dangers.” Wood v. Collier, 836 F.3d 534, 540 (5th Cir. 2016) (quotation omitted).

37

Appendix Page no. 80

002775

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 38 of 62

F.3d 534, 540 (5th Cir. 2016). Thompson’s speculative habeas claim falls far short of proving that
the state habeas court’s rejection of his lethal-injection claim was contrary to, or an unreasonable
application of, federal law. See 28 U.S.C. § 2254(d)(1). The Court would still deny habeas relief
even if lethal-injection claims were cognizable on habeas review.
G.

Texas Capital Habeas Procedure
Under Article 11.071 of the Texas Code of Criminal Procedure, a state habeas applicant must

file his or her state habeas application (1) within 180 days of appointment of state writ counsel or
(2) forty-five days after the State has filed its response on direct appeal, whichever is later. An
applicant may obtain a 90-day extension of the deadline upon a showing of good cause. TEX. CODE.
CRIM. PROC. ANN. art. 11.071 § 4(a),(b). Thompson “contends that [Texas’s capital-habeas statute]
is unconstitutional, on its face and as applied, because it distorts the historic purpose of a postconviction application for [a] writ of habeas corpus.” Dkt. 57 at 143. Thompson argues that the
short time for filing a habeas writ precludes development of the record and the ripening of issues,
including Strickland claims. With those defects, Thompson contends that Texas’s habeas statute
does not provide due process.
The state habeas court rejected Thompson’s arguments because “[t]he imposition of a time
limit for filing an initial application for writ of habeas corpus in capital cases is appropriate [and]
constitutional.” State Habeas Record at 220. To the extent some claims may not ripen by the time
for habeas filing, Texas allows successive habeas actions to proceed “provided [the inmate] meets
the statutory exceptions.” State Habeas Record at 220. The state habeas court concluded that Texas
habeas procedure met constitutional requirements. State Habeas Record at 220. Importantly,

38

Appendix Page no. 81

002776

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 39 of 62

Thompson failed to show that Texas’s habeas procedure “prevented him from advancing meritorious
habeas claims . . . .” State Habeas Record at 34.
The Supreme Court has held that state collateral proceedings are not constitutionally
required. Murray v. Giarrantano, 492 U.S. 1, 10 (1989); Pennsylvania v. Finley, 481 U.S. 551, 557
(1987). Because the federal constitution does not require state post-conviction remedies, defects in
a State’s chosen habeas process do not give rise to a federal constitutional claim. See Trevino v.
Johnson, 168 F.3d 173, 180 (5th Cir. 1999).28 The state habeas court’s rejection of this claim was
not contrary to, or an unreasonable application of, federal law. See 28 U.S.C. § 2254(d)(1).
H.

Constitutionality of Texas Statutory Law
As previously discussed, the defense in this case argued that medical error, not Thompson’s

action, was the primary cause of Hayslip’s death. With the defense’s argument that botched medical
care caused Hayslip’s death, the trial court instructed the jury as follows:
A person is criminally responsible if the result would not have occurred but for his
conduct, operating either alone or concurrently with another cause, unless the
concurrent cause was clearly sufficient to produce the result and the conduct of the
defendant clearly insufficient.
Therefore if you find from the evidence beyond a reasonable doubt that the death of
Glenda Dennise Hayslip would not have occurred but for the defendant’s conduct as
charged in the indictment operating either alone or concurrently with another cause
unless the concurrent cause was clearly sufficient to produce the result and the
conduct of the defendant clearly insufficient you will find the defendant criminally
responsible. Unless you so find beyond a reasonable doubt or if you have a
reasonable doubt thereof you will find the defendant not criminally responsible and
say by your verdict “Not Guilty of Capital Murder.”
...

28

Thompson has failed to establish that the statutory time limits have prevented him from investigating
any known avenues or would prevent him from asserting any potential claims that might be discovered in the future. In
fact, the state habeas court found that Thompson did “not specify or complain that the dual track habeas application
system forced him to neglect certain meritorious claims . . . .” State Habeas Record at 220.

39

Appendix Page no. 82

002777

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 40 of 62

The prosecution has the burden of proving the defendant guilty and it must do so by
proving each and every element of the offense charged beyond a reasonable doubt
and if it fails to do, so you much [sic.] acquit the defendant.
State Habeas Record at 221. The trial court’s instruction mirrored the Texas statutory language on
causation found in Texas Penal Code Section 6.04.29 Thompson argues that the Texas statute
violates Mullaney v. Wilbur, 421 U.S. 684 (1975) by shifting the burden of proof to the defense.
Mullaney was the first case the Supreme Court decided based on In re Winship, 397 U.S. 358
(1970), which “made clear what has long been accepted in our criminal justice system[:] . . . in a
criminal case the government must establish guilt beyond a reasonable doubt.” Jones v. United
States, 526 U.S. 227, 264 (1999). In Mullaney, the Supreme Court struck down a Maine law placing
the burden of proof on a defendant when he argued that a killing was in the heat of passion or due
to provocation. Cases have relied on Mullaney to hold “that a State must prove every ingredient of
an offense beyond a reasonable doubt, and that it may not shift the burden of proof to the defendant
by presuming that ingredient upon proof of the other elements of the offense.” Patterson v. New
York, 432 U.S. 197, 215 (1977). Thompson contends that the Texas statute, by asking whether the
conduct in the concurrent cause was “clearly insufficient” to “produce the result,” unconstitutionally
“creates an impermissible burden of proof for defendants.” Dkt. 57 at 149.
When Thompson raised this claim on state habeas review, the state habeas court found two
reasons to apply a procedural bar. First, Thompson’s claim ran afoul of Texas’s contemporaneousobjection rule because “counsel objected to the trial court’s charge on concurrent causation, but not
on the basis urged in the instant habeas application.” State Habeas Record at 222. Additionally,

29

Under Texas Penal Code Section 6.04, “[a] person is criminally responsible if the result would not have
occurred but for his conduct, operating either alone or concurrently with another cause, unless the concurrent cause was
clearly sufficient to produce the result and the conduct of the actor clearly insufficient.”

40

Appendix Page no. 83

002778

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 41 of 62

Thompson “fail[ed] to assert legal arguments or authorities to support his [state habeas] claim that
TEX. PENAL CODE 6.04 is unconstitutional . . . .” State Habeas Record at 222. Both Texas’s
contemporaneous-objection rule and a dismissal for inadequate briefing provide a sufficient basis
to bar federal review. See Roberts v. Thaler, 681 F.3d 597 (5th Cir. 2012); Corwin v. Johnson, 150
F.3d 467, 473 (5th Cir. 1998). Thompson has not shown cause or actual prejudice to overcome the
procedural bar to federal review.
Alternatively, the state habeas court found that Thompson’s “claims are meritless” because
TEX. PENAL CODE § 6.04(a) “does not create a burden of proof for defendants.” State Habeas Record
at 252. The trial court’s instructions properly directed the jury to consider concurrent causes as
provided by the statute. Unlike the Maine law in Mullaney, neither the Texas statute or the jury
instructions explicitly or implicitly placed a burden on the defense to prove that any concurrent cause
was sufficient to product the victims’ death. The instructions centered the jury’s duty on the
reasonable doubt standard, and focused their inquiry on whether Thompson’s own actions caused
the victim’s death, without requiring the defense to present evidence about a separate, concurrent
cause. Thompson has not pointed to any clearly established Supreme Court precedent extending
Mullaney to the circumstances presented by a statute such as TEX. PENAL CODE § 6.04(a).
Thompson, therefore, has not shown that the state court’s decision was contrary to, or an
unreasonable application of, federal law. See 28 U.S.C. § 2254(d)(1).
I.

Ineffective Assistance of Trial Counsel
On state habeas review, Thompson exhausted several complaints about trial counsel’s

representation in the guilt/innocence phase. Thompson now argues that trial counsel performed
deficiently by: (1) failing to conduct an effective voir dire; (2) failing to prevent the State from

41

Appendix Page no. 84

002779

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 42 of 62

presenting evidence of extraneous bad acts; (3) not objecting to the prosecution’s characterization
of one defense witness’s testimony; (4) not requesting a lesser-included-offense instruction relating
to Hayslip’s death; and (5) not objecting to the admission of the gun.
Strickland v. Washington, 466 U.S. 668, 686 (1984), provides the general conceptual
framework for judging an attorney’s representation. Under Strickland, a criminal defendant’s Sixth
Amendment rights are “denied when a defense attorney’s performance falls below an objective
standard of reasonableness and thereby prejudices the defense.” Yarborough v. Gentry, 540 U.S.
1, 3 (2003) (emphasis added); see also Rompilla v. Beard, 545 U.S. 374, 387 (2005); Wiggins v.
Smith, 539 U.S. 510, 520 (2003). To establish deficient performance, the petitioner must show that
“counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed . . . by
the Sixth Amendment.” Strickland, 466 U.S. at 687. A petitioner must also show actual prejudice,
meaning “there is a reasonable probability that, but for counsel’s unprofessional errors, the result of
the proceedings would have been different.” Strickland, 466 U.S. at 694; see also Wiggins, 539 U.S.
at 534.
“Surmounting Strickland’s high bar is never an easy task . . . .” Padilla v. Kentucky, 559 U.S.
356, 371 (2010). In federal habeas proceedings, the Strickland inquiry merges with AEDPA’s
forgiving standards into a “doubly deferential” review. Knowles v. Mirzayance, 556 U.S. 111, 123
(2009); see also Pinholster, 131 S. Ct. at 1403; Gentry, 540 U.S. at 5-6. In practice, this standard
gives wide latitude to state adjudications: “The question is whether there is any reasonable argument
that counsel satisfied Strickland’s deferential standard.” Richter, 562 U.S. at 105; see also Premo
v. Moore, 562 U.S. 115, 123 (2011) (quoting Richter).

42

Appendix Page no. 85

002780

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 43 of 62

1.

Voir Dire

Thompson generally criticizes his initial trial counsel’s handing of jury selection, claiming
that trial counsel engaged in superficial and too-brief questioning. Thompson, however, only makes
two specific complaints about trial counsel’s handling of voir dire. First, Thompson complains that
trial counsel did not adequately question jurors about Texas parole law and victim-impact testimony.
Second, Thompson claims that trial counsel should have used peremptory strikes on two prospective
jurors who served at his first trial. Neither argument warrants federal habeas relief.
Thompson’s challenge to trial counsel’s approach to questioning jurors only complains about
the voir dire before his first trial. The Court of Criminal Appeals reversed Thompson’s sentence,
allowing the state habeas court to conclude that “any alleged harm relating to [his initial] trial
counsel’s failure to voir dire on victim impact evidence is moot.” State Habeas Record at 235.
Thompson’s complaints about trial counsel’s questioning focus on punishment issues without
drawing a connection to why those potential jurors would have been partial on questions of guilt.
Thompson cannot show harm because the jurors affected by his initial counsel’s questioning did not
return the death sentence under which he is currently in custody.
The only portion of this claim presenting a judicable issue is that relating to trial counsel’s
failure to use peremptory strikes on two prospective jurors. The state habeas court engaged in a
detailed review of trial counsel’s questioning of the two challenged jurors. The state habeas court
rejected this claim for three reasons. First, trial counsel used strategic professional judgment in not
striking the two jurors. Second, the record suggested that the two jurors would be favorable to the
defense. Finally, the questioning of the two jurors “establishes that both jurors understood various

43

Appendix Page no. 86

002781

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 44 of 62

legal burdens and distinctions, could follow the law, consider the evidence, be fair to both parties,
and participate as jurors in the instant capital murder case . . . .” State Habeas Record at 239.
The state habeas court was not unreasonable in finding that trial counsel did not provide
deficient representation in this regard. Trial counsel made a strategic decision to accept the final two
jurors, which a reviewing court must uphold unless the decision was “so ill chosen that it permeates
the entire trial with obvious unfairness.” Teague v. Scott, 60 F.3d 1167, 1172 (5th Cir. 1995).
Perhaps Thompson has provided reasons for which an attorney may have used peremptory strikes
to remove the two final jurors. He has not, however, shown that those jurors were biased as a matter
of law or subject to strikes for cause. Thompson has not shown that the two challenged jurors were
so poorly chosen that it permeated his trial with unfairness. Thompson has not shown that the state
habeas court’s decision on this issue was contrary to, or an unreasonable application of, federal law.
2.

Evidence of Extraneous Bad Acts

Trial counsel filed a pre-trial motion in limine to preclude the prosecution from discussing
“prior convictions, extraneous offenses, and bad acts.” CR at 33. The trial court granted the motion.
During the guilt/innocence phase, Hayslip’s co-worker and roommate Lisa Gonzalez described the
tumultuous relationship between Hayslip and Thompson. Gonzalez testified that when Thompson
became angry he would break things, kick things, and punch holes in the wall. RR1 Vol. 11 at 19092. Trial counsel objected to Gonzalez’s testimony, and in a bench conference reminded the judge
of the motion in limine, but did not seek any ruling from the trial court. Thompson faults trial
counsel for not acting more zealously to exclude testimony about his anger outbursts.30

30

Trial counsel explained in an affidavit that: “[t]he defense had filed a motion in limine to prevent the
State from going into extraneous matters without the approval of the trial court judge, and the defense reminded the judge
of our motion once the State started questioning Gonzalez about those extraneous matters.” State Habeas Record at 171.

44

Appendix Page no. 87

002782

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 45 of 62

“In order to show that counsel was deficient for failing to object . . ., the objection must have
merit.” Ries v. Quarterman, 522 F.3d 517, 530 (5th Cir. 2008). “Admitting evidence of prior
convictions and other bad acts is generally prohibited in the guilt-innocence phase.” Robles v. State,
85 S.W.3d 211, 213 (Tex. Crim. App. 2002). Still, as the state habeas court observed, Texas law
“allows admission of evidence that shows (1) relevant facts and circumstances surrounding the
murder, (2) the previous relationship between the accused and the deceased, or (3) the condition of
the mind of the accused at the time of the offense.” State Habeas Record at 235; see also TEX. CODE
CRIM. PRO. art. 38.36(a). Presumably because Gonzalez’s testimony related to the “previous
relationship existing between the accused and the deceased” and to “facts and circumstances going
to show the condition of the mind of the accused at the time of the offense,” the state habeas court
concluded that “[t]rial counsel was not ineffective for failing to object and/or preserve error
regarding the State’s properly admitted evidence of the [Thompson’s] violent acts involving
complainant Hayslip at guilt-innocence.” State Habeas Record at 259.
The state habeas court found that the complained-of testimony was admissible under state
law. A federal habeas court does not sit in judgment of a state court’s interpretation of its own law.
With that state-law finding, Thompson has not shown that trial counsel failed to make a meritorious
objection. The state habeas court reasonably found that counsel did not provide deficient
performance with regard to the testimony about his anger outbursts.31 Thompson has not shown that
the state habeas court’s decision was contrary to, or an unreasonable application of, federal law
3.

Prosecutor’s Closing Argument

Thompson contends that trial counsel should have objected to prosecution’s closing

31

With the weighty evidence against Thompson, any minor prejudicial effect caused by Gonzalez’s
testimony would not amount to a reasonable probability of a different result.

45

Appendix Page no. 88

002783

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 46 of 62

arguments summarizing Dr. Radalat’s testimony as “finally admitt[ing] to you that the wounds
would be fatal if left untreated.” With that testimony, the prosecution said: “You got causation. The
defendant is guilty.” RR1 Vol. 13 at 30-31. Thompson claims that the prosecution’s argument
“mischaracterized” Dr. Radalat’s testimony because he “did not quite go so far as to concede that
the shooting did cause death.” Dkt. 57 at 169-70. The state habeas court, however, found that “the
State’s complained of argument at guilt-innocence was proper as a summary of the evidence and/or
a reasonable deduction of evidence elicited at trial.” State Habeas Record at 237.32
Courts traditionally give defense attorneys broad discretion in choosing whether to object
during closing arguments. See, e.g., Hernandez v. Thaler, 463 F. App’x. 349, 356 (5th Cir. 2012);
Charles v. Thaler, 629 F.3d 494, 502 (5th Cir. 2011). Here, the prosecutor’s statements were within
the range of proper closing argument and a fair interpretation of the defense witness’s testimony.
Dr. Radalat told jurors that “[t]he intermediate long term conditions without any medical
intervention . . . [o]ver the long term . . . would probably be fatal.” RR1 Vol. 12 at 255-56. In
addition, Dr. Radalat replied “no” when asked on cross-examination if the doctors’ actions caused
Hayslip’s death. RR1 Vol. 12 at 256. A reasonable trial attorney could decide not to highlight the
prosecution’s fair interpretation of Dr. Radalat’s testimony by objecting. The state habeas court was
not unreasonable in finding that trial counsel did not provide deficient representation at closing
argument.33

32

Under Texas law, proper closing argument may discuss: (1) summary of the evidence; (2) reasonable
deductions from the evidence; (3) response to opposing counsel’s argument; and (4) pleas for law enforcement. See
Jackson v. State, 17 S.W.3d 664, 673 (Tex. Crim. App. 2000).
33

Further, the state habeas court found that Thompson “was not prejudiced by the complained-of
arguments; the arguments were not extreme, manifestly improper, violative of a mandatory statute, and did not inject new
facts harmful to [Thmpson] into the trial proceedings.” State Habeas Record at 237. Given the additional evidence
against Thompson, he has not shown any actual prejudice because trial counsel did not lodge an objection to the

(continued...)
46

Appendix Page no. 89

002784

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 47 of 62

4.

Lesser-Included-Offense Instructions

On trial counsel’s request, RR1 Vol. 13 at 39, the trial court instructed jurors that, if they
found Thompson had committed the murder of Cain, but was only guilty of some crime other than
capital murder against Hayslip, they should find Thompson only guilty of the lesser-included offense
of murder. Thompson argues that trial counsel should have requested two additional lesser-includedoffense instructions. First, Thompson argues that the defense’s theory blaming Hayslip’s death on
botched medical care would have allowed jurors to convict him only of aggravated assault. Second,
Thompson contends that he did not intentionally shoot Hayslip, allowing for an instruction on felony
murder.
Texas law entitles a defendant to a lesser-included-offense instruction when: (1) the lesserincluded offense is included within the proof necessary to establish the offense charged, and (2) there
is some evidence showing that if the defendant is guilty, he is guilty only of the lesser offense.
Rousseau v. State, 855 S.W.2d 666, 672-673 (Tex. Crim. App. 1993). Respondent does not dispute
that aggravated assault and felony murder are lesser-included offenses of capital murder.
Respondent, however, argues that the evidence did not only allow for Thompson’s conviction of
lesser offenses.34

33

(...continued)

comments.
34

To that end, the state habeas court found that Thompson’s “criminal conduct towards complainant
Hayslip was committed intentionally and knowingly. Evidence did not exist in the record that [Thompson’s] shooting
of Hayslip was an accident; that [Thompson] intended only one victim; or that [Thompson] knew with a reasonable
certainty that only one person would die.” State Habeas Record at 224. The state habeas court also found that “[t]he
evidence presented at trial did not support the submission of the lesser-included offense instructions urged in the instant
habeas application; accordingly, [Thompson] was not prejudiced by counsel’s failure to request such instructions at trial.”
State Habeas Record at 243.

47

Appendix Page no. 90

002785

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 48 of 62

Here, trial counsel gave the jury the options to render a non-capital verdict. Trial counsel’s
closing argument urged jurors to find that Thompson did not intend to harm Hayslip, requiring them
to return a lesser verdict of simple murder. RR1 Vol. 13 at 36. Trial counsel tried to form a defense
for an acquittal based on the medical-malpractice theory, CR at 171, and asked jurors to convict
Thompson only on a lesser offense based on that same theory, RR1 Vol. 13 at 48-49. Thompson
may wish that trial counsel had requested additional instructions, but trial counsel explained on
habeas review: “I did everything possible to rebut the State’s theory of causation and persuade the
jury to adopt the defense’s theory of the case. Consistent with the defensive theory an instruction
on concurrent causation and the lesser-included offense of murder were included in the
guilt/innocence charge.” State Habeas Record at 171. Thompson may wish that trial counsel had
made different tactical decisions, but under Strickland jurisprudence decisions such as those made
by counsel are “virtually unchallengeable.” Strickland, 466 U.S. at 690-91. Thompson has also not
shown that jurors would be more likely to forgo a capital conviction had the trial court given
instructions different from those provided by trial counsel. Thompson may argue that counsel should
have made different choices, but he has not shown that counsel should have made better ones. Trial
counsel gave the jury two vehicles to return a non-capital conviction; Thompson has not shown that
trial counsel provided constitutionally deficient, prejudicial representation by not doing more.
5.

Admission of the Murder Weapon

Thompson makes a conclusory argument that trial counsel should have objected to the
admission of the murder weapon. Thompson does not elaborate, but his argument presupposes that
trial counsel should have argued that the police only found the weapon because they had violated his
constitutional rights by sending Johnson to interview him. Thompson did not raise this claim on

48

Appendix Page no. 91

002786

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 49 of 62

direct appeal or in any of his state habeas applications. Because the state courts would not authorize
him to file a successive application raising this argument, and he has not shown cause or prejudice
to allow federal review, it is procedurally barred from federal habeas review.
Alternatively, the Court has already discussed at length the tenuous connection between the
Johnson conversation and the recovery of the gun. Thompson had already provided the police a map
of where he discarded the weapon. The trial testimony did not show that the Johnson conversation
provided the police with previously unknown information necessary to recover the gun. Thompson
has not shown that the murder weapon was inadmissible, and thus has not shown that trial counsel
provided ineffective representation.
J.

Denial of a Continuance
Thompson argues that the trial court violated his rights by denying his requests to postpone

trial. Specifically, Thompson complains that the trial court’s denial of additional time for trial
preparation deprived him of due process under the Fourteenth Amendment and precluded effective
legal representation under the Sixth Amendment.
The Constitution guarantees inmates “a meaningful opportunity to present a complete
defense.” Crane v. Kentucky, 476 U.S. 683, 690 (1986) (citations omitted). Still, not every denial
of a continuance violates the Constitution:
The matter of continuance is traditionally within the discretion of the trial judge, and
it is not every denial of a request for more time that violates due process even if the
party fails to offer evidence or is compelled to defend without counsel. Contrariwise,
a myopic insistence upon expeditiousness in the face of a justifiable request for delay
can render the right to defend with counsel an empty formality. There are no
mechanical tests for deciding when a denial of a continuance is so arbitrary as to
violate due process. The answer must be found in the circumstances present in every
case, particularly in the reasons presented to the trial judge at the time the request is
denied.

49

Appendix Page no. 92

002787

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 50 of 62

Ungar v. Sarafite, 376 U.S. 575, 589 (1964) (citations omitted). “When a denial of a continuance
forms a basis of a petition for a writ of habeas corpus, not only must there have been an abuse of
discretion but it must have been so arbitrary and fundamentally unfair that it violates constitutional
principles of due process.” Skillern v. Estelle, 720 F.2d 839, 850 (5th Cir. 1983) (quotation omitted).
Also, “the failure to grant a continuance [must have] harmed the defense.” Newton v. Dretke, 371
F.3d 250, 255 (5th Cir. 2004).
Determining whether the trial court abused its discretion in refusing to continue Thompson’s
trial requires a detailed review of the trial court proceedings. When the Court of Criminal Appeals
remanded this case for a new punishment hearing, the trial court appointed Thompson’s original trial
attorney, Ellis McCullough, to represent him at retrial. On January 21, 2005, the trial court
appointed Terrence Gaiser as second-chair counsel. Six months later, Thompson filed a pro se
motion to dismiss McCullough arguing that he was not qualified to represent capital defendants
under Texas’s Fair Defense Act. The trial court delayed ruling on the motion, but on September 15,
2005, removed McCullough from representing Thompson. The trial court elevated Gaiser to first
chair and appointed Kyle Johnson as second-chair counsel.
Gaiser had not been inactive during the pendency of Thompson’s substitution motion.
Throughout August and September 2005, Gaiser filed motions on Thompson’s behalf. Gaiser’s
filings included motions for the appointment of a mitigation specialist, an investigator, and various
experts, including a psychologist. The trial court promptly granted the defense’s motions. Gaiser
secured investigative assistance.
The trial court set October 24, 2005, as the first day for trial testimony. On September 29,
2005, the day before jury selection was set to begin, Thompson’s attorneys filed a motion for

50

Appendix Page no. 93

002788

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 51 of 62

continuance. Trial counsel asked for an additional ninety days because the attorneys had a limited
time to prepare and to investigate mitigating theories after their appointment. In a hearing, trial
counsel provided additional background on the motion for a continuance: “Gaiser stated that he was
recently elevated to first chair, and Johnson was recently appointed to [Thompson’s] case as second
chair counsel and had a limited time to prepare for trial; Gaiser stated that he and Johnson lost time
in their offices due to the threat of a hurricane . . . .” State Habeas Record at 241. The prosecution,
however, provided reasons to deny a continuance: “prosecutor Vic Wisner stated that counsel Gaiser
had been the de facto lead counsel on the case since his appointment, that Wisner had worked with
Gaiser on discovery over the last two months, that Wisner had met with Gaiser and his expert, and,
that the State’s file had been available to Gaiser and his experts ‘at length.’” State Habeas Record
at 241. The trial court denied a continuance.
The next week the defense filed a notice listing two potential experts for defense testimony.
On October 25, 2005, the defense filed a second motion for a continuance. This time, the defense
specifically said it needed additional time to investigate the State’s proposed witness Robin Rhodes.
The trial court denied the second motion for a continuance. CR2 at 209-14.
On state habeas review, Thompson argued that the trial court’s denial of a continuance
violated federal and state law. Thompson argued that additional time would have allowed the
defense to (1) develop mitigating themes, particularly relating to an expert’s testimony about past
substance abuse and possible brain damage and (2) engage in additional investigation of witness
Rhodes for impeachment.35 The state habeas court found that the trial court did not abuse its

35

As he does on federal review, Thompson observed in state court that the development of a mitigation
case requires six steps:

(continued...)
51

Appendix Page no. 94

002789

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 52 of 62

discretion in denying a continuance on those two arguments.
Thompson wanted more time to prepare his punishment phase expert neuropsychologist, Dr
Daneen Milam. Dr. Milam testified that Thompson suffered from “mild and diffused” brain damage,
but was able to function. Dr. Milam based her conclusion on Thompson’s results from an IQ test
and the Halstead-Reitan Battery. A sharp cross-examination centered on the lack of physical testing
to verify Dr. Milam’s conclusions. Thompson argued that additional time would have allowed trial
counsel to bolster Dr. Milam’s conclusions. In particular, Thompson argues that trial counsel should
have sought out the psychologist who developed the Halstead-Reitan Battery to shore up Dr.
Milam’s interpretation of Thompson’s results.
The state habeas court found that Thompson had not shown prejudice relating to Dr. Milam’s
testimony. The state habeas court specially found that Thompson’s claim that he suffered prejudice
from the denial of a continuance was “purely speculative.” State Habeas Record at 242. The state
habeas court observed that “trial counsel investigated the potential benefit of presenting other
experts” who could provide information about Thompson’s mental health. State Habeas Record at

35

(...continued)

(1)

Hiring a mitigation specialist to guide the research;

(2)

Gathering of background information;

(3)

Determination, based on that information, of what type of expert could be helpful to the
defense;

(4)

Expert evaluations, reported back to counsel;

(5)

Attempts to negotiate a life sentence; and

(6)

Strategic decisions as to what defensive theories and what witnesses to use.

Dkt. 57 at 199-200. Thompson conceded that “[s]teps one, two, and three had been undertaken by Gaiser while he was
second-chair counsel,” but argues that his trial attorneys did not have time to complete “work still needed to be done on
steps four, five, and six . . . .” Dkt. 57 at 200.

52

Appendix Page no. 95

002790

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 53 of 62

243. The state habeas court found that Dr. Milam had provided trial counsel documentary evidence
relating to her testing. Also, Dr. Milam testified “concerning the futility of obtaining a MRI or CAT
scan to support her diagnosis of the [his] alleged brain damage,” thus discounting the benefit of any
physical confirmation of Dr. Milam’s testimony. State Habeas Record at 243.
The state habeas court also found no prejudice in the lack of additional time to investigate
State’s witness Rhodes. The state habeas court found that Thompson “concede[d] that counsel did
not do a bad job impeaching Rhodes . . . .” State Habeas Record at 244.36 Importantly, the state
habeas court observed that Thompson had “not allege[d] the specific information that could have
been garnered had trial counsel obtained additional time to prepare for Rhodes cross-examination.”
State Habeas Record at 244. Without some indication of how the denial of additional time
prejudiced the defense, Thompson’s claims were “purely speculative.” State Habeas Record at 244.
Under AEDPA jurisprudence, Thompson must show that the state habeas court unreasonably
found that the trial court did not abuse its discretion and that he had not shown prejudice. Thompson
has not shown constitutional error in the state court’s decision not to provide more time before trial.
The Supreme Court has noted that trial judges enjoy “a great deal of latitude in scheduling trials and
“only an unreasoning and arbitrary insistence upon expeditiousness in the face of a justifiable

36

Specifically, the state habeas court found:

Trial counsel effectively cross-examined Rhodes impeaching his credibility eliciting testimony
regarding his work as an informant for law enforcement and suggesting that Rhodes testimony in the
instant trial was a product of Rhodes desire to help himself. Trial counsel elicited testimony that
Rhodes had a prior conviction for aggravated robbery that he neglected to mention during his direct
examination that Rhodes had done a lot of work for law enforcement and received pay for that work
that Rhodes was not looking for a way to gain favor with law enforcement authorities when he was in
jail with the applicant but Rhodes would not overlook it if it was dumped in his lap that Rhodes was
a full-time informant for the Harris County Organized Crime Task force in 1998 and 1999 and testified
in two trials and that Rhodes was paid for his participation in the Benavidez trial even though the
record from that trial reflected that Rhodes denied receiving payment.
State Habeas Record at 244.

53

Appendix Page no. 96

002791

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 54 of 62

request for delay” poses constitutional concern. Morris v. Slappy, 461 U.S. 1, 11-12 (1983)
(quotation omitted). Gaiser represented Thompson ten months before the punishment hearing began.
Even though he initially served as second-chair counsel, Gaiser represented Thompson until
eventually appointed first chair. In fact, Gaiser told the trial court that he had been “the de facto first
chair” for some time. RR1 2 Vol. 2 at 7-8. Thompson’s trial attorneys approached the defense of
his punishment retrial with a preview of what evidence the State would present and the viability of
defensive theories. Despite his arguments to the trial court about needing additional time, the record
shows that investigators and experts had been assembled and were working toward a mitigation
defense. Given those circumstances, the state habeas court was not unreasonable in finding that the
trial court had not abused its discretion.
Additionally, Thompson has not shown that the denial prejudiced him. As in state court,
Thompson does not prove that his trial attorneys were unprepared or demonstrate what evidence
remained unpresented. Instead, Thompson speculates that additional witnesses or additional
evidence may have influenced jurors, but provides no specificity about what trial counsel should
have put forth. Without a concrete understanding of how additional time would have amplified or
altered the mitigation defense, the state habeas court was reasonable in finding his allegations of
prejudice to be speculative. Thompson has not shown that the state habeas court’s rejection of this
claim was contrary to, or an unreasonable application of, federal law. See 28 U.S.C. § 2254(d)(1).
K.

Testimony about Youthful Misconduct
Thompson contends that the State violated his Eighth Amendment rights by presenting

evidence of his youthful misconduct. As described by the Court of Criminal Appeals, the State

54

Appendix Page no. 97

002792

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 55 of 62

presented evidence during the punishment stage of trial of crimes and bad acts Thompson committed
as a minor:
. . . [Thompson] began committing crimes as a juvenile. In 1984, while living with
his parents in an upper-middle-class neighborhood in Colorado, [Thompson]
committed a string of crimes that resulted in over $60,000 of damage to homes and
property. While on probation from the youth center, [Thompson] stole his father’s
motorcycle, ran away, and committed a variety of crimes. He was arrested again in
1987 and sentenced to a juvenile facility. [Thompson] had problems with drugs and
alcohol from an early age.
Thompson, 2007 WL 3208755 at 3.
Thompson, however, did not object to the use of youthful-misconduct testimony at trial. The
state habeas court found that the lack of a contemporaneous objection defaulted judicial
consideration of the instant claim. State Habeas Record at 256. Thompson has not shown cause or
prejudice to overcome the procedural bar of that claim, thus precluding federal review.
Alternatively, the state habeas court found that “the admission of punishment evidence of the
[Thompson’s] youthful misconduct did not violate [his] constitutional rights.” State Habeas Record
at 256. Thompson has not pointed to any Supreme Court case preventing the State from relying on
youthful misconduct when arguing for a death sentence. Thompson instead asks for an extension
of other cases in which the Supreme Court has recognized special protections for juvenile offenders.
Thompson relies on the prohibition on executing juvenile offenders, Roper v. Simmons, 543 U.S. 551
(2005); Thompson v. Oklahoma, 487 U.S. 815 (1988), and the exclusion of juveniles from mandatory
life sentences, Miller v. Alabama, 132 S. Ct. 2455 (2012); Graham v. Florida, 560 U.S. 48 (2010),
to emphasize the lessened moral blameworthiness of juvenile offenders. Because “the juvenile
crimes used against Thompson in his sentencing, essentially crimes of criminal mischief, show both

55

Appendix Page no. 98

002793

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 56 of 62

a lack of maturity and a strong correlation to peer pressure,” Thompson contends that the
Constitution should bar their use in determining his sentence. Dkt. 57 at 218.
The Supreme Court has recognized that important constitutional principles protect juvenile
offenders. Here, although the State presented evidence of bad acts Thompson committed when he
was under the age of eighteen, he was tried and convicted for an offense he committed as an adult.
The Fifth Circuit has held that Supreme Court precedent “does not clearly establish that [a juvenile]
offense may not be used to elevate murder to capital murder.” Taylor v. Thaler, 397 F. App’x 104,
108 (5th Cir. 2010). Extending the constitutional protections in the manner proposed by Thompson
would require the creation of new constitutional law in violation of Teague’s non-retroactivity
principles. For those reasons, Thompson has not shown that he merits federal habeas relief on this
claim.
L.

Mitigation Special Issue
Thompson raises two claims challenging the manner in which Texas structures a jury’s

consideration of mitigating evidence. In his twelfth claim, Thompson argues that the Constitution
requires that jurors consider the mitigation special issue under a beyond-a-reasonable-doubt standard.
Thompson’s thirteenth claim argues that Texas’s mitigation special issue unconstitutionally sends
mixed signals to jurors. Settled precedent forecloses relief on both claims.
Citing Apprendi v. New Jersey, 530 U.S. 466 (2000), and Ring v. Arizona, 536 U.S. 584
(2002), Thompson’s twelfth claim argues the Texas capital sentencing scheme violates constitutional
protections by not requiring the State to prove the absence of sufficient mitigating evidence beyond
a reasonable doubt. The Fifth Circuit has repeatedly rejected the argument that the prosecution bears
a burden to disprove the existence of mitigating factors beyond a reasonable doubt. See Blue v.

56

Appendix Page no. 99

002794

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 57 of 62

Thaler, 665 F.3d 647, 668 (5th Cir. 2011); Druery v. Thaler, 647 F.3d 535, 546-47 (5th Cir. 2011);
Adams v. Thaler, 421 F. App’x 322, 334 (5th Cir. 2011); Granados v. Quarterman, 455 F.3d 529,
536-37 (5th Cir. 2006); Rowell v. Dretke, 398 F.3d 370, 378 (5th Cir. 2005).37 Because “[n]o
Supreme Court or Circuit precedent constitutionally requires that Texas’s mitigation special issue
be assigned a burden of proof,” granting relief on a capital petitioner’s Apprendi claim would require
the creation of new constitutional law in violation of Teague v. Lane, 489 U.S. 288 (1989).
Thompson’s thirteenth claim argues that the Texas death penalty scheme violates the Eighth
Amendment in light of the Supreme Court’s decision in Penry v. Johnson, 532 U.S. 782 (2001),
because the mitigation special issue sends “mixed signals” to the jury. In Penry, the Supreme Court
struck down a judicially crafted jury instruction because it was perplexing and, in effect, required
the jury to answer the special issues dishonestly in order to give effect to the defendant’s mitigating
evidence. Thompson clams that current mitigation special issue sends mixed signals because it is
unclear about the burden of proof. The state habeas court relied on Texas precedent and denied
relief. State Habeas Record at 247-48.38
Here, the mitigation instruction that the trial court delivered did not contain the defect
identified in Penry. In fact, the Supreme Court has described the current mitigation special issue as
“[a] clearly drafted catchall instruction on mitigating evidence” whose “brevity and clarity . . .
highlight[ed] the confusing nature of the supplemental instruction” they had previously condemned.
Penry, 532 U.S. at 803. Given that endorsement, the Fifth Circuit has found no merit to similar
37

Thompson argues that a recent Supreme Court case, Hurst v. Florida, 126 S. Ct. 616, 622 (2016),
would compel a different result. The Fifth Circuit, however, has held that Hurst does not change its precedent. See
Davila v. Davis, 650 F. App’x 860, 873 (5th Cir. 2016).
38

The state habeas court also found that Thompson had defaulted federal consideration of this claim by
failing to raise it on direct appeal. State Habeas Record at 257. In addition to the fact that well-settled precedent
undercuts the merits of this claim, the state habeas court’s procedural ruling forecloses relief.

57

Appendix Page no. 100

002795

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 58 of 62

claims raised by other inmates. See Foster v. Thaler, 369 F. App’x 598, 606 (5th Cir. 2010); Manns
v. Quarterman, 236 F. App’x 908, 911-12 (5th Cir. 2007); Oliver v. Quarterman, 254 F. App’x 381,
385-86 (5th Cir. 2007). The Texas court’s rejection of this claim was not contrary to, or an
unreasonable application of, federal law. See 28 U.S.C. § 2254(d)(1).
M.

The Autopsy
Thompson complains that the State violated his due process rights, his right to confront

witnesses against him, and right to counsel though its use of the autopsy results in this case. At the
guilt/innocence phase, the State presented evidence about Hayslip’s cause of death based on an
autopsy performed by Dr. Paul Shrode. Dr. Shrode reported that Hayslip’s cause of death was a
“gunshot wound to the face.” Dr. Shrode, however, did not testify at trial. The State admitted the
autopsy report into evidence during the testimony of Dr. Shrode’s colleague Dr. Patricia Moore. Dr.
Moore had performed the autopsy on Cain and testified about the cause of death for both victims.
Dr. Moore’s testimony reiterated Dr. Shrode’s finding that the cause of Hayslip’s death was a
gunshot wound to the face.
Thompson raises three separate claims based on Dr. Shrode performing the autopsy and the
related testimony. Thompson contends that: (1) the State violated Brady by failing to disclose that
Dr. Shrode lacked adequate qualifications; (2) trial counsel should have objected to the admission
of Dr. Moore’s testimony about the autopsy report on Sixth Amendment Confrontation Clause
grounds; and (3) the State violated the Due Process Clause by knowingly admitting a false autopsy
report. Dkt. 57 at 236-43. Thompson, however, raised these arguments in his third state habeas
application that the Court of Criminal Appeals found to be an abuse of the writ. This claim is
procedurally barred from federal review unless Thompson can show cause and actual prejudice.

58

Appendix Page no. 101

002796

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 59 of 62

Thompson contends that the Court can reach the merits of this claim because the State
suppressed evidence of Dr. Shrode’s qualifications and the true cause of Hayslip’s death. Also,
Thompson contends that he can show ineffective representation by habeas counsel for failing to raise
the issues. This Court’s review of the records and the pleadings shows that Thompson cannot
overcome the procedural bar.
As an initial matter, Thompson contends that “Shrode was incompetent and unqualified to
perform the work he was tasked with, and for failing to disclose that his autopsy was factually
incorrect and misleading.” Dkt. 57 at 240. Thompson bases his arguments on disciplinary actions
and allegations of falsehoods on Dr. Shrode’s curriculum vitae that came to light well after the trial
in this case. Thompson has not pointed to any contemporaneous evidence that any member of the
prosecutorial team knew of the alleged problems with Dr. Shrode’s work. Additionally, Thompson’s
allegations of incompetency may serve to allow the impeachment of Dr. Shrode’s work, but he has
not shown demonstrable errors in Hayslip’s autopsy. Thompson has provided the opinion of another
expert, Dr. Lloyd White, who would have reached a different conclusion about Hayslip’s death. In
doing so, however, Thompson only casts a defensive theory from trial in a different light. Trial
counsel attempted to convince the jury that intervening medical care caused Hayslip’s death. The
fact that other medical professionals may disagree with Dr. Shrode’s conclusions does not mean that
the prosecution knowingly suppressed information about Hayslip’s death.
Also, Thompson faults trial counsel for not raising a Confrontation Clause objection because
Dr. Moore, rather than Dr. Shrode who performed the autopsy, testified about the cause of Hayslip’s
death. After Thompson’s trial, the Supreme Court decided Crawford v. Washington, 541 U.S. 36
(2004), which held that admission of testimonial statements against a criminal defendant violates

59

Appendix Page no. 102

002797

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 60 of 62

the Confrontation Clause unless the witness is unavailable and was subject to a prior
cross-examination. At the time of Thompson’s trial, however, Texas courts held that autopsy reports
were not testimonial, and thus not subject to a Confrontation Clause challenge. Since Crawford
courts have been split on its application to autopsy reports, and some Texas courts have held autopsy
reports are testimonial, see Martinez v. Davis, 653 F. App’x 308, 320 n.5 (5th Cir. 2016) (reviewing
relevant law), but the law at the time of trial and of Thompson’s first two habeas proceedings did
not support a Confrontation Clause challenge to the autopsy report.
Accordingly, Thompson has not shown cause to overcome the procedural bar of his claims
under either Brady or Martinez. For those same reasons, and in consideration of the Court’s review
of the record and the parties’ briefing, the Court would find his claims without merit if fully available
for federal review. The Court denies Thompson’s final ground for relief.
IV. CERTIFICATE OF APPPEALABILTIY
Under AEDPA, a prisoner cannot seek appellate review from a lower court’s judgment
without receiving a Certificate of Appealability (“COA”). See 28 U.S.C. § 2253(c). Thompson has
not yet requested that this Court grant him a COA, though this Court can consider the issue sua
sponte. See Alexander, 211 F.3d at 898. “The COA statute establishes procedural rules and requires
a threshold inquiry into whether the circuit court may entertain an appeal.” Slack v. McDaniel, 529
U.S. 473, 482 (2000). A court may only issue a COA when “the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
The Fifth Circuit holds that the severity of an inmate’s punishment, even a sentence of death,
“does not, in and of itself, require the issuance of a COA.” Clark v. Johnson, 202 F.3d 760, 764 (5th
Cir. 2000). The Fifth Circuit, however, anticipates that a court will resolve any questions about a

60

Appendix Page no. 103

002798

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 61 of 62

COA in the death-row inmate’s favor. See Hernandez v. Johnson, 213 F.3d 243, 248 (5th Cir. 2000).
The Supreme Court has explained the standard for evaluating the propriety of granting a COA on
claims rejected on their merits as follows: “Where a district court has rejected the constitutional
claims on the merits, the showing required to satisfy §2253(c) is straightforward: The petitioner must
demonstrate that reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong.” Slack, 529 U.S. at 484; Miller-El, 537 U.S. at 336-38. On the other
hand, a district court that has denied habeas relief on procedural grounds should issue a COA “when
the prisoner shows, at least, that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling. Slack, 529 U.S. at 484; Miller-El, 537
U.S. at 336-38. Unless the prisoner meets the COA standard, “no appeal would be warranted.”
Slack, 529 U.S. at 484.
Thompson’s petition raises several issues worthy of judicial review. Nevertheless, having
considered the merits of Thompson’s petition, and in light of AEDPA’s standards and controlling
precedent, this Court determines that a COA should not issue on any of Thompson’s claims.

61

Appendix Page no. 104

002799

Case 4:13-cv-01900 Document 70 Filed in TXSD on 03/23/17 Page 62 of 62

V. CONCLUSION
For the reasons described above, the Court finds that Thompson has not shown an entitlement
to federal habeas relief. The Court DISMISSES Thompson’s challenge to Texas’s lethal-injection
protocol WITHOUT PREJUDICE. The Court otherwise DENIES Thompson’s petition and
DISMISSES the remainder of Thompson’s claims WITH PREJUDICE. The Court also DENIES
Thompson’s motion for an evidentiary hearing. Dkt. 56. The Court will not issue a Certificate of
Appealability.
The Clerk will provide copies of this Order to the parties.
Signed at Houston, Texas, on March 23, 2017.

Gray H. Miller
United States District Judge

62

Appendix Page no. 105

002800

Appendix D

Appendix Page no. 106

Thompson v. State, 93 S.W.3d 16 (2001)

93 S.W.3d 16
Court of Criminal Appeals of Texas.

Charles Victor THOMPSON, Appellant,
v.
The STATE of Texas.
No. 73431.
|
Oct. 24, 2001.
|
Rehearing Granted in Part and Denied in Part Dec. 19, 2001.
Synopsis
Defendant was convicted, after a jury trial in 262nd District Court, Harris County, Doug Shaver, J., of capital murder, and
was sentenced to death. Defendant appealed. The Court of Criminal Appeals, Meyers, J., held that: (1) evidence was legally
and factually sufficient to establish causation, even assuming that the alleged negligence of doctors who performed surgery on
victim could have killed the victim; (2) admission of tape recording of defendant's jailhouse conversation with undercover police
officer regarding defendant's solicitation of murder of potential witness, to show future dangerousness at punishment phase of
the capital murder trial, violated defendant's right to counsel; and (3) the error in admitting the tape recording was not harmless.
Conviction affirmed; sentence vacated, and case remanded.
Keller, P.J., filed a dissenting opinion in which Keasler, Hervey, and Cochran, JJ., joined.

West Headnotes (15)
[1]

Homicide

Cause of death

Even assuming that the alleged negligence of doctors who performed surgery on victim was sufficient to have caused
victim's death, evidence that defendant's gunshot to victim's face went through victim's cheek and nearly severed her
tongue, and that victim probably would have died without medical attention, established causation, in prosecution for
capital murder. V.T.C.A., Penal Code §§ 6.04(a), 19.03(a).
1 Cases that cite this headnote
[2]

Criminal Law

Construction of Evidence

Criminal Law

Reasonable doubt

In reviewing the legal sufficiency of the evidence, the appellate court looks at all of the evidence in the light most
favorable to the verdict to determine whether any rational trier of fact could have found the essential elements of the
offense beyond a reasonable doubt.
2 Cases that cite this headnote
[3]

Criminal Law

Appendix Page no. 107

Construction in favor of government, state, or prosecution

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Thompson v. State, 93 S.W.3d 16 (2001)

Criminal Law

Verdict unsupported by evidence or contrary to evidence

In a factual sufficiency review, the appellate court views all the evidence without the prism of “in the light most
favorable to the prosecution” and sets aside the verdict only if it is so contrary to the overwhelming weight of the
evidence as to be clearly wrong and unjust.

[4]

Criminal Law

Sufficiency of Evidence

In conducting a factual sufficiency review, the appellate court begins with the presumption that the evidence is legally
sufficient.
2 Cases that cite this headnote
[5]

Criminal Law

Weight and sufficiency

The appellate court, when conducting a factual sufficiency review, considers all of the evidence in the record,
comparing the evidence which tends to prove the existence of the elemental fact in dispute to the evidence which
tends to disprove it.
1 Cases that cite this headnote
[6]

Criminal Law

Weight of Evidence in General

The appellate court is authorized to disagree with the jury's determination when conducting a factual sufficiency
review, even if probative evidence exists which supports the verdict, but must avoid substituting its judgment for that
of the fact-finder.
3 Cases that cite this headnote
[7]

Criminal Law

Conclusiveness of Verdict

A clearly wrong and unjust verdict occurs, for purposes of factual sufficiency review, where the jury's finding is
manifestly unjust, shocks the conscience, or clearly demonstrates bias.
2 Cases that cite this headnote
[8]

Criminal Law

Critical stages

Criminal Law

Adversary or judicial proceedings

The Sixth Amendment guarantees a criminal defendant the assistance of counsel at the initiation of adversary
proceedings against him, and at any subsequent “critical stage” of the proceedings against him. U.S.C.A.
Const.Amend. 6.
4 Cases that cite this headnote
[9]

Criminal Law

Inquiry, interrogation, or conversation; request for attorney while in custody

While the Sixth Amendment is not violated when the government, by luck or happenstance, obtains incriminating
evidence after the right to counsel has attached, it is violated by knowing exploitation of an opportunity to confront
the accused without counsel. U.S.C.A. Const.Amend. 6.
1 Cases that cite this headnote

Appendix Page no. 108

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Thompson v. State, 93 S.W.3d 16 (2001)

[10]

Criminal Law

Other offenses

The Sixth Amendment does not require the assistance of counsel as to interrogations in the course of an investigation
concerning then-uncharged criminal conduct, even though other charges are pending as to which the right has attached.
U.S.C.A. Const.Amend. 6.

[11]

Criminal Law

Other offenses

Incriminating statements pertaining to pending charges are inadmissible at the trial of those charges, not withstanding
the fact that the police were also investigating other uncharged crimes, if, in obtaining this evidence, the State
violated the Sixth Amendment by knowingly circumventing the accused's right to the assistance of counsel. U.S.C.A.
Const.Amend. 6.
2 Cases that cite this headnote
[12]

Criminal Law

Reinitiating Interrogation

If the right to counsel has attached as to a charged offense, and the police interrogate the defendant in the absence of
his counsel about matters that the police knew or should have known might elicit incriminating evidence pertaining
to the pending charges, the Sixth Amendment right to counsel has been violated and such evidence is inadmissible
at the trial of those charges. U.S.C.A. Const.Amend. 6.
6 Cases that cite this headnote
[13]

Criminal Law

Other offenses

If the right to counsel has attached as to a charged offense, and the police elicit incriminating evidence pertaining
to criminal conduct that is not yet the subject of a formal charge, the Sixth Amendment right to counsel has not yet
attached as to that then-uncharged offense, and therefore any such evidence is admissible against the defendant at the
trial on the then-uncharged offense. U.S.C.A. Const.Amend. 6.
3 Cases that cite this headnote
[14]

Criminal Law

Informants; inmates

Sentencing and Punishment

Declarations and confessions

State's use of undercover officer, as its agent, to elicit information from defendant, while defendant was in jail pending
his trial for capital murder, about defendant's solicitation for the murder of potential witness against him at his pending
trial, violated defendant's right to counsel, though no charge for solicitation of murder had been pending, and thus, a
tape recording of officer's conversation with defendant could not be presented to jury to show future dangerousness,
at punishment phase of capital murder trial. U.S.C.A. Const.Amend. 6.
4 Cases that cite this headnote
[15]

Sentencing and Punishment

Harmless and reversible error

Trial court's error in allowing State to use, to show future dangerousness at punishment phase of capital murder trial,
tape recording of undercover officer's jailhouse conversation with defendant, conducted in violation of defendant's
right to counsel, in which defendant gave officer directions for finding gun that another person, solicited by defendant,
could use to murder a potential witness in the pending capital murder trial, was not harmless; tape recording

Appendix Page no. 109

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Thompson v. State, 93 S.W.3d 16 (2001)

corroborated jailhouse informant's testimony that defendant had solicited the murder of the witness and demonstrated
defendant's efforts to see the solicited murder was carried out. U.S.C.A. Const.Amend. 6.
4 Cases that cite this headnote

Attorneys and Law Firms
*18 Floyd W. Freed, III, Spring, for Appellant.
Alan Curry, Asst. DA, Houston, Matthew Paul, State's Atty., Austin, for State.

OPINION
MEYERS, J., delivered the opinion of the Court, joined by PRICE, WOMACK, JOHNSON and HOLCOMB.
Appellant was convicted of capital murder in April 1999. Tex. Penal Code Ann. § 19.03(a). Pursuant to the jury's answers to the
special issues set forth in Texas Code of Criminal Procedure article 37.071 §§ 2(b) and 2(e), the trial court sentenced appellant
to death. Tex.Code Crim. Proc. art. 37.071 § 2(g). Direct appeal to this Court is automatic. Tex.Code Crim. Proc. art. 37.071 §
2(h). Appellant raises seven points of error, including challenges to the sufficiency of the evidence to support the jury's verdict.
The sufficiency points will be addressed first followed by the remainder of the points in the order in which they are raised.
Around June of 1997, appellant began dating Dennise Hayslip and subsequently moved into the home she shared with her son,
her co-worker Lisa Gonzalez, and Gonzalez' two daughters. While living there, appellant grew increasingly jealous, possessive,
and angry. During fits of anger, appellant would throw things, kick the refrigerator, and punch or kick the walls, often leaving
holes in them. Appellant rarely worked, relying on Hayslip and Gonzalez to pay the bills. Appellant became irate when Gonzalez
asked him to contribute.
On one occasion, Gonzalez heard appellant screaming at Hayslip and calling her names and saw him shaking her. When
Gonzalez tried to stop appellant from hurting Hayslip, appellant grabbed Gonzalez and threw her to the ground. Gonzalez
thereafter attempted to call the police, but the telephone went dead. She later discovered that the telephone cord had been ripped
out of the wall. Appellant eventually moved out and Hayslip moved into her own apartment.
On March 16, 1998, Gonzalez accompanied Hayslip and appellant to a local pub. Appellant became sullen and angry during
the evening and told Hayslip he wanted *19 her to sit with him and not dance with anyone else. When Gonzalez saw Hayslip
three days later, one side of her face was bruised, her lip was split, and there were bruises on her neck.
At some point in time, Hayslip met Darren Cain at a local bar where he worked as a bartender and they became friends. On the
evening of April 29, 1998, Cain called his best friend, Tony Alfano, and asked him to meet him at the bar to watch the Rockets
game, but Alfano declined. At 2:30 the next morning, Cain again called Alfano and told him that appellant had threatened him
over the telephone. Cain told Alfano that appellant was beating up or “messing with” Hayslip and he was going over to her
apartment to help her.
Kathryn Page, one of Hayslip's neighbors, woke up around 3:00 a.m. on the morning of April 30th to the sound of her dog barking
and someone screaming. She heard loud voices, including a female voice saying, “stop,” and “help.” Page called the police and
walked outside to check Hayslip's apartment number. She saw Hayslip and Cain standing outside, but neither appeared to be
hurt or wounded in any way. However, Hayslip was agitated and apologizing to Cain “for all of this.” Appellant then walked

Appendix Page no. 110

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Thompson v. State, 93 S.W.3d 16 (2001)

out of Hayslip's apartment yelling, cussing, and calling Hayslip a “whore.” Page noticed at that time that appellant had a black
eye. Cain told appellant to “chill,” and appellant responded, “[D]o you want to die, mother fucker?”
Responding to the disturbance call, Deputy William Coker saw Cain, Hayslip, and appellant standing outside and all appeared
to be calm. Coker saw that appellant's face was swollen from being in a fight, but learned that appellant had started the fight.
Because no one wanted to file charges, Coker told appellant to leave the complex and followed him as he exited the property.
Coker warned appellant that he would be committing criminal trespass if he returned.
About 6:00 a.m. that same morning, Page's son heard gunshots as he was leaving for school. Shortly thereafter, Page heard
someone beating on her door. When she walked outside, Page saw Hayslip sitting on the ground bleeding from the mouth and
gasping for breath. Hayslip made a sign with her hands like someone shooting a gun.
When Coker arrived back at the apartments, he found Hayslip sitting in a pool of blood with a bullet hole in her right cheek
and a great amount of blood draining from her mouth. Coker asked her if appellant had shot her and she nodded. Coker found
Cain's dead body in Hayslip's apartment.
Hayslip was taken by Life Flight to Hermann Hospital. While Hayslip was awaiting surgery, her brother asked her, “[D]id
Chuck do this?” Hayslip nodded emphatically in response.
In the meantime, appellant went to Diane Zernia's home. Zernia was getting her daughter ready for school, so appellant waited
for her in the living room; however, he soon fell asleep. After her daughter left for school, Zernia watched the news while
appellant slept. As she watched, she saw a story about the shooting. When appellant woke up a couple of hours later, Zernia
joked about his black eye stating, “I hope the other guy looks worse.” Appellant replied, “He does. I shot him.” Appellant told
Zernia that he had been beaten up in a fight so he left the apartments where it happened to get a gun. Upon his return, he kicked
in the apartment door and shot Cain four times. Appellant told Zernia that he shot Hayslip also. Zernia testified that appellant
said he told Hayslip, “I can shoot you too, *20 bitch,” and then he put the gun to her cheek and pulled the trigger. Appellant
told Zernia that he threw the gun in a creek after leaving the scene.
Appellant asked Zernia if he could call his father, and his father came and picked him up from Zernia's home. Appellant's father
took appellant to the police station where he turned himself in for the shooting. Appellant later called Zernia from jail in an
apparent attempt to influence her to change her testimony about why he returned to the apartments.
During surgery, doctors were unable to secure an airway and Hayslip fell into a coma. A few days later, her family was told
she was brain dead and they agreed to remove life support systems. Hayslip continued to live for four more days, ultimately
dying a week after she was shot. The medical examiner testified that, according to the doctor who performed Hayslip's autopsy,
the cause of death was a gunshot wound to the face.
A deputy with the Harris County Sheriff's Office testified that the murder weapon was eventually recovered with the help of an
informant. The firearms examiner testified that, after evaluating the weapon and the evidence found at the scene of the shooting,
the weapon must have been reloaded during the incident. Appellant was charged with committing capital murder by murdering
more than one person during the same criminal transaction. See Tex. Penal Code Ann. § 19.03(a)(7)(A).
[1] In his first point of error appellant claims the evidence is legally insufficient to support his conviction on the ground that
intervening medical care was the actual cause of Hayslip's death. Appellant argues her death “was the sole result of her loss
of oxygen to the brain which caused her family to terminate her life one week after she was shot” and that “[t]his event was
produced by the physicians inability to properly provide competent medical assistance.”

Appendix Page no. 111

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Thompson v. State, 93 S.W.3d 16 (2001)

[2] In reviewing the legal sufficiency of the evidence, this Court looks at all of the evidence in the light most favorable to the
verdict to determine whether any rational trier of fact could have found the essential elements of the offense beyond a reasonable
doubt. Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979).
Texas Penal Code § 6.04(a), Causation: Conduct and Results, provides
A person is criminally responsible if the result would not have occurred but for his conduct, operating either alone or
concurrently with another cause, unless the concurrent cause was clearly sufficient to produce the result and the conduct
of the actor clearly insufficient.
(emphasis added); see also McFarland v. State, 928 S.W.2d 482, 516 (Tex.Crim.App.1996), cert. denied, 519 U.S. 1119, 117
S.Ct. 966, 136 L.Ed.2d 851 (1997); Felder v. State, 848 S.W.2d 85, 90 n. 1 (Tex.Crim.App.1992), cert. denied, 510 U.S. 829,
114 S.Ct. 95, 126 L.Ed.2d 62 (1993).
The shot to Hayslip's face went through her cheek and nearly severed her tongue. According to the State's medical evidence,
because the tongue is especially “well vascularized” (contains more blood per gram of tissue than other parts of the body),
Hayslip was at risk of bleeding to death or of bleeding down into her lungs which also could have resulted in death similar to
drowning. The doctor in charge of Hayslip's care further testified that, without any medical attention, the swelling of Hayslip's
tongue could have eventually obstructed her airway entirely, resulting in suffocation. He stated that without medical intervention,
Hayslip would not have survived her injuries. Appellant's medical expert agreed that the injury to Hayslip's tongue was life
threatening and also *21 agreed that Hayslip “probably” would have died without medical intervention. Thus, viewing the
evidence in the light most favorable to the verdict, even assuming, arguendo, that the conduct of the doctors was clearly sufficient
to cause Hayslip's death, the conduct of appellant was not “clearly insufficient” so as to absolve him of criminal responsibility
under § 6.04. Appellant's first point of error is overruled.
In his second point of error, appellant claims the evidence is factually insufficient to support the verdict. See Jones v. State, 944
S.W.2d 642, 647 (Tex.Crim.App.1996), cert. denied, 522 U.S. 832, 118 S.Ct. 100, 139 L.Ed.2d 54 (1997). Appellant continues
to argue here that Hayslip would have lived, notwithstanding the wound she received, but for the negligent medical care she
received at the hospital.
[3] [4] [5] [6] [7] In a factual sufficiency review, this Court views all the evidence without the prism of “in the light most
favorable to the prosecution” and sets aside the verdict only if it is “so contrary to the overwhelming weight of the evidence
as to be clearly wrong and unjust.” Johnson v. State, 23 S.W.3d 1 (Tex.Crim.App.2000); Clewis v. State, 922 S.W.2d 126, 129
(Tex.Crim.App.1996). In conducting such a review, we begin with the presumption that the evidence is legally sufficient under
Jackson, supra. Next, we consider all of the evidence in the record, comparing the evidence which tends to prove the existence of
the elemental fact in dispute to the evidence which tends to disprove it. Santellan v. State, 939 S.W.2d 155 (Tex.Crim.App.1997);
Jones, 944 S.W.2d at 647. We are authorized to disagree with the jury's determination even if probative evidence exists which
supports the verdict, but must avoid substituting our judgment for that of the fact-finder. Santellan, 939 S.W.2d at 164; Jones,
supra. A clearly wrong and unjust verdict occurs where the jury's finding is “manifestly unjust,” “shocks the conscience,” or
“clearly demonstrates bias.” Jones, supra; Santellan, supra.
In addition to the evidence discussed in connection with point of error one above, a physician testified for appellant that
Hayslip's wound was survivable, if properly treated. Appellant points out that the treating physician testified that he and the
other physician who attended Hayslip were to be subject to a civil lawsuit for Hayslip's death. On the other hand, even appellant's
own expert agreed that Hayslip had sustained a life-threatening injury and would have died if she had not received medical
care. Furthermore, no evidence was presented that any of the actions taken in attempting to save Haylsip's life were clearly
sufficient to kill her.
In light of the medical testimony presented by the State, we cannot say that the verdict was so contrary to the overwhelming
weight of the evidence as to be clearly wrong and unjust. We hold the evidence was factually sufficient. See Santellan, supra;
Clewis, 922 S.W.2d at 129. Point of error two is overruled.
Appendix Page no. 112

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Thompson v. State, 93 S.W.3d 16 (2001)

In his third point of error, appellant claims the trial court erred in denying his requested charge “on the law of intervening medical
care as a cause of death.” Appellant relies solely on Lerma v. State, 150 Tex.Crim. 360, 200 S.W.2d 635, 637 (1947)(opinion
on reh'g). In Lerma, we held that when proof is presented showing that a victim's death was brought about by gross neglect or
improper treatment on the part of a physician, an instruction to the jury that the defendant is not guilty of homicide is required.
But the instruction required in Lerma rested entirely on a statute no longer in existence. The statute at issue in Lerma, then
Texas Penal Code article 1202, provided:
*22 The destruction of life must be complete by such act, agency, procurement or omission; but although the injury which
caused death might not under other circumstances have proved fatal, yet if such injury be the cause of death, without its
appearing that there has been any gross neglect or manifestly improper treatment of the person injured, it is homicide.
Lerma v. State, 150 Tex.Crim. 360, 200 S.W.2d 635, 637 (1947)(provision quoted). Appellant cites no comparable provision
today under which such instruction should be given.
The controlling statute today, as discussed above, is Penal Code § 6.04(a), governing concurrent causation. Appellant received
an instruction essentially tracking the language of § 6.04(a)1 and he does not otherwise complain of the instruction given.
Appellant was not entitled to an instruction of the sort called for in Lerma, supra. Point of error three is overruled.
1

The jury instruction provided in part that:
A person is criminally responsible if the result would not have occurred but for his conduct, operating either alone or concurrently
with another cause, unless the concurrent cause was clearly sufficient to produce the result and the conduct of the defendant
clearly insufficient.
Therefore if you find from the evidence beyond a reasonable doubt that the death of Glenda Dennise Hayslip would not have
occurred but for the defendant's conduct, as charged in the indictment, operating either alone or concurrently with another cause,
unless the concurrent cause was clearly sufficient to produce the result and the conduct of the defendant clearly insufficient, you
will find the defendant criminally responsible. Unless you so find beyond a reasonable doubt or if you have a reasonable doubt
thereof you will find the defendant not criminally responsible and say by your verdict “Not Guilty of Capital Murder.”

In his fourth point of error, appellant claims the State conducted an interview with him while he was in custody pending charges
in the instant case, by utilizing an undercover officer without notifying his counsel or warning him of his rights, and then used
statements he made during that interrogation about his plans to commit another crime, against him at the punishment phase of
the instant capital murder trial. Appellant says those statements were erroneously admitted in violation of his Sixth Amendment
right to counsel.
The pertinent facts follow. Deputy Max Cox of the Harris County Sheriff's Department testified at punishment that he was
approached by an inmate, Jack Reid, who told him that appellant was attempting to solicit the murder of Diane Zernia, who
was slated to be a witness in his capital murder case. Reid shared a cell with appellant. Reid told Cox that appellant had already
arranged for the murder by another inmate, Max Humphrey, who had also shared a cell with appellant and had recently been
discharged, but was looking for someone to retrieve a gun and give it to Humphrey in order for him to carry out the murder.2
Cox told Reid that if he was approached by appellant again, he should tell him that he knew someone who could retrieve the gun
for him. Reid called Cox the next day and indicated that he had complied with Cox's instructions. Cox then arranged for Gary
Johnson, an investigator with the Harris County District Attorney's Office, to meet with appellant in an undercover capacity
to discuss the retrieval of the weapon and record their conversation. Johnson was to assume the identity of Reid's friend, who
had supposedly been contacted by Reid about retrieval of the gun. Cox further testified that he *23 gave Johnson a map that
presumably identified where the gun could be located.3 Johnson testified that he had been contacted by Cox and had agreed to
assume an undercover identity for the purpose of meeting with appellant to discuss retrieving a weapon to be used in a murder
that had possibly already been arranged. Johnson testified that he was wired for recording throughout their meeting. He further
testified that appellant brought a hand-drawn map to the meeting, similar to the one Cox had given him, and held it up to the
glass for him to see. At that point during Johnson's testimony, the State offered the tape into evidence.

Appendix Page no. 113

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Thompson v. State, 93 S.W.3d 16 (2001)

2
3

The gun appellant wanted retrieved was later discovered to be the murder weapon used in the instant case.
Cox testified that he received the map from the officer who did the initial interview (presumably of the informant). However, it is
not clear where this officer obtained the map.

Appellant was given permission to question Johnson on voir dire. Johnson admitted to having been aware that appellant was
represented by counsel on the capital murder charge at the time of their meeting. He conceded that had not notified counsel of
their meeting, had not informed appellant that he was an officer of the State, and had not given appellant any warnings. See
Tex.Code Crim. Proc. art. 38.22; Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966). Appellant objected
and sought suppression of the tape on the ground that he had been denied counsel during the meeting with Johnson. The trial
court overruled the objection and admitted the tape into evidence. The tape was played for the jury.
During their tape-recorded meeting appellant and Johnson briefly discussed retrieval of the gun. Then, appellant told Johnson
that there was a witness in his case that he wanted “taken care of.” Appellant stated that he had already paid Humphrey to kill
the witness, but Humphrey had not gone through with the job. Appellant gave Johnson the witness' address, and described the
witness as a mother with a fourteen year old daughter and a husband. He described her car, and informed him that she was usually
home in the mornings after her daughter went to school. He described her house as Victorian and her mailbox as black and white
spotted, like a cow. Appellant promised that when he got out of jail, he would pay Johnson $1,500 for killing the witness. After
the tape was played for the jury, Johnson testified further, without objection, that appellant had brought the map with him to the
meeting, and that it had an address written on it. Johnson stated that appellant had held it up to the glass for Johnson to read.
[8] The Sixth Amendment guarantees a criminal defendant the assistance of counsel at the initiation of adversary proceedings
against him, and at any subsequent “critical stage” of the proceedings against him. Estelle v. Smith, 451 U.S. 454, 469–70, 101
S.Ct. 1866, 68 L.Ed.2d 359 (1981). Thus, in Estelle, where the defendant had been indicted and counsel appointed at the time
he was subjected to a competency examination by a court-ordered psychiatrist, his Sixth Amendment rights were violated by
the introduction of the psychiatrist's diagnosis against him at the penalty stage on the issue of future dangerousness. Id. at 470–
71, 101 S.Ct. 1866. The right to counsel had attached at the time of the interview and “the interview proved to be a ‘critical
stage’ of the aggregate proceedings” against the defendant. Id. at 470, 101 S.Ct. 1866.
[9]

[10]

[11]

But the right to counsel is “offense specific.” See Maine v. Moulton, 474 U.S. 159, 106 S.Ct. 477, 88 L.Ed.2d

4

481 (1985). That is, the Sixth Amendment *24 does not require the assistance of counsel as to interrogations in the course of
an investigation concerning then-uncharged criminal conduct, even though other charges are pending as to which the right has
attached. However, such investigations might encroach on the defendant's rights concerning the pending charges. The Supreme
Court has recognized the competing interests at stake in such situation:
4

In Maine v. Moulton, the defendant and a co-defendant were indicted with four counts of theft by receiving stolen vehicles and
automotive parts. While out on bail, the co-defendant told police that the defendant had suggested to him that they kill a State's
witness in the case. Id. at 162, 106 S.Ct. 477. The co-defendant ultimately agreed to wear a body wire to a meeting with the defendant
where the two planned to discuss their defensive strategy in the upcoming trial. Id. at 165, 106 S.Ct. 477. Although the idea of
eliminating witnesses was briefly mentioned at the beginning of the meeting, the defendant made many incriminating statements about
his participation in the charged offenses. Id. at 165–66, 106 S.Ct. 477. Portions of the tape implicating the defendant in the charged
offenses were admitted at trial, and the defendant was convicted. The defendant appealed on the ground that the tape's admission
violated his Sixth Amendment right to counsel. The state court of appeals reversed the trial court, holding that the State could not
use the recordings where the State knew or should have known that the defendant would make incriminating statements as to charges
that were pending. Id. at 168, 106 S.Ct. 477.
The United States Supreme Court upheld the state appeals court. Discussing the scope of the Sixth Amendment right to counsel, the
Court stated that the State has “an affirmative obligation not to act in a manner that circumvents and thereby dilutes the protection
afforded by the right to counsel.” Id. at 171, 106 S.Ct. 477. The Court explained that while the Sixth Amendment is not violated
when the government, “by luck or happenstance,” obtains incriminating evidence after the right to counsel has attached, but it is
violated by “knowing exploitation ... of an opportunity to confront the accused without counsel.” Id. at 176, 106 S.Ct. 477. The
Court rejected the State's argument that because there was a legitimate reason for listening to the conversation—investigating a
Appendix Page no. 114

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Thompson v. State, 93 S.W.3d 16 (2001)
plot to kill a State's witness—the incriminating statements regarding the already-charged crime should therefore not be suppressed.
Id. at 178, 106 S.Ct. 477. Because the police knew (or should have known), from previous conversations between the defendant
and co-defendant, that their meeting was in part for the purpose of discussing the pending charges and their defense strategy, the
defendant's Sixth Amendment rights were violated.

The police have an interest in the thorough investigation of crimes for which formal charges have already been filed. They
also have an interest in investigating new or additional crimes. Investigations of either type of crime may require surveillance
of individuals already under indictment. Moreover, law enforcement officials investigating an individual suspected of
committing one crime and formally charged with having committed another crime obviously seek to discover evidence
useful at a trial of either crime. In seeking evidence pertaining to pending charges, however, the Government's investigative
powers are limited by the Sixth Amendment rights of the accused. To allow the admission of evidence obtained from the
accused in violation of his Sixth Amendment rights whenever the police assert an alternative, legitimate reason for their
surveillance invites abuse by law enforcement personnel in the form of fabricated investigations and risks the evisceration
of the Sixth Amendment right recognized in Massiah. On the other hand, to exclude evidence pertaining to charges as to
which the Sixth Amendment right to counsel had not attached at the time the evidence was obtained, simply because other
charges were pending at that time, would unnecessarily frustrate the public's interest in the investigation of criminal activities.
Consequently, incriminating *25 statements pertaining to pending charges are inadmissible at the trial of those charges, not
withstanding the fact that the police were also investigating other crimes, if, in obtaining this evidence, the State violated the
Sixth Amendment by knowingly circumventing the accused's right to the assistance of counsel.
Id. at 179–80, 106 S.Ct. 477.5
5

These principles were reaffirmed in Texas v. Cobb, 532 U.S. 162, 121 S.Ct. 1335, 149 L.Ed.2d 321 (2001). On direct appeal in our
own Court, we had held that “once the right to counsel attaches to the offense charged, it also attaches to any other offense that is very
closely related factually to the offense charged.” Cobb v. State, 93 S.W.3d 1, 6 (Tex.Crim.App.2000). Emphasizing, as in Moulton,
that “[t]he Sixth Amendment right [to counsel] ... is offense specific,” Cobb, 121 S.Ct. at 1340 (quoting McNeil v. Wisconsin, 501
U.S. 171, 111 S.Ct. 2204, 115 L.Ed.2d 158 (1991)), the Supreme Court rejected the notion that there is an exception to this principle
for uncharged offenses that are “factually related” to a charged offense. Id. at 1343. The Court further held that when the Sixth
Amendment right to counsel attaches, it encompasses offenses that, even if not formally charged, are considered the same offense as
the charged offense, under Blockburger v. United States, 284 U.S. 299, 52 S.Ct. 180, 76 L.Ed. 306 (1932).

[12] [13] Thus, if the right to counsel has attached as to a charged offense, and the police interrogate the defendant in the
absence of his counsel about matters that the police knew or should have known might elicit incriminating evidence pertaining
to the pending charges, the Sixth Amendment right to counsel has been violated and such evidence is “inadmissible at the trial
of those charges.” But if, during that same interrogation, the police elicit incriminating evidence pertaining to criminal conduct
that is not yet the subject of a formal charge, the Sixth Amendment right to counsel has not yet attached as to that offense, and
therefore any such evidence is admissible against the defendant at the trial on the then-uncharged offense.
[14] At the time of the interrogation in the instant case, appellant had been charged with capital murder but had not been
charged with solicitation for murder. There is no question that evidence obtained in connection with questioning appellant about
the solicitation offense would be admissible at the trial for that offense because his Sixth Amendment right to counsel had not
yet attached as to that offense. And there is no question that evidence obtained in the course of such questioning, incriminating
appellant as to his guilt for the capital murder, would be inadmissible in his capital murder trial. The question here is whether
evidence obtained about the solicitation offense is admissible against appellant on the question of future dangerousness at the
punishment phase of his capital murder trial, as to which appellant's Sixth Amendment rights had attached.
This issue was recently addressed by this Court.6 *26 Wesbrook v. State, 29 S.W.3d 103 (Tex.Crim.App.2000)(plurality
opinion), cert. denied, 532 U.S. 944, 121 S.Ct. 1407, 149 L.Ed.2d 349 (2001). In Wesbrook, the trial court overruled a motion
to suppress evidence that the defendant argued had been obtained in violation of his Sixth Amendment right to counsel. The
complained-of evidence allegedly established an attempt by the defendant to solicit the murder of various individuals, including
witnesses at the defendant's trial. Wesbrook, 29 S.W.3d at 116. Facts developed at a hearing on the matter showed that an
informant, a fellow inmate at the Harris County Jail, became acquainted with the defendant about three months prior to the
Appendix Page no. 115

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Thompson v. State, 93 S.W.3d 16 (2001)

defendant's trial. During numerous conversations, the defendant expressed a desire to hire someone to kill two individuals (the
defendant's ex-wife and her husband). The informant contacted law enforcement. In exchange for a favorable recommendation
by the State during the prosecution of his own pending charges, the informant arranged a meeting between the defendant and
undercover investigator Gary Johnson, who was to pose as a hit man. Johnson tape-recorded the conversation he had with
the defendant concerning the murder solicitations. In the recorded conversation, the defendant expressed his desire to have
murdered the two individuals he had mentioned to the informant, plus five others, four of which were to be, or already had
been, witnesses in his capital murder trial. Johnson admitted at trial that he had assumed the evidence would be used against
the defendant at his capital murder trial. Id. at 116–17.
6

At least two state courts have addressed this issue and held such evidence inadmissible at the punishment phase of the trial on in
sentencing a defendant on the charges that were pending at the time of the interrogation of the uncharged offenses. People v. Kidd,
129 Ill.2d 432, 136 Ill.Dec. 18, 544 N.E.2d 704, 712–13 (1989)(defendant's right to counsel as to pending charges could not be
circumvented even when investigating uncharged conduct if uncharged conduct was to be used against defendant at death penalty
hearing in trial of charged offense); Jackson v. State, 643 A.2d 1360 (Del.1994)(incriminating statements obtained during investigation
of uncharged conduct could be used at trial for charges arising from uncharged conduct, but could not be used against defendant
at punishment phase of trial on charges that were pending at time of interrogation if “in obtaining this evidence, the State violated
the Sixth Amendment by knowingly circumventing the accused's right to counsel”). But see United States v. Kidd, 12 F.3d 30 (4th
Cir.1993)(holding that because evidence related to new criminal activity and not pending charges, it was admissible for consideration
under sentencing guidelines at sentencing hearing portion of trial on pending charges).

At the conclusion of the hearing, the trial court determined that no Sixth Amendment violation had taken place because the
right to counsel had not attached to the solicitation offense. Therefore, the court concluded that the evidence was admissible
and denied the defendant's motion to suppress. Seven judges on this Court disagreed, holding that a Sixth Amendment violation
had occurred.7 The three-judge lead opinion explained:
7

The lead opinion, authored by Judge Mansfield, and joined by Judges Keasler and Meyers, held there was a Sixth Amendment
violation. Although Judge Meyers concurred in another point of error, he otherwise joined the lead opinion. A separate concurring
opinion authored by Judge Womack, and joined by Judges Price, Holland and Johnson, agreed there was a Sixth Amendment violation,
but parted ways with the lead opinion on the issue of harm arising from the violation. Wesbrook, 29 S.W.3d at 127–28 (Womack., J.,
concurring). The concurring judges found “it impossible to say beyond a reasonable doubt that the testimony [that should have been
suppressed] did not influence the sentencing jury.” Id. at 128. Presiding Judge McCormick and Judge Keller would have held there
was no Sixth Amendment violation. Id. at 123–27 (Keller, J., concurring, joined by McCormick, P.J.).

“By intentionally creating a situation likely to induce appellant to make incriminating statements without the assistance of
counsel, the State violated appellant's Sixth Amendment right to counsel. [The informant] was not housed with appellant
to act as a passive ‘listening post.’ He was sent in with instructions to exploit the existing relationship he had forged with
appellant in order to ‘deliberately elicit’ incriminating information regarding the solicitation of murder. This information was
then to be used at appellant's capital murder trial to help satisfy the State's burden of establishing that appellant *27 posed a
continuing threat to society. Just as a psychiatrist, acting as a state agent, cannot elicit information that would be used to help
demonstrate future dangerousness without counsel being notified first, so too, a jail house informant, acting at the behest of
the State, cannot elicit information to be used at any stage of trial concerning charges in which the Sixth Amendment right
to counsel had already attached and counsel had not been notified.”
Id. at 118 (citations omitted).
No developments in the law since Wesbrook would change or affect the holding of the seven-judge majority there.8 We turn
again to the instant case. As in Wesbrook, the State elicited information from appellant regarding the solicitation of the murder
of a person who was to be a witness against appellant. The information was elicited by an agent of the State, without notifying
appellant's counsel, and was then used at appellant's capital murder trial to help the State establish that appellant posed a
continuing threat to society. The State knew the capital murder charges were pending against appellant at the time, and that any
evidence incriminating appellant in another offense would probably be used against him in the capital punishment phase. We
hold appellant's Sixth Amendment right to counsel was violated by the State's actions in soliciting the tape recorded conversation
Appendix Page no. 116

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Thompson v. State, 93 S.W.3d 16 (2001)

between appellant and Johnson and using it against appellant in the punishment phase of his capital murder trial, the charges of
which were pending at the time of the conversation. Wesbrook, supra. The trial court should have granted appellant's motion to
suppress the tape. We turn now to the question of harm. Tex.R.App. P. 44.2(a).
8

Cobb, infra fn.5, reaffirmed previously-stated principles that were in existence at the time of Wesbrook.

[15] Appellant's punishment will be reversed unless we can conclude that the erroneously admitted evidence was harmless
beyond a reasonable doubt. Wesbrook, supra. The seven Wesbrook judges who held there was error, split on the question of
whether the error was harmful. Three of the judges concluded the error was not harmful in light of the facts of that case and the
other punishment evidence, apart from the improperly admitted solicitation evidence. The evidence in the case reflected that
the defendant had killed five people in the subject capital murder, had made some previous threats of violence, and that he had
tried, from prison, to solicit the murder of his ex-wife and her husband. The evidence of these solicitations were admissible
because it was obtained by the informant prior to his becoming an agent of the State. Id. at 119–20 (Mansfield, J., joined by
Meyers and Keasler, J.J.). Four other judges could not say the erroneous admission of the evidence was harmless. Id. at 127–28
(Womack, J., joined by Price, Holland and Johnson, J.J.). They pointed to the importance of the erroneously admitted evidence
in corroborating the testimony of the cell mate who might otherwise have been disbelieved, and also to the emphasis placed
on the illegally obtained evidence by the State in closing arguments at punishment. Id. at 128. In closing, the State repeatedly
relied on the tapes and urged the jury to listen to the tapes “over and over and over.” Id.
To support a finding of future dangerousness in the instant case, the State relied on the facts of the crime itself, the unadjudicated
extraneous solicitation offense, and a number of bad acts committed *28 by appellant.9 Appellant presented testimony from a
psychologist who admitted on cross-examination that appellant had trouble controlling himself whenever stimulated by strong
feelings and there was no guarantee that these feelings would not be evoked by some event in the prison setting. Appellant's
psychologist also admitted appellant was narcissistic and had a sociopathic personality, was a follower and could be easily
manipulated. Appellant's psychologist testified that test results revealed that appellant had “chronic problems with obeying rules
and exercising proper moral judgment.”
9

These extraneous acts included an arrest as a juvenile for a burglary and destruction of property, trespass, and theft. Appellant was
arrested as an adult for driving under the influence—and as a result of the arrest became belligerent and threatened the deputy.
Appellant was also arrested by an agent of the United States Customs Service at a border crossing where he was driving a truck
filled with seventeen undocumented illegal aliens. Finally, a deputy with the Harris County Jail who was an expert on gang-related
activities in penal institutions testified that letters connected to appellant had gang-related symbols on them.

Although the tape itself was inadmissible, substantively similar testimony regarding appellant's attempts to solicit the murder
of the witness was before the jury that was not objected to and/or was not inadmissible. All of Cox's testimony and most
of Johnson's testimony before and after the tape, was not objected to. The information that Cox initially obtained from Reid
(appellant's cell mate) before Reid became an agent for the State was admissible. Cox testified without objection that he had
been approached by Reid who told him that appellant was attempting to arrange for the murder of Diane Zernia, a witness in
appellant's case. Reid also told Cox that appellant wanted to hire someone to recover a weapon to be used in that subsequent
murder. The map showing the location of the gun was also before the jury without objection. Johnson testified that he agreed
to go undercover and meet with appellant, pretending to be a friend of Reid's who could help retrieve the weapon for appellant.
Johnson also testified, without objection, that appellant had brought a hand-drawn map to the meeting, supposedly showing
the location of the weapon. After the tape was played, Johnson testified further, without objection, that the map appellant had
brought to the meeting also had an address written on it, and that appellant had held the map up to the glass for him to see.
Without the tape, the jury would not have known that appellant made plans with Johnson for Johnson to kill the witness, in
addition to retrieving the gun. It would have heard only that Reid had reported to authorities that appellant was attempting to
hire Humphrey to kill the witness.
The State emphasized appellant's taped conversation with Detective Johnson in closing arguments:

Appendix Page no. 117

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Thompson v. State, 93 S.W.3d 16 (2001)

Think about this. This shows what that defendant is like. He identifies [Diane Zerbia] for his want to be killer by describing
the 14 year old soon to be motherless daughter she has. If you hadn't heard it yourself from his own mouth, you wouldn't
even believe somebody would be that evil. Just mind boggling ...
******
... Every time [appellant] threatened he has followed through on it. What did he tell Gary Johnson? I'm a man of my word.
When I get out you got a free one coming.... He also tried to frame an innocent man. He tried to have Gary Johnson go get
the gun, give it to somebody *29 else so that person could be the one caught with the weapon and framed for the murder of
the people he killed.... When he wanted to have Diane Zernia killed did it ever bother him? Did he ever flinch? Did he ever
hesitate about the fact that she had a 14 year old daughter or a husband? All he was concerned with was getting the details
right. That it was a cow mailbox.... Remember this. He came to that cell to meet Gary Johnson that day with that address
already written down. He didn't think it up on the spur of the moment as he was talking to Gary Johnson that day. He came
down there meaning to have her killed.
The evidence of appellant's future dangerousness, apart from the tape, is considerably less than the evidence of the defendant's
future dangerousness in Wesbrook. In Wesbrook, the defendant had killed five people in the course of committing the subject
capital murder. There was admissible evidence that the defendant attempted to solicit from prison the murders of two others
(his ex-wife and her husband). These were the critical facts that led three judges to conclude the error was harmless: “because
the jury possessed details of both the crime itself and the solicitation to murder, there is no reasonable likelihood that the
inadmissible portion of Jones' testimony, considered either alone or in context, moved the jury from a state of nonpersuasion
to persuasion regarding the issue of future dangerousness.” Id. By contrast, the facts of the capital murder in the instant case
involved two victims, rather than five. The admissible solicitation evidence pertained to the planned murder of one person, rather
than two. Further, as emphasized by the four Wesbrook judges who could not conclude the error was harmless, the prosecutor
in the instant case emphasized the inadmissible evidence in closing. He referred the jury to statements made by appellant to
Johnson on the tape. Further, as pointed out by the four Wesbrook judges who found the error harmful in that case, without
the tape to corroborate him, Reid's testimony might not have borne much credibility. Although Cox had testified that Reid had
reported appellant's efforts to solicit the murder of Zernia by a former cell mate, the tape corroborates Reid's report and further
demonstrates appellant's additional efforts to see that the murder was carried out by attempting to enlist yet another hitman. We
are unable to say beyond a reasonable doubt that the tape did not influence the sentencing jury. Point of error four is sustained.10
10

Appellant's points of error five, six and seven, all alleging error at the punishment phase, are dismissed, due to our disposition of
point of error four.

Appellant's conviction is affirmed. Appellant's sentence is vacated, and this case is remanded to the trial court for a new
punishment hearing.

KELLER, P.J., filed a dissenting opinion, joined by KEASLER, HERVEY and COCHRAN.
KELLER, P.J., filed a dissenting opinion in which KEASLER, HERVEY, and COCHRAN, J.J., joined.
Today, the Court bars the admission of evidence even though: (1) the police did nothing wrong in obtaining the evidence, and
(2) the evidence involves a defendant's attempt to subvert his trial by having one of the State's witnesses killed. This odd result
is not dictated by Supreme Court precedent or by the purposes underlying the Sixth Amendment. Although this Court's opinion
is consistent with its recent *30 opinion in Wesbrook v. State,1 we should take this opportunity to reexamine and disavow
Wesbrook's conclusions about the admissibility of this type of evidence.2

Appendix Page no. 118

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Thompson v. State, 93 S.W.3d 16 (2001)

1
2

29 S.W.3d 103 (Tex.Crim.App.2000).
Some of the arguments in this opinion are discussed in greater detail in my concurring opinion in Wesbrook. Id. at 123–127 (Keller,
J. concurring).

1. The Supreme Court has not ruled on this issue.
The Sixth Amendment right to counsel is violated when an undercover government agent deliberately elicits from a defendant
incriminating evidence of an offense for which the defendant has already been charged.3 “The Sixth Amendment right, however,
is offense specific” and does not apply to crimes for which adversary criminal proceedings have not been initiated.4 The Supreme
Court's decision in Maine v. Moulton addressed the application of the Sixth Amendment to undercover investigations relating
to multiple crimes, some of which had been charged and some of which had not. The Supreme Court held that, even though a
defendant is charged with a crime, the government may legitimately conduct undercover investigations of extraneous, uncharged
crimes and use the evidence recovered in prosecutions for the extraneous crimes.5 However, the government may not use
evidence pertaining to the charged offense at the trial of the charged offense even though the evidence may have been obtained
incidentally during the government's investigation of uncharged, extraneous crimes.6 What Moulton did not decide is whether
(or to what extent) the government may use evidence pertaining to an uncharged, extraneous offense at the trial of the charged
offense.7 That issue was presented in Wesbrook and is presented now in this case.
3

Maine v. Moulton, 474 U.S. 159, 171–174, 106 S.Ct. 477, 88 L.Ed.2d 481 (1985); see also Massiah v. United States, 377 U.S. 201,
84 S.Ct. 1199, 12 L.Ed.2d 246 (1964).

4

McNeil v. Wisconsin, 501 U.S. 171, 175, 111 S.Ct. 2204, 115 L.Ed.2d 158 (1991).

5

Moulton, supra; see also McNeil, 501 U.S. at 176.

6

Moulton, supra; see also United States v. Terzado Madruga, 897 F.2d 1099, 1110 (11th Cir.1990).

7

See Moulton, supra; Wesbrook, 29 S.W.3d at 123–127 (Keller, J. concurring).

2. Cobb should motivate us to rethink our holding in Wesbrook.
In Texas v. Cobb, the United States Supreme Court disavowed the doctrine, expounded by several lower courts including this
Court, of extending the Sixth Amendment right to counsel to uncharged offenses that are closely related factually to the charged
offense.8 The Supreme Court pointed out the error of expanding the scope of the Sixth Amendment right to counsel beyond
the Supreme Court's earlier pronouncements: “We hold that our decision in McNeil v. Wisconsin ... meant what it said, and that
the Sixth Amendment right is ‘offense specific.’ ”9 As the lead opinion observes, Cobb does not speak directly to the issue
at hand. Nevertheless, the Supreme Court's restrictive construction of the Sixth Amendment right to counsel is at odds with
our expansive interpretation of the right in Wesbrook. Cobb illustrates that this Court should not too hastily extend the Sixth
Amendment right *31 to counsel to situations not directly addressed by the Supreme Court.10
8

532 U.S. 162, 121 S.Ct. 1335, 149 L.Ed.2d 321 (2001).

9

Id. at 1339 (citation omitted).

10

In any event, we should not consider ourselves wedded to our prior decision in Wesbrook. Although seven judges agreed that the
defendant's statements were erroneously admitted, Wesbrook was a fractured decision. The lead opinion (plurality) found error but
held it to be harmless, the dissent found reversible error, and this writer authored a concurring opinion finding that no error occurred.
Although the concurring opinion offered three reasons for finding that there was no constitutional violation, neither the lead opinion

Appendix Page no. 119

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Thompson v. State, 93 S.W.3d 16 (2001)
nor the dissent chose to respond to those arguments. And because the lead opinion found the error to be harmless, its pronouncement
that there was error was not necessary to the resolution of the case. Given these circumstances, we should not feel constrained by
the force of precedent to follow Wesbrook.

3. The Sixth Amendment right to counsel should not apply here.
The lead opinion in Wesbrook relied upon the Supreme Court's opinion in Moulton to support its conclusion that a constitutional
violation occurred. But four factors distinguish this case from Moulton and support finding that there was no Sixth Amendment
violation.

a. The evidence consisted of proof of an extraneous, uncharged offense.
In Moulton, the Supreme Court was concerned that law enforcement officials might fabricate the existence of an extraneous
offense to use as a pretext to elicit evidence of the charged offense.11 But the present case is not one in which authorities
investigated an extraneous offense and incidentally found proof of the charged offense. Here, the police investigated an
extraneous offense, and evidence of that offense is exactly what they discovered. That the extraneous offense may have probative
value in a prosecution for the charged offense is immaterial because it is still an extraneous offense. As the Sixth Amendment
right to counsel had not attached to the uncharged extraneous offense, the police were entitled to investigate that offense, and
the State should be allowed to use that evidence in any proceeding brought against the defendant.
11

Moulton, 474 U.S. at 180, 106 S.Ct. 477.

b. Statements that constitute a crime or show an intent to commit future criminal activity do not deserve Sixth Amendment
protection.
The statements made by Moulton related the details of a past crime.12 The statements made by appellant, however, constituted
a present crime (solicitation of murder) or a proposed future crime (murder, to be carried out in the future). This works strongly
against finding a Sixth Amendment violation. Federal cases in the Seventh and Eleventh Circuits have held that the Sixth
Amendment does not bar admission, at the trial for the charged offense, of statements that constitute a present crime or address
a crime to be committed in the future.13 Statements *32 that constitute a present crime or propose a future crime are uniquely
outside the attorney-client relationship because there is no right to the assistance of counsel in committing a new crime.14
These types of statements are not covered by the attorney-client privilege, and the ethical rules do not require attorneys to
keep such information confidential.15 If a defendant made such statements in counsel's presence, counsel might be obligated
to reveal those statements.16 If counsel had been present during the exchange between appellant and the undercover informant,
any advice to the defendant to refrain from making the statements would be “not because the statements would have shown a
consciousness of guilt of complicity in ... murder, but because his statements, themselves, were the operative acts of a separate
criminal offense.”17 As the Eleventh Circuit has noted, “Massiah is not a magic cloak with respect to future conduct.”18
12
13

When Moulton raised the possibility of killing a government witness, he may well have been proposing a future crime, but that
evidence was obtained before the informant became a government agent and was not the focus of the opinion in Moulton.
United States v. Moschiano, 695 F.2d 236, 240–243 (7th Cir.1982), cert. denied, 464 U.S. 831, 104 S.Ct. 110, 78 L.Ed.2d 111 (1983);
United States v. Darwin, 757 F.2d 1193 (11th Cir.1985), cert. denied, 474 U.S. 1110, 106 S.Ct. 896, 88 L.Ed.2d 930 (1986). A similar
holding occurred in Grieco v. Meachum, 533 F.2d 713, 717–718 (1st Cir.), cert. denied, 429 U.S. 858, 97 S.Ct. 158, 50 L.Ed.2d
135 (1976), but the First Circuit subsequently held that Grieco had been overruled by Moulton. Bender, 221 F.3d 265, 269 n. 4
(1st.Cir.2000).

Appendix Page no. 120

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Thompson v. State, 93 S.W.3d 16 (2001)

14
15

Moschiano, 695 F.2d at 241; Darwin, 757 F.2d at 1200.
Grieco, 533 F.2d at 718 n. 4 (“The privilege generally does not extend to confidences concerning present and future criminal activity”);
see also Tex.R. Evid. 503(d)(1); Tex. Disc. R. Prof. Conduct 1.05(c)(7) & (8).

16

Darwin, 757 F.2d at 1200; see also Tex. Disc. R. Prof. Conduct 1.05(e); Henderson v. State, 962 S.W.2d 544, 554–556
(Tex.Crim.App.1997).

17

Grieco, 533 F.2d at 718 (ellipsis inserted).

18

Darwin, 757 F.2d at 1199 (quoting United States v. DeWolf, 696 F.2d 1, 3 (1st Cir.1982)).

c. Criminal attempts to subvert a trial do not deserve Sixth Amendment protection.
What appellant attempted to do here was to subvert his criminal trial by killing one of the prosecution's witnesses. When the
new criminal activity involves an attempt to subvert a defendant's upcoming trial, a form of estoppel should arise with regard
to any Sixth Amendment claim the defendant might otherwise have: the defendant should not be permitted to claim that he was
wronged by the admission of such evidence at the very proceeding the defendant has tried to improperly influence:19
19

Id. (noting the irony that attempts by a defendant to improperly influence a proceeding may then become admissible in that proceeding;
if so, “that is the defendant's lookout”); United States v. Pineda, 692 F.2d 284, 288 (2nd Cir.1982).

[W]e perceive no reason why this sort of evidence concerning post-indictment obstruction of justice should not be admissible
at a hearing on sentence. The sentencing judge is entitled to know that the defendant has attempted to distort the very
proceeding at which the sentence is determined. Yet since obstruction of justice occurred after the guilty plea, the government
necessarily conducted its investigation into this activity after the indictment had been filed. In these circumstances, if we
adopted defendant's understanding of Massiah and required the government to contact defendant's counsel before using an
informer, the government would be effectively prevented from fully investigating such conduct and from obtaining such
compelling evidence for the sentencing judge. We refuse to read Massiah as providing a shield for defendant's attempts to
interfere with the sentencing process.20
20

Pineda, 692 F.2d at 288.

Appellant's argument is akin to that of a defendant who has murdered his parents asking the court to take pity on him because
he is an orphan.

*33 d. The evidence should at least be admissible at punishment.
The disputed evidence in Moulton was presented during the guilt phase of trial, while the evidence here was presented during the
punishment phase. Recently the First Circuit, while holding such evidence to be inadmissible at the guilt stage of trial, indicated
that it would be admissible at sentencing.21 And in United States v. Kidd, the Fourth Circuit held that the Sixth Amendment was
not violated by the introduction of an extraneous offense (elicited by an undercover agent after indictment in the primary case)
at the sentencing phase of trial for the charged offense.22 In Kidd, the defendant was charged with several offenses regarding
the possession and distribution of cocaine.23 Later, an undercover informant made a tape-recorded purchase of cocaine from
the defendant.24 The defendant pled guilty to one of the earlier distribution offenses, and at sentencing, the post-indictment
sale was introduced as relevant conduct to enhance the defendant's punishment under the Federal Sentencing Guidelines.25
Although the court expressed doubt about the propriety of introducing this evidence at the guilt stage of trial,26 it held that the
Sixth Amendment did not prohibit the introduction of the evidence at sentencing.27 In arriving at this holding, the Fourth Circuit

Appendix Page no. 121

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Thompson v. State, 93 S.W.3d 16 (2001)

remarked, “The Sixth Amendment does not create a sanctuary for the commission of additional crimes during the pendency
of an indictment.”28
21

Bender, 221 F.3d at 271.

22

United States v. Kidd, 12 F.3d 30, 32–34 (4th Cir.1993), cert. denied, 511 U.S. 1059, 114 S.Ct. 1629, 128 L.Ed.2d 352 (1994).

23

Id. at 31.

24

Id. at 32.

25

Id.

26

Id. at 33 n. 2.

27
28

Id. at 33. But see Jackson v. State, 643 A.2d 1360, 1374 (Del.1994), cert. denied, 513 U.S. 1136, 115 S.Ct. 956, 130 L.Ed.2d 898
(1995)(disagreeing with Kidd's holding that extraneous offenses, so obtained, are admissible at sentencing).
Id.

For these reasons, I would hold that the trial court did not err in admitting appellant's statements.
All Citations
93 S.W.3d 16
End of Document

Appendix Page no. 122

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Appendix E

Appendix Page no. 123

Thompson v. State, 108 S.W.3d 269 (2003)

108 S.W.3d 269 (Mem)
Court of Criminal Appeals of Texas.

Charles Victor THOMPSON, Appellant,
v.
The STATE of Texas.
No. 73431.
|
Jan. 29, 2003.
|
Rehearing Denied April 9, 2003.
Attorneys and Law Firms
Floyd W.Freed, III, Spring, for Appellant.
Alan Curry, Asst. DA, Houston, Matthew Paul, State's Atty., Austin, for State.

OPINION
The opinion is delivered PER CURIAM.
Appellant was convicted of capital murder in April 1999. Tex. Penal Code Ann. § 19.03(a). Pursuant to the jury's answers to the
special issues set forth in Texas Code of Criminal Procedure article 37.071 §§ 2(b) and 2(e), the trial court sentenced appellant to
death. Tex.Code Crim. Proc. art. 37.071 § 2(g). On original submission, the cause was remanded for a new punishment hearing
due to error occurring during the punishment phase of the trial. Thompson v. State, 93 S.W.3d 16 (Tex.Crim.App. 2001).
We granted appellant's first ground for rehearing in which he maintained we failed to fully consider his fourth point of error
on original submission. Upon further consideration, we have concluded our decision to grant rehearing was improvident and
we withdraw the order granting rehearing. The cause is remanded to the trial court for a new punishment hearing. TEX. CODE
CRIM. PROC. art. 44.29(c).

KEASLER and HERVEY, J.J. concurring and dissenting.
KEASLER, J., delivered this opinion concurring to the denial of Appellant's motion for rehearing and dissenting to the Court's
failure to grant rehearing on its own motion. HERVEY, J., joined.
The Court denied Thompson's motion for rehearing. I concur with that decision. But we should grant rehearing on our own
motion, overrule Wesbrook v. State,1 and correct the flaws of our previous opinion in this case. I dissent to the Court's failure
to do so.
1

29 S.W.3d 103 (Tex.Crim.App.2000), cert. denied, 532 U.S. 944, 121 S.Ct. 1407, 149 L.Ed.2d 349 (2001).

Appendix Page no. 124

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Thompson v. State, 108 S.W.3d 269 (2003)

I.
In Thompson's fourth point of error, he argues that the State's use of undercover officer Gary Johnson to obtain incriminating
statements from him violated the Sixth Amendment. On original submission, we agreed. We relied on our own opinion in
Wesbrook, which involved almost identical facts, and we reasoned that “no developments in the law since Wesbrook would
change or affect” that holding.2 We also relied on the leading Supreme Court authority, Maine v. Moulton,3 which had formed
the basis of our holding in Wesbrook as well. In both opinions we quoted Moulton 's now familiar language:
2

Thompson v. State, 93 S.W.3d 16, 27 (Tex.Crim.App.2001) (op. on orig. subm.).

3

474 U.S. 159, 106 S.Ct. 477, 88 L.Ed.2d 481 (1985).

To allow the admission of evidence obtained from the accused in violation of his Sixth Amendment rights whenever the
police assert an alternative, legitimate reason for their surveillance invites abuse by law enforcement personnel in *270 the
form of fabricated investigations and risks the evisceration of the Sixth Amendment right recognized in Massiah. On the
other hand, to exclude evidence pertaining to charges as to which the Sixth Amendment right to counsel had not attached at
the time the evidence was obtained, simply because other charges were pending at that time, would unnecessarily frustrate
the public's interest in the investigation of criminal activities. Consequently, incriminating statements pertaining to pending
charges are inadmissible at the trial of those charges, notwithstanding the fact that the police were also investigating other
crimes, if, in obtaining this evidence, the State violated the Sixth Amendment by knowingly circumventing the accused's
right to the assistance of counsel.4
4

Wesbrook, 29 S.W.3d at 118–19 (internal footnote omitted); Thompson, 93 S.W.3d 16, 24.

But our opinion in Wesbrook misinterpreted Moulton, and we should therefore reevaluate our decision in this case.
Initially, it is worth noting that when statements are obtained from a suspect in violation of his right to counsel, the Sixth
Amendment violation occurs at the moment that the statements are obtained. If such a violation occurs, the statements are
inadmissible at trial—at any trial—of the accused for any offense. Conversely, if the statements are legally obtained, they are
admissible, if relevant, at any trial of the accused for any offense.
Of course, if a statement incriminates a defendant with regard to two separate offenses simultaneously, one a charged offense
and one an uncharged offense, then that particular statement could be inadmissible at one trial and admissible at the other.
But that is not the case here. In this case we are concerned solely with statements about one particular offense—an uncharged
offense. In that sense, the analysis of whether the Sixth Amendment was violated in obtaining the statement should govern that
statement's admissibility at both the trial of that uncharged offense and the trial of the pending charge.

II.
I will next consider the leading Supreme Court authority on the issue of statements obtained from defendants before their trial
and in the absence of their lawyers. I will also attempt to demystify the critical language in Maine v. Moulton.

A. The Cases
I begin with Massiah v. United States.5 There, the defendant and a co-defendant were charged with possessing narcotics. They
each retained a lawyer, pleaded not guilty, and were released on bail pending trial. The co-defendant soon decided to cooperate

Appendix Page no. 125

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Thompson v. State, 108 S.W.3d 269 (2003)

with authorities in their continuing investigation of the drug transaction. The police hoped to locate the source of the drugs as
well as the intended buyer. To assist them, the co-defendant met with the defendant in the co-defendant's car, which had been
equipped with a receiving device so that a police officer could overhear the conversation. The defendant made incriminating
statements regarding the drug operation during the conversation and those statements were admitted at his trial.
5

377 U.S. 201, 84 S.Ct. 1199.

The Supreme Court began by referring to the concurring opinions in Spano v. New York.6 That case had involved the admission
into evidence of the defendant's confession, *271 which had been obtained after he had been indicted but without the aid
of his lawyer. The Massiah Court looked to the concurring opinions in Spano, stating that they “pointed out that under our
system of justice the most elemental concepts of due process of law contemplate that an indictment be followed by a trial, in
an orderly courtroom, presided over by a judge, open to the public, and protected by all the procedural safeguards of the law.”7
In addition, the Massiah Court said, the Spano concurrences emphasized that “a Constitution which guarantees a defendant
the aid of counsel at such a trial could surely vouchsafe no less to an indicted defendant under interrogation by the police in a
completely extrajudicial proceeding. Anything less ... might deny a defendant effective representation by counsel at the only
stage when legal aid and advice would help him.”8
6

360 U.S. 315, 79 S.Ct. 1202, 3 L.Ed.2d 1265 (1959).

7

Massiah, 377 U.S. at 204, 84 S.Ct. 1199 quoting Spano, 360 U.S. at 327, 79 S.Ct. 1202 (Stewart, J., concurring).

8

Id., quoting Spano, 360 U.S. at 326, 79 S.Ct. 1202 (Douglas, J., concurring).

The Massiah Court also referred to Powell v. Alabama,9 which had recognized that defendants “are as much entitled” to the
aid of counsel during the time from their arraignment to the beginning of trial “as at the trial itself,” because this pretrial period
is “perhaps the most critical period of the proceedings ... when consultation, thorough-going investigation and preparation are
vitally important.”10
9

287 U.S. 45, 53 S.Ct. 55, 77 L.Ed. 158 (1932).

10

Massiah, 377 U.S. at 205, 84 S.Ct. 1199 (internal brackets omitted), quoting Powell, 287 U.S. at 57, 53 S.Ct. 55.

The Court then applied this law to the facts before it, even though Massiah had been interrogated not by a police officer but
by a government informant. The Court explained that the rule would have to extend to facts such as these because “if such a
rule is to have any efficacy it must apply to indirect and surreptitious interrogations as well as those conducted in the jailhouse.
In this case, Massiah was more seriously imposed upon because he did not even know that he was under interrogation by a
government agent.”11
11

Id. at 206, 84 S.Ct. 1199 quoting United States v. Massiah, 307 F.2d 62, 72–73 (Hays, J., dissenting).

The Court concluded by recognizing that while the police may naturally continue their investigative efforts into a crime after the
defendant has been arrested, “the defendant's own incriminating statements, obtained by federal agents under the circumstances
here disclosed, could not constitutionally be used by the prosecution as evidence against him at his trial.”12
12

Id. at 207, 84 S.Ct. 1199.

The next significant case after Massiah was United States v. Henry.13 In Henry, the defendant was indicted for robbery, had
counsel appointed, and was in jail awaiting trial. Coincidentally, housed with him in the jail was a paid government informant
incarcerated on forgery charges. Authorities spoke with the informant and asked him to “be alert” to any statements made by the
other prisoners, but not to initiate a conversation with Henry or to ask him any questions. Later, the informant told authorities

Appendix Page no. 126

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Thompson v. State, 108 S.W.3d 269 (2003)

that Henry had told him about the robbery, and the informant was paid for his information. The informant then testified at
Henry's trial regarding *272 the statements Henry had made to him about the robbery.
13

447 U.S. 264, 100 S.Ct. 2183, 65 L.Ed.2d 115 (1980).

The Court began with the language in Massiah holding that the defendant's right to counsel had been violated when “federal
agents had deliberately elicited” from him incriminating statements.14 The questions in Henry were whether the jailhouse
informant was a “government agent” and whether he had “deliberately elicited” statements from the defendant. The Court
answered both questions affirmatively.15 The Court acknowledged the government's argument that the informant had been
instructed not to question Henry. But the Court concluded that, despite this instruction, the government agent “must have known”
that Henry would likely incriminate himself to the informant.16 Additionally, the Court noted that the informant had been more
than just a passive listener—he had actually engaged in conversation with Henry.17
14

Id. at 270, 100 S.Ct. 2183.

15

Id. at 270–71, 100 S.Ct. 2183.

16

Id. at 271, 100 S.Ct. 2183.

17

Id.

The Henry Court emphasized that the defendant had not known that he was speaking to someone who would convey his
words to the prosecution. It recognized that “[a]n accused speaking to a known Government agent is typically aware that his
statements may be used against him,” whereas “the same cannot be said” with regard to an accused who is “in the company
of a fellow inmate who is acting by prearrangement as a Government agent.”18 It stated that “[c]onversation stimulated in
such circumstances may elicit information that an accused would not intentionally reveal to persons known to be Government
agents.”19 The Court concluded by holding that the government “intentionally creat[ed] a situation likely to induce Henry to
make incriminating statements without the assistance of counsel,” thereby violating Henry's right to counsel.20
18

Id. at 273, 100 S.Ct. 2183.

19

Id.

20

Id. at 274, 100 S.Ct. 2183.

A few years later came Moulton. In that case, the defendant was out on bail awaiting trial when he met with his co-defendant
and suggested murdering one of the State's witnesses. The co-defendant decided to cooperate with the police. He recorded
a conversation that he had with the defendant in which he indirectly elicited a number of incriminating statements from the
defendant. The bulk of the comments involved the offense for which trial was pending; the defendant dropped the witnessmurder idea as not being feasible. At the defendant's trial, the incriminating statements related to the offense were admitted,
but not any of the statements related to the murder plot.
The Supreme Court began with the acknowledgment that the right to counsel does not exist solely at trial—it applies before trial
as well, when the adversary criminal proceedings have begun.21 The Court then noted that once the right to counsel has attached
and been asserted, the State must honor it, meaning, “at the very least,” that “the prosecutor and police have an affirmative
obligation not to act in a manner that circumvents and thereby dilutes the protection afforded by the right to counsel.”22 The
Court then reviewed Spano, Massiah, and Henry, emphasizing *273 that “the Sixth Amendment is violated when the State
obtains incriminating statements by knowingly circumventing the accused's right to have counsel present in a confrontation
between the accused and a state agent.”23

Appendix Page no. 127

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Thompson v. State, 108 S.W.3d 269 (2003)

21

Moulton, 474 U.S. at 170, 106 S.Ct. 477.

22

Id. at 170–71, 106 S.Ct. 477.

23

Id. at 171–76, 106 S.Ct. 477.

In attempting to distinguish the previous cases, the government argued that the State was validly investigating a potential murder
in Moulton.24 Since that investigation was legitimate, the government contended, the statements Moulton made during that
investigation which concerned the charged offense should have been admissible at the trial of that offense.25 But the Court
disagreed. It recognized that the police have “an interest in investigating new or additional crimes.”26 But it concluded that, “[i]n
seeking evidence pertaining to pending charges, ... the Government's investigative powers are limited by the Sixth Amendment
rights of the accused.”27 The Court then set forth the critical language which formed the basis of its holding:
24

Id. at 178, 106 S.Ct. 477.

25

Id.

26

Id. at 179, 106 S.Ct. 477.

27

Id. at 179–80, 106 S.Ct. 477.

[T]o exclude evidence pertaining to charges as to which the Sixth Amendment right to counsel had not attached at the time
the evidence was obtained, simply because other charges were pending at that time, would unnecessarily frustrate the public's
interest in the investigation of criminal activities. Consequently, incriminating statements pertaining to pending charges are
inadmissible at the trial of those charges, not withstanding the fact that the police were also investigating other crimes, if,
in obtaining this evidence, the State violated the Sixth Amendment by knowingly circumventing the accused's right to the
assistance of counsel.28
28

Id. at 180, 106 S.Ct. 477.

That same term the Court decided Moran v. Burbine.29 In that case, the defendant was arrested for burglary. While he was
in custody and without his knowledge, his sister attempted to retain the services of the Public Defender's Officer for him. A
lawyer from that office called the station and was told that officers would not question the defendant until the following day.
Nevertheless, when officers received information implicating the defendant in a murder, they approached him. After waiving
his Miranda30 rights, he confessed to the murder. His confession was admitted at his murder trial.
29

475 U.S. 412, 106 S.Ct. 1135, 89 L.Ed.2d 410 (1986).

30

Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).

After rejecting the defendant's Fifth Amendment arguments, the Supreme Court analyzed the facts under the Sixth
Amendment.31 The Court began with the fundamental notion that the accused is entitled to counsel, but not until the right to
counsel attaches.32 The Court concluded that the interrogation of Burbine took place before his right to counsel had attached
with regard to the murder, so Burbine's right to counsel was not violated.33
31

Burbine, 475 U.S. at 428, 106 S.Ct. 1135.

32

Id.

33

Id.

Burbine argued that, regardless of the fact that adversary judicial proceedings had not yet begun, his right to counsel had attached
simply because a lawyer had been *274 obtained for him. In rejecting this contention, the Supreme Court elaborated on “the
Appendix Page no. 128

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Thompson v. State, 108 S.W.3d 269 (2003)

underlying purposes of the right to counsel.”34 It explained that “[t]he Sixth Amendment's intended function is not to wrap
a protective cloak around the attorney-client relationship for its own sake any more than it is to protect a suspect from the
consequences of his own candor. Its purpose, rather, is to assure that in any criminal prosecution, the accused shall not be left
to his own devices in facing the prosecutorial forces of organized society.”35
34

Id. at 430, 106 S.Ct. 1135.

35

Id. (internal citations and quotation marks omitted).

Finally, there is McNeil v. Wisconsin.36 There, the defendant was in custody awaiting trial for armed robbery. Counsel had been
appointed for that offense. On several occasions, officers approached the defendant in jail and asked him about an unrelated
murder, attempted murder, and burglary. Each time, the officers informed the defendant of his Miranda rights and he waived
those rights. Eventually, the defendant admitted his involvement in those crimes. He was charged with and later convicted of
those offenses, with his incriminating statements being admitted against him.
36

501 U.S. 171, 111 S.Ct. 2204, 115 L.Ed.2d 158 (1991).

The defendant argued that his Sixth Amendment right to counsel attached when counsel was appointed in the armed robbery
case, so the subsequent questioning of him violated that right. The Supreme Court disagreed. The Court held that the Sixth
Amendment right is “offense specific. It cannot be invoked once for all future prosecutions.”37 The Court, quoting from Moulton,
acknowledged the State's interest in investigating new and additional crimes.38 The Court concluded that the defendant's
statements pertained to offenses for which his right to counsel had not yet attached and, therefore, the Sixth Amendment had
not been violated in obtaining them.39
37

Id. at 175, 111 S.Ct. 2204.

38

Id. at 175–76, 111 S.Ct. 2204.

39

See id. at 176, 111 S.Ct. 2204.

Several overriding principles emerge from these cases. First, the attachment of the right to counsel is paramount. If the right
to counsel has not yet attached through the initiation of adversary judicial proceedings, then interrogating the defendant, either
through obvious police questioning or surreptitious informant questioning, does not violate the Sixth Amendment. A second
important principle is that the right to counsel is “offense specific.” Though the Court did not use that particular phrase until
McNeil, the concept existed as far back as Moulton. Because it is offense specific, the fact that the right to counsel has attached
with regard to one offense does not mean that it has attached with regard to another offense. Instead, each offense must be
evaluated individually. The Supreme Court pointedly reminded us of this principle recently in Texas v. Cobb.40 I got it the first
time. They don't have to tell me twice more.
40

532 U.S. 162, 174, 121 S.Ct. 1335, 149 L.Ed.2d 321 (2001).

Finally, the right to counsel is not a “protective cloak” which prevents the police from continuing to investigate the defendant in
other crimes. The purpose of the Sixth Amendment, like its application, is “offense specific.” The Sixth Amendment exists to
protect the defendant, in *275 the prosecution of a particular offense, from the “prosecutorial forces of organized society, so
that he is not left alone.”41 It is not intended to shield the defendant from being interrogated about new and additional crimes.
41

Burbine, 475 U.S. at 430, 106 S.Ct. 1135.

Of course, each of the preceding cases differs factually from ours today in a significant respect. In each of the above cases, the
State sought to admit at the defendant's trial evidence of the defendant's guilt of that offense. In this case, however, the State

Appendix Page no. 129

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Thompson v. State, 108 S.W.3d 269 (2003)

sought to admit at the punishment phase of Thompson's trial evidence of Thompson's committing an entirely different offense.
The task is to apply the Supreme Court authority to these unique facts.

B. Analysis of Moulton
1. What it Says and Doesn't Say
I now analyze the critical language from Moulton one phrase at a time. The first sentence of the oft-quoted excerpt states that
“to exclude evidence pertaining to charges as to which the Sixth Amendment right to counsel had not attached at the time
the evidence was obtained, simply because other charges were pending at that time, would unnecessarily frustrate the public's
interest in the investigation of criminal activities.” This sentence has three important elements. First, it tells us that, in analyzing
whether the defendant's right to counsel has attached, we consider “evidence pertaining to [those] charges.” In other words, the
content of the statement is relevant. We should consider, in our analysis, what charges the statement addresses. If the statement
pertains to charges where the right to counsel has not yet attached, then the statement has been obtained legally and should
be admitted. On the other hand, if the statement pertains to charges as to which the right to counsel had attached when the
statements were made, then the statement may have been obtained illegally and may need to be excluded.
Second, this sentence reminds us that the critical time period in terms of analyzing a Sixth Amendment violation is “the time the
evidence was obtained.” Finally, the above sentence recognizes that the public has an interest in the investigation of criminal
activities, and this interest may be pursued even when a defendant has pending charges where his right to counsel has attached.
The sentence leaves no doubt that the mere attachment of the right to counsel with regard to pending charges does not prevent
the police from investigating the defendant's involvement in other uncharged crimes.
In the next sentence, the Court states the following: “Consequently, incriminating statements pertaining to pending charges
are inadmissible at the trial of those charges, notwithstanding the fact that the police were also investigating other crimes,
if, in obtaining this evidence, the State violated the Sixth Amendment by knowingly circumventing the accused's right to the
assistance of counsel.” This sentence, too, is multi-dimensional. It says that if the police obtain incriminating statements from
the defendant in violation of his right to counsel, those statements are not admissible at the trial of those particular charges. Once
again, the Court confirms that the Sixth Amendment violation, if any, occurs at the time the statements are obtained. Additionally,
the Court makes clear that statements obtained in violation of the Sixth Amendment which incriminate the defendant on a
particular charge are inadmissible at the trial of that charge.
*276 Let me point out what this sentence does not say. It does not say that incriminating statements by the defendant pertaining
to a new and different offense are inadmissible at the trial of the charged offense. Instead, it says only that incriminating
statements by the defendant pertaining to the charged offense are inadmissible at the trial of the charged offense. I will address
this point in detail in Subsection 3.
So Moulton says that the police may investigate a new crime when a pending charge exists. During this investigation, if they
obtain evidence pertaining to the new crime, the acquisition of this evidence does not violate the Sixth Amendment because
the Sixth Amendment right to counsel had not yet attached with regard to that crime. This holding makes sense in light of the
principles to be gathered from the Massiah line of cases.
• The right to counsel cannot be violated until it has attached.
• Just because it has attached with regard to one offense does not mean it has attached with regard to another offense.
• The purpose of the right to counsel is not to shield a defendant from further investigation and prosecution by the State on
new and different offenses.

Appendix Page no. 130

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Thompson v. State, 108 S.W.3d 269 (2003)

When a defendant is in custody awaiting trial on a charged offense, his Sixth Amendment right to counsel has attached with
regard to that offense. When police simultaneously investigate that defendant for a new, uncharged crime, the defendant's
Sixth Amendment right to counsel with regard to that uncharged crime has not yet attached. So if the police, either uniformed,
undercover, or through an informant, obtain incriminating statements from the defendant with regard to that new, uncharged
offense, no Sixth Amendment violation has occurred.
It does not matter at which trial the statements are admitted. What matters is the content of the statement. If the statement
incriminates the defendant on the charged offense, obtaining the statement violated the defendant's right to counsel, because his
right to counsel had attached with regard to that offense. Likewise, if the statement pertains to an uncharged offense, obtaining
the statement did not violate the defendant's right to counsel because his right to counsel had not yet attached with regard to
that offense.
It defies common sense to hold that statements by a defendant are admissible at one trial (the trial of the new, uncharged offense),
but inadmissible at another trial (the trial of the pending charge). Either a Sixth Amendment violation has occurred in obtaining
the statements, or it has not. And once that question is resolved, the statements are either admissible at all trials or inadmissible at
all trials. The Supreme Court made clear in Moulton that statements pertaining to a new, uncharged offense would be admissible
at a trial for that offense. The statements would therefore necessarily also be admissible at a trial for the charged offense.

2. Virginia's and Wisconsin's Analyses
The Supreme Court of Virginia recognized this in a case almost identical to this one, Frye v. Commonwealth.42 In Frye, the
defendant was in custody awaiting trial on capital murder charges when he approached a fellow inmate about an escape plan.
The inmate informed authorities, and an investigator asked the inmate to let him know if Frye supplied any more information.
42

231 Va. 370, 345 S.E.2d 267 (Va.1986).

*277 The Commonwealth argued that the inmate-informant's actions had not violated the Sixth Amendment because Frye
had initiated the relationship, not the informant. The Virginia Court rejected this notion, relying on Moulton and Henry.43 But
the Court also recognized that Moulton was not directly on point. The Frye Court emphasized that the Supreme Court limited
Moulton 's holding “in one crucial respect. The proscription against knowing circumvention of the right of the accused to have
counsel present ... extends only to pending charges concerning which the right of counsel has attached.... Thus, only such
statements as incriminate the defendant on the pending charges are obtained in violation of the Sixth Amendment and must be
excluded.”44 The Court concluded that the evidence of the escape plan was admissible at the punishment phase of Frye's capital
murder trial because it was “unrelated to the offense for which he was on trial.”45
43

Id. at 391, 345 S.E.2d at 282.

44

Id. at 391–92, 345 S.E.2d at 282–83 (emphasis in original).

45

Id. at 392, 345 S.E.2d at 282–83.

Another useful case comes from the court of appeals in Wisconsin. In State v. Lale.46 the defendant was out on bail after being
arrested for attempted murder. Although he had retained counsel for that charge, no complaint had been filed and so no formal
adversary proceedings had begun. Several days later, a complaint was filed against him for possession of illegal weapons. That
same day, officers contacted Lale's girlfriend and persuaded her to encourage Lale to talk to the police about the attempted
murder.

Appendix Page no. 131

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Thompson v. State, 108 S.W.3d 269 (2003)

46

141 Wis.2d 480, 415 N.W.2d 847 (Wis.Ct.App.1987).

The defendant complained that these conversations violated his Sixth Amendment right to counsel, but the court concluded that
his right to counsel had not yet attached on the attempted murder. The court explained:
We conclude that the language in Moulton requiring suppression of evidence refers to situations where police obtain
incriminating statements pertaining to the crime for which a defendant has been formally charged, but justify their action by
reasoning that they meant to investigate other unfiled charges; where, however, the police obtain incriminating statements on
charges unrelated to the filed charge, the Moulton and Moran courts hold that the sixth amendment rights are not implicated.47
47

Id. at 489, 415 N.W.2d at 851.

Admittedly, Lale is different from this case because in Lale, the defendant made incriminating statements about an uncharged
offense and those statements were admitted at the trial for that offense. This makes Lale more similar to the Supreme Court
precedent in the preceding section rather than to the unique facts of this case.
Nevertheless, the language in Lale provides guidance. The court recognized that Moulton “refers to situations where police
obtain incriminating statements pertaining to the crime for which a defendant has been formally charged, but justify their action
by reasoning that they meant to investigate other unfiled charges.”48 This case does not involve such facts, because here, the
statements at issue pertain to a new, uncharged offense, not the pending charge. Additionally, the Lale court acknowledged that
when “the police obtain incriminating statements on charges unrelated to the filed charge, the Moulton and *278 Moran courts
hold that the sixth amendment rights are not implicated.”49 So both Virginia and Wisconsin agree that statements pertaining to
a new, uncharged offense are obtained legally and are therefore admissible at a trial of the charged offense.
48

Id.

49

Id.

3. Denying the Antecedent
The Moulton Court was clear in stating that evidence obtained regarding the uncharged crime would be admissible at a trial
of those charges. And in a footnote, the Court added that “[i]ncriminating statements pertaining to other crimes, as to which
the Sixth Amendment right has not yet attached, are, of course, admissible at a trial of those offenses.”50 Some courts have
concluded from this language that Moulton also held that the converse is true—that is, if the statements regarding that uncharged
crime are admissible at the trial of that offense, then they must be inadmissible at any other trial, specifically the trial of the
charged offense.51 But the Supreme Court did not say this, and drawing that conclusion from the Court's holding employs the
logical fallacy known as denying the antecedent.
50
51

474 U.S. at 180 n. 16, 106 S.Ct. 477.
See, e.g., Jackson v. State, 643 A.2d 1360, 1372 (Del.1994); Bruno v. State, 93 Md.App. 501, 509–10, 613 A.2d 440, 444–45
(Md.Ct.Spec.App.1992).

Douglas Lind describes this fallacy in his book Logic and Legal Reasoning.52 He uses the following example:
52

DOUGLAS LIND, LOGIC AND LEGAL REASONING 207–08 (2001).

(1) If Socrates is human, then Socrates is mortal.

Appendix Page no. 132

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Thompson v. State, 108 S.W.3d 269 (2003)

(2) Socrates is not human.
(3) Therefore, Socrates is not mortal.53
53

Id.

Lind explains that this is a logical fallacy because “Socrates could well be mortal, even if not human.”54
54

Id. at 208.

The same is true here. The courts that employ this fallacy reason as follows:
(1) If the trial concerns the uncharged offense, then the evidence is admissible. (Moulton 's holding).
(2) This trial did not concern the uncharged offense.
(3) Therefore, the evidence is not admissible.55
55

Jackson, 643 A.2d at 1372 (Del.1994); Bruno, 93 Md.App. at 509–10, 613 A.2d at 444–45.

But the evidence could well be admissible, even though the trial concerned the pending charge rather than the uncharged offense.
The courts employing this fallacy have sometimes relied on the Supreme Court's dicta in Burbine as support. In addition to other
language, the Burbine Court also set forth in dicta its interpretation of Moulton as holding that “the evidence concerning the
crime for which the defendant had not been indicted ... would be admissible at a trial limited to those charges.”56 Some courts
tend to view the word “limited” as implying that the statement would be admissible only at a trial on that particular charge.
But the Burbine Court was not faced with facts like this case where the State sought to admit the statement at the punishment
phase of the trial of the pending charge.
56

Burbine, 475 U.S. at 431, 106 S.Ct. 1135

Moreover, this one sentence in Burbine should not be taken so far in light of the Burbine Court's stated awareness that (1) *279
Sixth Amendment violations are to be evaluated at the time that the evidence is obtained rather than at the time that it is admitted
at trial,57 and (2) the Sixth Amendment does not wrap “a protective cloak around the attorney-client relationship.” Under
Burbine, the statements in this case would be admissible at the trial of the pending charge because, first, no Sixth Amendment
violation occurred in obtaining the statements since the right to counsel had not yet attached with regard to the new, uncharged
crime. The statements would also be admissible because the Sixth Amendment should not be used to protect a person from being
prosecuted for new, uncharged offenses that he commits. Burbine did not address whether the statements would be admissible
at the trial for the pending charge. And a careful reading of Burbine indicates that the opposite conclusion is more true to the
Court's rationale, which emphasized the public's interest in investigating crime.
57

Id. at 428, 106 S.Ct. 1135 (interrogation of Burbine took place before his right to counsel had attached with regard to the murder,
so Burbine's right to counsel was not violated).

4. Offense Specificity
Objectors may contend that the statements elicited from the defendant regarding the uncharged offense are incriminating not only
with respect to that uncharged offense but also with respect to the pending charge. That is, the argument goes, the evidence will
“incriminate” the defendant at the punishment stage of the pending charge and likely affect the jury's decision on punishment,
to the defendant's detriment. As a result, they would argue, this evidence cannot be admissible at the punishment phase of the

Appendix Page no. 133

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Thompson v. State, 108 S.W.3d 269 (2003)

pending charge because, since it is incriminating, it was obtained in violation of the defendant's right to counsel on the pending
charge.
The problem with this argument is that the right to counsel does not protect a defendant from being interrogated with regard
to anything which could remotely affect the punishment phase of his trial. Instead, the right to counsel is “offense specific”
and protects only against interrogations related to the pending charge. The Sixth Amendment is not a blanket which forbids
all communication between the defendant and law enforcement in the absence of the defendant's counsel. Rather, it forbids
interrogation of the defendant regarding the pending charge without his lawyer.

III.
This Court is reluctant to overrule precedent. But when one of our opinions conflicts with Supreme Court authority, we should
overrule it. Wesbrook misinterpreted and conflicts with Moulton.
In Wesbrook, the defendant, in custody awaiting trial on capital murder, told a fellow inmate that he wanted to hire someone to
kill two people. The inmate told the police, and the police arranged a plan with the inmate. The inmate told the defendant that he
knew of a hit man, who was really undercover officer Gary Johnson (the same undercover officer in today's case). The defendant
was interested and had five more people he wanted killed, four of whom were to be witnesses at his trial. The defendant spoke
to Johnson on the phone to hire him, then later spoke to Johnson in person, but he eventually backed out of the murder plan
because he was afraid the police were on to him. The State introduced evidence of the solicitation at the punishment phase of
the defendant's capital murder trial.
Our analysis was flawed. First, although we cited Moulton generally for the *280 proposition that “[t]he Sixth Amendment
is violated when the State obtains incriminating statements by knowingly circumventing the accused's right to have counsel
present in a confrontation between the accused and a state agent,”58 we failed to acknowledge that Moulton specifically
limited this holding to “incriminating statements pertaining to pending charges.” In Wesbrook, we applied Moulton 's holding
to incriminating statements pertaining to a new offense, solicitation of capital murder. But nothing in Moulton supports this
extension.
58

Wesbrook, 29 S.W.3d at 117.

Second, we recognized the rules concerning cellmates as government agents “deliberately eliciting” information from the
defendant. We then without elaboration applied this doctrine of law to the facts of the case, concluding that the State
“intentionally created a situation likely to induce appellant to make incriminating statements without the assistance of counsel,
the State violated appellant's Sixth Amendment right to counsel.”59 The problem with that leap in logic was that we never
considered whether Wesbrook's right to counsel had attached with regard to the solicitation offense. If we had done so, we
would have been forced to realize that the defendant's right to counsel had not attached with regard to that offense.
59

Id. at 118.

We should analyze the issue anew today and recognize that the statements were not obtained in violation of Wesbrook's right to
counsel because they pertained to a solicitation offense for which he had not yet been charged. The statements were therefore
admissible at the punishment phase of the trial of the pending charge.
We should overrule that portion of Wesbrook which dealt with Wesbrook's sixth point of error. I must admit that I joined the
plurality that handed down the judgment in Wesbrook. Upon reconsideration, I conclude that I was wrong. I therefore join
Justice Jackson in admitting that

Appendix Page no. 134

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Thompson v. State, 108 S.W.3d 269 (2003)

[p]recedent ... is not lacking for ways by which a judge may recede from a prior opinion that has proven untenable and perhaps
misled others.... Perhaps Dr. Johnson really went to the heart of the matter when he explained a blunder in his dictionary
—“Ignorance, sir, ignorance.” But an escape less self-deprecating was taken by Lord Westbury, who, it is said, rebuffed a
barrister's reliance upon an earlier opinion of his Lordship: “I can only say that I am amazed that a man of my intelligence
should have been guilty of giving such an opinion.” If there are other ways of gracefully and good naturedly surrendering
former views to a better considered opinion, I invoke them all.60
60

McGrath v. Kristensen, 340 U.S. 162, 177–78, 71 S.Ct. 224, 95 L.Ed. 173 (1950) (Jackson, J., concurring).

IV.
Thompson was under indictment and in custody awaiting trial for capital murder. Obviously, adversary criminal proceedings
had been initiated with respect to the capital murder, and Thompson's Sixth Amendment right to counsel had attached with
respect to that charge.
While in custody, Thompson made statements concerning an additional offense, a plan to murder a witness at his trial. This was
a new offense. No adversary criminal proceedings had been initiated with respect to this offense. Thompson's right to counsel
had not attached with respect to this offense. Obtaining these statements from Thompson did not violate the Sixth Amendment
because his right to counsel *281 had not yet attached with respect to this offense. Since obtaining the statements did not
violate the Sixth Amendment, the statements were admissible, not only at his trial for that offense, but also at his trial for the
pending charge.
All Citations
108 S.W.3d 269 (Mem)
End of Document

Appendix Page no. 135

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Appendix F

Appendix Page no. 136

Case: 17-70008

Document: 00515409025

Page: 1

Date Filed: 05/07/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________________
No. 17-70008
___________________
CHARLES VICTOR THOMPSON,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
_______________________
Appeal from the United States District Court
for the Southern District of Texas
_______________________
ON PETITION FOR REHEARING
Before HIGGINBOTHAM, HAYNES, and GRAVES, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

ENTERED FOR THE COURT:

/s/ Patrick E. Higginbotham

__________________________________
UNITED STATES CIRCUIT JUDGE

Appendix Page no. 137

Appendix G

Appendix Page no. 138

Case
Case4:13-cv-01900
4:13-cv-01900 Document
Document57-3
32-3 Filed
FiledininTXSD
TXSDon
on05/09/16
08/10/14 Page
Page32of
of303
14

Appendix Page no. 139

002061

Case
Case4:13-cv-01900
4:13-cv-01900 Document
Document57-3
32-3 Filed
FiledininTXSD
TXSDon
on05/09/16
08/10/14 Page
Page43of
of303
14

Appendix Page no. 140

002062

Appendix H

Appendix Page no. 141

Appendix Page no. 142

002118

Appendix I

Appendix Page no. 143

Appendix Page no. 144

002112

Appendix Page no. 145

002113

Appendix Page no. 146

002114

Appendix Page no. 147

002115

Appendix J

Appendix Page no. 148

Case
Case4:13-cv-01900
4:13-cv-01900 Document
Document57-3
32-3 Filed
FiledininTXSD
TXSDon
on05/09/16
08/10/14 Page
Page54of
of303
14

Appendix Page no. 149

002063

Case
Case4:13-cv-01900
4:13-cv-01900 Document
Document57-3
32-3 Filed
FiledininTXSD
TXSDon
on05/09/16
08/10/14 Page
Page65of
of303
14

Appendix Page no. 150

002064

Appendix K

Appendix Page no. 151

Case
Case
4:13-cv-01900
4:13-cv-01900Document
Document
57-3
32-5Filed
Filed
in TXSD
in TXSD
onon
05/09/16
08/10/14Page
Page
126
1 of 303
1

Appendix Page no. 152

002184

Appendix L

Appendix Page no. 153

Case 4:13-cv-01900 Document 57-3 Filed in TXSD on 05/09/16 Page 143 of 303

Appendix Page no. 154

002201

